<html>
<title> - 59-654cc</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
59-654cc

                                 ______

1999

                 FIXING OUR SCHOOLS FROM THE BOTTOM UP

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 23, 1999

                               __________

                            Serial No. 106-6


           Printed for the use of the Committee on the Budget
                        COMMITTEE ON THE BUDGET

                     JOHN R. KASICH, Ohio, Chairman
SAXBY CHAMBLISS, Georgia,            JOHN M. SPRATT, Jr., South 
  Speaker's Designee                     Carolina,
CHRISTOPHER SHAYS, Connecticut         Ranking Minority Member
WALLY HERGER, California             JIM McDERMOTT, Washington,
BOB FRANKS, New Jersey                 Leadership Designee
NICK SMITH, Michigan                 LYNN N. RIVERS, Michigan
JIM NUSSLE, Iowa                     BENNIE G. THOMPSON, Mississippi
PETER HOEKSTRA, Michigan             DAVID MINGE, Minnesota
GEORGE P. RADANOVICH, California     KEN BENTSEN, Texas
CHARLES F. BASS, New Hampshire       JIM DAVIS, Florida
GIL GUTKNECHT, Minnesota             ROBERT A. WEYGAND, Rhode Island
VAN HILLEARY, Tennessee              EVA M. CLAYTON, North Carolina
JOHN E. SUNUNU, New Hampshire        DAVID E. PRICE, North Carolina
JOSEPH PITTS, Pennsylvania           EDWARD J. MARKEY, Massachusetts
JOE KNOLLENBERG, Michigan            GERALD D. KLECZKA, Wisconsin
MAC THORNBERRY, Texas                BOB CLEMENT, Tennessee
JIM RYUN, Kansas                     JAMES P. MORAN, Virginia
MAC COLLINS, Georgia                 DARLENE HOOLEY, Oregon
ZACH WAMP, Tennessee                 KEN LUCAS, Kentucky
MARK GREEN, Wisconsin                RUSH D. HOLT, New Jersey
ERNIE FLETCHER, Kentucky             JOSEPH M. HOEFFEL III, 
GARY MILLER, California                  Pennsylvania
PAUL RYAN, Wisconsin                 TAMMY BALDWIN, Wisconsin
PAT TOOMEY, Pennsylvania

                           Professional Staff

                    Wayne T. Struble, Staff Director
       Thomas S. Kahn, Minority Staff Director and Chief Counsel
                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, September 23, 1999...............     1
Statement of:
    Hon. Jeb Bush, Governor of the State of Florida..............     5
    Hon. Richard W. Riley, Secretary, Department of Education....    28
    Hon. George V. Voinovich, United States Senator from the 
      State of Ohio..............................................    49
    Virginia Markell, President, National PTA....................    64
    Hon. Dwight Evans, a State Representative from the 
      Commonwealth of Pennsylvania...............................    69
    John T. Walton, Co-Chairman of the Children's Scholarship 
      Fund.......................................................    79
    Rose Blassingame, Washington Scholarship Fund................    85
    Vermont White, Washington Scholarship Fund...................    87
Prepared statement of:
    Hon. Rush D. Holt, a Representative in Congress from the 
      State of New Jersey........................................     4
    Governor Bush................................................    12
    Hon. Jim Davis, a Representative in Congress from the State 
      of Florida.................................................    22
    Secretary Riley..............................................    33
    Senator Voinovich............................................    53
    Ms. Markell..................................................    67
    Representative Evans.........................................    72
    Patrick D. Purtill, President and Executive Director, 
      Washington Scholarship Fund................................    81
    Theodore J. Forstmann, Senior Partner, Forstmann Little & 
      Co., Cochairman and CEO, the Children's Scholarship Fund...    82
    Ms. Blassingame..............................................    86
    Ms. White....................................................    88
Additional information supplied from Governor Bush:
    Table: Academic Standards, Assessments, and Accountability...    17
    Response to request submitted by Mr. Green...................    27

 
                           FIXING OUR SCHOOLS
                           FROM THE BOTTOM UP

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 1999

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:30 a.m. in room 
210, Cannon House Office Building, Hon. John R. Kasich 
(chairman of the committee) presiding.
    Members present: Representatives Kasich, Chambliss, Shays, 
Herger, Franks, Smith, Nussle, Hoekstra, Radanovich, Bass, 
Gutknecht, Hilleary, Sununu, Pitts, Knollenberg, Thornberry, 
Ryun, Collins, Wamp, Green, Fletcher, Miller, Ryan, Toomey, 
Spratt, Rivers, Bentsen, Davis, Clayton, Clement, Hooley, and 
Holt.
    Chairman Kasich. The committee will come to order. I am 
very pleased about the agenda that we are going to have today. 
I am very excited about the fact that we have got somebody who 
is really on the front line of education reform and obviously 
that being Jeb Bush, who has in a very short period of time put 
together a very comprehensive program to try to address the 
challenges that he has found in the State of Florida and has 
been very successful at it.
    And I am really pleased that he is here, along with Dick 
Riley who is the Secretary of Education. I didn't realize that 
Dick Riley had really been in the administration all the way 
since 1992. And I know he feels passionately about the subject.
    And then we are going to have George Voinovich who is a 
former Governor of Ohio, and he has some unique perspectives 
because of a situation in Cleveland where it--basically a 
voucher program had been created and a court challenge and 
there--it is an ongoing story. Along with a member of the 
Pennsylvania legislature who has started a charter school and 
along with the President of the National PTA, who will also 
give us a more divergent view.
    Then I am very excited to have John Walton, who is the co-
chairman of the Children's Scholarship Fund along with Ted 
Forstmann, and that is a very exciting program where 
individuals decided if government wasn't going to do what they 
wanted them to do, they would do it on their own in the great 
American tradition.
    Education obviously is at the forefront of all the 
challenges that America faces. I think that while it is a 
national issue, that doesn't necessarily mean that it makes it 
a Federal issue, but yet today we are going to have the 
opportunity to hear from people in terms of why they think the 
Federal Government's role ought to be larger or smaller and at 
the same time those folks who think that we need dramatic 
change in education, competition in education.
    I think what makes me the--I know what makes me the most 
excited about what Jeb has done in Florida is that he has been 
able to combine an aggressive program to try to rescue the 
public education system and has given the public education 
system the resources and the time that is necessary to be able 
to right itself. And in the course of events if some schools 
cannot right themselves, he gives children and parents an 
opportunity to give their children some real choice, not just 
reserved for the very poor or the very rich but for those who 
are often forgotten in America, the middle-income folks. And I 
think this is a very unique program and one that I am 
encouraged to see actually be able to be enacted into law.
    I am very pleased about it. I happen to be a very 
aggressive supporter of vouchers but yet I know on this issue 
of education if we are not able to talk common sense and some 
balance with people who are opposed to the issue of vouchers, 
we will never reach a consensus that will be able to move us 
forward.
    I hope that this hearing in some ways will be able to 
respond to what this Budget Committee recommended over the 
years, which is at least to trim and consolidate so many of the 
programs for education but yet at the same time continue the 
dialogue toward doing what we all want to do, which is to 
advance the cause of our children's future.
    I am going to recognize Mr. Spratt, but I think maybe he 
serves as one of the great examples of a man who has been able 
to, I guess you could say in many respects, been one of the 
perfect parents, with a daughter who graduated from medical 
school--I think two daughters, is that right John from medical 
school? Unbelievable success, any parents's dream. And I know 
he feels strongly about this issue.
    I think over the course of today we will be able to all 
learn and maybe make some progress and become a little better 
leaders in our communities, which is really the answer.
    The subject of today's hearing is Education From the Bottom 
Up. Frankly I think that is the way we fix education in 
America, from the bottom up. And I am anxious to hear from 
Governor Bush.
    John you are recognized.
    Mr. Spratt. I am anxious to hear from Governor Bush, too, 
and I thank you for the introduction. And I do feel 
passionately about this. I think everyone in the room does. But 
rather than use my time, I want to turn to someone who is a 
real educator, a member of the Education Committee, but before 
he came to Congress was a teacher, professor, assistant 
director of Princeton's physics lab. And while in that position 
he was not just teaching at Princeton at the highest level of 
American education, he was formulating a program in New Jersey 
where scientists are now engaged in improving math and science 
education in the classrooms throughout New Jersey, a very 
successful program there, and also has recently been appointed 
to the National Commission on Math and Science.
    Rush Holt, I yield my time so that you can get the ball 
rolling for our side.
    Mr. Holt. Thank you, Mr. Spratt. The Chairman is absolutely 
right. You are a longtime champion of education. And I 
certainly appreciate all you do. And I appreciate your giving 
me a moment now. Ninety percent of America's elementary and 
secondary school students attend public schools. We should 
concentrate our education resources on the public schools. It 
is necessary for our democracy. And while most schools are 
good, many face really overwhelming obstacles in educating 
future citizenry and our work force.
    We in Washington have an obligation to help States and 
localities overcome these hurdles and meet the needs of our 
students. We need to help ensure that they have competent 
teachers, smaller class sizes that allow adequate teacher 
attention, schools that are safe, not overcrowded, access to 
technology and modern school facilities.
    Despite the House leadership's rhetorical support of 
education, their actions have spoken otherwise. This year's 
budget resolution cut funding for education training and social 
services by $200 million, compared to a freeze at last year's 
level. Now, 1 week from the end of the fiscal year, the 
Majority is finally allowing a markup of the bill to fund 
education. And there is scrambling to pass spending bills for 
other agencies that take funds away from education allocation. 
And you know we, we on this side of the Budget Committee, have 
consistently advocated more efficient use of education 
resources and more funding where it is needed. We don't seek to 
take money out of public schools. We want to support them. We 
want to reduce class size, modernize facilities by providing 
tax-free school modernization bonds. We want to improve the 
quality of teaching. We want States to set performance 
standards and we want to expand public school choice.
    Last year Congress provided $1.2 billion so that States 
could start hiring 100,000 new teachers to reduce class sizes. 
The evidence is abundant, smaller class sizes produce better 
students. But we need to get on to the next steps on this. And 
we have run into roadblocks on that. Many older schools are in 
terrible shape. The GAO estimate that we need more than $100 
billion to repair existing schools. Democrats have endorsed 
legislation to provide Federal tax relief for $25 billion in 
bonds to modernize schools. And we have had to resort to a 
discharge petition to try to get even a debate on school 
construction and modernization. Many communities could use this 
assistance.
    In my home State of New Jersey, public school enrollment is 
increasing nearly 10 percent in the next half dozen years. 
Montgomery Township in my district, once a rural farming 
community, has seen its enrollment soar from 1,500 students in 
1990 to 3,500 students when the doors opened 2 weeks ago. In 
the next 5 years, enrollment will expand by another 1,400 
pupils. The kindergarten class is twice the size of the senior 
class. The average Montgomery taxpayer now pays $4,600 in 
property taxes for schools, far outstripping the $3,000 in 
property taxes for all other municipal and county services.
    And what is worse, projects on the drawing board to meet 
these known needs for schools will add another almost $1,200 in 
taxes for the town's taxpayers. This doesn't include the cost 
for new teachers, textbooks, school buses, security measures 
that are becoming a part of every new school building.
    Localities clearly need help. Too many students are falling 
behind in our current system. Forty-one percent of American's 
fourth graders cannot read at the basic level, and three-
quarters of students do not take algebra by the end of the 
eighth grade. Approximately half of our science and math 
teachers are teaching in fields where they don't have a major 
or minor in their college training. We want to address this 
problem by helping States and localities set standards for 
school performance, assisting them to meet those standards and 
supporting comprehensive school improvement efforts to improve 
student learning. We want to ensure that all classrooms have 
competent teachers by recruiting new teachers, training and 
testing teachers, and increasing access to technology and 
helping teachers incorporate technology into the teaching plan.
    There are right now 346,000 information technology jobs 
open in our Nation, many of them in central New Jersey. Last 
year Congress passed legislation to allow more immigrants into 
our country to help fill these jobs. The employers are 
clamoring. Those are opportunities that our students could take 
advantage of if they had the proper grounding in technical 
subjects, beginning with modern schools that are wired for 21st 
century learning. As a teacher, I know Washington doesn't have 
all the answers. But the education of our youth is a national 
responsibility, similar to our national defense, and it is time 
that Congress shoulders its share to help schools provide our 
children the rich future they deserve.
    What could be more important Mr. Chairman?
    [The prepared statement of Mr. Holt follows:]

 Prepared Statement of Hon. Rush D. Holt, a Representative in Congress 
                      From the State of New Jersey

    As a teacher for 30 years, I welcome this opportunity to examine 
how Washington can help improve American education.
    Ninety percent of America's elementary and secondary school 
students attend public schools. We should concentrate our education 
resources on public schools; it is necessary for our democracy. While 
most of these schools are good, many face overwhelming obstacles in 
educating our future citizenry and workforce. We in Washington have an 
obligation to help states and localities overcome these hurdles and 
meet the needs of our students. We need to help ensure they have:
    <bullet> competent teachers
    <bullet> small classrooms that allow for adequate teacher attention
    <bullet> schools that are safe and not overcrowded, and
    <bullet> access to technology that students will need in their 
future jobs.
    Despite the House leadership's rhetorical support for education, 
their actions have actually hurt education. For example:
    <bullet> This year's Budget Resolution cut funding for education, 
training, and social services by $200 million compared to a freeze at 
last year's level.
    <bullet> One week until the end of the fiscal year, the Majority is 
FINALLY allowing mark up of the bill to fund education. Worse yet, they 
are scrambling to pass spending bills for other agencies by taking 
funds away from the Labor-Health-Education subcommittee allocation. 
They have taken so much from the education funding bill that, according 
to the Congressional Budget Office, the remaining scarce funds would 
require cutting education and other programs by 30 percent.
    We on this side of the Budget Committee consistently advocate more 
efficient use of education resources and more funding where needed. We 
do not take money out of public schools but want to support them by:
    <bullet> reducing class size,
    <bullet> modernizing schools by providing tax-free school 
modernization bonds,
    <bullet> improving the quality of teaching,
    <bullet> helping states set performance standards, and
    <bullet> expanding public school choice.

                               Class Size

    Last year, Congress provided $1.2 billion so states could start 
hiring 100,000 new teachers to reduce class size. The evidence is 
abundant: smaller class sizes produce better students. We need to get 
on with the hiring of these new teachers.

                          School Modernization

    Many older schools are in terrible shape. GAO estimates that we 
need $112 billion to repair existing schools. Democrats have endorsed 
legislation to provide federal tax relief for $25 billion in bonds to 
modernize schools. We who support this have had to resort to a 
discharge petition just to get a debate on school construction and 
modernization legislation.
    Many communities could use this assistance. In my home state of New 
Jersey, public school enrollment is expected to increase 7 percent 
between 1995 and 2007.
    Montgomery Township in my district was once a rural farming 
community, but its enrollment has soared from 1,500 students in 1990 to 
3,500 students when doors opened two weeks ago. In the next five years, 
enrollment will expand by another 1,400 pupils. The kindergarten class 
is twice the size of the senior class. The average Montgomery taxpayer 
will pay $4,602 in property taxes for schools, far outstripping the 
$3,000 in taxes for all other municipal and county services combined.
    What's worse, projects on the drawing board are expected to add 
another $1,158 charge annually to the school tax for the town's 
taxpayers--and this figure does not include the costs for new teachers, 
textbooks, school buses, or the new security measures that are becoming 
part of every new school building. Localities clearly need help.

                         Performance Standards

    Too many students are falling behind under our current system. 
Forty one percent of American 4th graders cannot read at the basic 
level and three-quarters of students do not take algebra by the end of 
8th grade.
    Democrats want to address this problem by helping states and 
localities set standards for school performance, assisting them to meet 
those standards, and supporting comprehensive school improvement 
efforts to improve student learning.

                   Improving the Quality of Teaching

    Democrats want to ensure that all classrooms have competent 
teachers by recruiting new teachers, training and testing teachers, 
increasing access to technology, and helping teachers incorporate 
technology into the teaching plan.
    There are more than 346,000 information technology jobs open right 
now in our nation--many of them right in central New Jersey. Yet last 
year Congress passed legislation to allow more immigrants into our 
country to fill these jobs because there are not enough Americans with 
the training to fill them. Those are opportunities that our students 
could take advantage of if they had the proper grounding in technical 
subjects, beginning with modern schools that are wired for 21st century 
learning.

                               Conclusion

    As a teacher, I know Washington doesn't have all the answers. But 
the education of our youth is a national responsibility, similar to our 
national defense, and it is time that Congress shoulders its share to 
help schools provide our children with the rich future they deserve. 
What can be more important?

    Chairman Kasich. OK, Governor, it is all yours.

  STATEMENT OF HON. JEB BUSH, GOVERNOR OF THE STATE OF FLORIDA

    Governor Bush. Thank you, Mr. Chairman. I am really honored 
to be here with you. It is a joy to be here to talk about 
something that is the highest priority in our State, which is 
to ensure that every child that goes to school in our State 
gets a year's worth of knowledge in a year's time. That is what 
I wake up thinking each day; I remain focused and continue to 
visualize it, so that in 4 years' time it could actually 
happen. And if it does happen, we would be the first State in 
the country where that would be the case.
    Before I begin, I want to say one thing about another 
element of public policy where I am very thankful. And that is 
the support that Washington has provided States during 
disasters. And while we were fortunate not to have a direct hit 
of Hurricane Floyd, it is heartening to know that the 
organization, the cooperation that exists between Washington 
through FEMA, State governments, and local efforts is far 
better than it was just 5 or 6 years ago. I commend you for 
your role in those efforts and for adequately funding FEMA so 
that people are not scared out of their minds as the storms 
pass or directly hit us.
    My thoughts and prayers go out to the people of North 
Carolina. We have been blessed to have support from people all 
across the country when we have been hit with storms. We are 
pledging to help Governor Hunt and the people of North Carolina 
as best we can and I thank you again for what you did to 
bolster the Federal effort in that regard.
    Imagine if it was possible to ensure that every child that 
God has given the ability to learn, did so--didn't matter about 
family income or race--that a child could go to a school and 
for a year's time get the kind of quality education that would 
ensure that their learning gains would be equal to a year's 
effort. I imagine that, pretty regularly, but sadly, in our 
State it is not the case. Fifty-two percent of our high school 
graduates--52 percent of the kids that should graduate do so in 
the State of Florida. Sixty percent of the community college 
students--and we have a fine community college system in the 
State of Florida--take remedial courses, in essence high school 
courses to be able to continue their higher education.
    Fifty percent of our fourth graders are not able to read at 
fourth grade reading level. And 60,000 of our ninth graders, 
one-third of them, have an average of a D or F. The next year, 
at age 16, many of them drop out or begin the process of moving 
away from an education.
    What we decided to do is something a little more dramatic 
than the run-of-the-mill photo-op performed in the State of 
Florida. The legislature passed the A+Plan. I would like to 
describe a little bit about it: some of its principles, how we 
are implementing it, some of the myths that have been shattered 
along the way, and how people are reacting to a new system of 
accountability in the State of Florida.
    The A+ Plan is built upon the foundation of three 
fundamental principles. The first principle is meaningful and 
undiluted accountability. There should be different 
consequences between the success that does occur in education 
all across the State and across the country and the failure 
that sadly occurs too often.
    The second principle is zero tolerance for failure, and the 
honesty and courage to point out where it exists. We should not 
have an attitude that there are factors outside the school that 
drive the reason why kids don't learn and just write it off as 
if it is society's problem, because it is our problem when 
children don't learn. And whether they come from broken homes 
or they have a lower income, it is incumbent upon us to 
organize ourselves around these children in a way to ensure 
that they do learn.
    Finally, the third principle is that education must be 
child centered. It shouldn't be school centered. It should be 
child centered and certainly shouldn't be system centered, 
which it is in most places today. All interests, teachers, 
families, Governors, Congressmen and women, all the efforts 
should be focused and aligned to the interest of the child. And 
we should put all our priorities, all of the incentives, all of 
the consequences aligned to whether a child is learning. We 
have asked schools to do far more over the last decade, and now 
it is time to go back to the fundamentals, to move to a child-
centered system.
    Rather than explaining the problem away, we have done 
something different in Florida, which is to begin the process 
to eliminate social promotion and fund the programs necessary 
to support local schools so that they can have the resources to 
ensure the kids learn a year's worth of knowledge in a year's 
time.
    We have implemented innovative systemic reforms to adhere 
to one guiding principle. First we assess each child, grades 3 
through 10, with a meaningful test. The Florida Comprehensive 
Achievement Test has been adopted as one of our standards for 
assessing our students. Based on the best information we have, 
we are among the top five States in terms of our standards and 
how we assess our children. Perhaps this is something you might 
look at to have an accurate assessment of how other States' 
standards compare.
    Because we can now use our test as a measuring device on 
whether children are learning, we can then clearly communicate 
the progress of our students by aligning school standards to 
student achievement. It is a pretty radical idea, but in fact 
it seems to have worked. Instead of grading schools 1 through 5 
or in terms that may be vague, we actually used the old-
fashioned report card A through F. I can tell you there is a 
big distinction when a school is rated 5 instead of F in terms 
of the emphasis that that school gets from the people that are 
responsible for our children's education.
    It is important to make sure that the standards are high. 
We have a system that is easy to understand but it is rigorous 
enough for there to be real divergence in the outcomes of 
schools.
    Third, we reward high-performing schools and schools that 
are improving. In fact, next week, we will have $30 million 
available to the 300 public schools that have been A-rated, or 
have shown improvement to move upward. That $100 per student 
goes directly to the principals where the school improvement 
committees, use the funds as they see fit. No rules, no 
attachment of any kind. If they want to hire teachers' aides or 
hire more teachers, to lower class sizes or bring in computer 
equipment or have after-school programs or start Saturday 
school programs, they have the flexibility to use that money as 
they see fit.
    Fourth, we assist the lower performing schools, which is 
critical. We say to the D and F schools that they have to have 
school improvement plans that are approved by their school 
district. In fact, the F-rated schools have to come to the 
State Board of Education with a plan to do something different. 
The definition of insanity is doing the same thing over and 
over again and expecting a different result. We no longer 
tolerate that. We provide funding assistance and technical 
assistance to help them craft these plans.
    Finally, and this is the part that has garnered quite a bit 
of attention, we say that when schools fail and fail again, the 
parents that have these kids in these schools ought to be given 
other options. They ought to be given three options, in 
essence:
    One, another public school in that school district--and 
remember, our school districts are very large so that is a 
broad array of options for the parents.
    Two, a private option, and we will talk a little bit about 
that.
    And three, they will be able to send their kids to a newly 
reinvigorated, reincorporated school on the same premises. They 
will have more support given to them but they will have higher 
expectations, so that the schools get off this critically low-
performing list.
    We call these, this option for parents, Opportunity, 
Scholarships. You all up here call them, I think, vouchers. I 
don't like the V-word because the V-word is used in politics. 
The intent of our plan is to improve all education, to empower 
parents when schools are not achieving the desired result to 
provide an opportunity for them. So we call this option the 
Opportunity Scholarships.
    There are 4 criteria for these scholarships:
    One, the tuition amount is the full funding amount that 
that child would receive if that child was in a public school. 
And, the tuition that they accept cannot exceed the scholarship 
amount. Any private school that opts into the program has to 
accept the scholarship as the full amount of tuition.
    Secondly, the private schools have to adhere to health and 
safety regulations--Washington, State, and locally determined. 
They have to take all comers. They can't pick and choose who 
they want. If there are more people wanting to go to the 
school, then they use a lottery system to pick the kids that go 
there. And they have to--the private schools have to administer 
the same tests that the students would take each year in public 
school, the Florida Comprehensive Achievement Test.
    In the first year of this plan, 78 schools have received an 
F grade. If they receive an F grade again, then those parents 
will be given the option of another school; 61,000 children 
attend F schools in our State today.
    The first year of its implementation, students at two 
schools have been offered opportunity scholarships. In the two 
schools, 134 children were afforded opportunity scholarships; 
76 of them chose to go to a public school in the Pensacola area 
and another 58, I believe, sent their children to five private 
schools that are participating in the plan.
    It has been fun, in all honesty, to watch the myths that 
have been built up over time about what happens when you 
empower parents and give them the financial tools to be able to 
make decisions. One myth that you always hear is the ``brain 
drain''--that only the good kids will leave these schools. 
There are all sorts of reasons why this myth exists, but we 
believe the ``brain drain'' myth has been shattered in the 
first year of our experiment.
    Of the kids that have gone to the private school, their 
level of aptitude on the test that has been taken is no 
different than the kids that stayed in the public school 
system. Their level of income is no different than the kids 
that remained in the public school system.
    The second myth is that this will only benefit families of 
high income and more stable families. In our case the exact 
opposite is true, and it will remain that way because we are 
aligning this accountability system to the schools that are 
receiving F's. And sadly in our case, the students that are in 
the F schools, are 85 percent minority, about 85 percent 
qualified for reduced and free lunch. This is not a welfare 
program for the rich. This is an empowerment program for the 
disadvantaged.
    I cannot envision as we unveil this over time that it will 
change in terms of its impact on improving the chance of 
economically disadvantaged families to be able to get a better 
quality education. And that is why perhaps Andrew Young is 
supportive of our plan. The Urban League of Greater Miami is 
supportive of our plan as is Bob Butterworth, the leading 
Democrat in the State of Florida. The Attorney General not only 
is defending our plan, because sadly we are in the courts as 
you might imagine, with two lawsuits, but he personally 
supports the plan. He was opposed to it when it was in the 
political realm, when it was battered about in the campaign, 
but once he began to see the impact of resources being 
allocated toward the schools that need the help, he became a 
personal supporter as well. It makes a difference that this has 
broad bipartisan support.
    And, finally, there is a myth that the schools, where 
parents are sending children to other schools, are being 
abandoned--the ``abandonment'' myth. I hear it all the time. 
Well, at Bibbs and Dixon, the two elementary schools where 
parents do have choices today, there is a renaissance going on. 
It is exciting. I wish and I hope maybe you will be able to 
visit Pensacola and see what is actually going on. At these 
schools today, the principals now have the power to hire 
quality educators and fire those that fail in the classroom. At 
these schools they have lower class sizes today. At these 
schools they have gone to an extended school year, from 180 
days to 210 days, paid for by the State. At these schools, 
there is a lower teacher/student ratio, more after-school 
programs and student tutorial programs. They are taking 
advantage of direct instruction, and these kids are going to 
learn. I guarantee you that both schools will see advancement 
and not be F-rated next year.
    So the bottom line is the parents that choose another 
option, have a better choice. The parents that chose a public 
school option in the school district are satisfied. And the 
parents that chose to remain in the original school are going 
to have their children get a better education.
    The reaction to our plan has been fun to watch as well. All 
across the State, particularly in the major urban areas, there 
has been a dramatic refocus on the schools where kids have not 
been learning. Instead of writing it off, now there is a 
consequence of failure. And because of that, school district 
administrators and teachers and principals and parents don't 
want their kids to be in schools that fail, and they are 
changing their attitudes and focusing their priorities and 
putting the resources in these schools.
    My best example of this is Earl Lennard who is the 
Superintendent of the Hillsborough County School System--
Congressman Davis knows him well. Mr. Lennard was not a 
supporter of our plan--I don't know, maybe he was. He wasn't 
vocal in his support; mark him down as neutral for the moment--
and he didn't have an F-school in the Hillsborough County 
School District, which was quite remarkable, given the fact 
that it is probably in the top 20 in size in the United States. 
But he announced that all of his top administrators and he 
would take a 5 percent pay cut if any school in the 
Hillsborough County School District would receive an F. Imagine 
that. There is no place in America that I am aware of where 
that is the case. In fact, one Hillsborough County teacher was 
quoted in the paper, saying: I have seen principals eat worms, 
I have seen vice principals kiss pigs to get students to read a 
certain number of pages, but I have never seen a superintendent 
put his salary on the line.
    You know what? There was a businessman that went to Oak 
Grove Middle School in Hillsborough County 20 years ago. This 
school was rated D on the last report. Based on what the 
superintendent had done and based on his belief that we needed 
to have more accountability in public education, he has now 
adopted this school, his business has, and they have 15 
employees that are working once a week in the school. They are 
mentoring eighth graders to prepare for the math element of the 
Florida Comprehensive Achievement Test. And he has committed, 
and so have all the other volunteers of this business, that 
they will take a 5 percent pay cut if their school moves to F.
    My hope and my dream is that we will tear down the barriers 
that say this is the public school system, therefore ``hands 
off;'' ``it is the responsibility of parents and teachers alone 
to carry this out.'' We must tear down the barriers and make 
education the highest priority of our community, of our State. 
People should show their support for our students by getting 
involved not just in 5 percent pay cuts or the possibility of 
it, but getting involved in mentoring children. And we have 
already begun to see that.
    A month ago, I unveiled a mentoring initiative that called 
upon Floridians to get onto the playing field as it relates to 
education of our kids and helping them out. We expect and we 
hope to have 200,000 mentors matched with kids, most of whom 
first will be aligned in these F and D and C schools, to be 
able to provide an hour a week, every week, to ensure the 
children get a year's worth of knowledge in a year's time.
    We have asked and have allowed State government employees 
to take 4 hours off a month to mentor. We have encouraged 
larger businesses across the State to do the same. Thankfully 
they don't have to wait for our pretty complex, burdensome rule 
process. They have already begun. They are not waiting for the 
rules to change, they are not doing it to get 4 hours off from 
work, they are doing it because they know this is a high 
priority in their own lives.
    What can Washington do to help us out? I am a believer in 
charter schools. In fact, I set up a charter school with the 
Urban League of Greater Miami several years ago. It was an 
exciting process to be involved in the creation of this 
independent public school. Mr. Lennard who is the 
superintendent of Hillsborough, again not a strong supporter of 
some elements of our plan, does believe in a more decentralized 
approach. In fact, while he was complaining about our plan 
before its passage, I was wandering around the school with him, 
I challenged him when he asked, ``Why can you hold us to high 
standards and then impose upon us all sorts of rules that 
aren't aligned toward the desired results, toward the standards 
you want to achieve?'' I said, ``I am for you on that. Give me 
the list of things that Washington and Tallahassee impose on 
you that make it harder for you to ensure that children learn. 
Better than that, why don't you become the first charter school 
district in the State of Florida?'' We shook hands, went to the 
legislature, got a bill passed and today they are working on a 
dramatic plan to eliminate many of the rules and mandates that 
are imposed from Tallahassee on the school district. And in 
return we are going to hold them to high standards. We are 
going to say there is a consequence when you achieve good 
things, good things will happen to you. And when you do not 
achieve your desired result, there is a different consequence.
    My vision is to have charter school districts. In fact, we 
ought to have charter school States. There is broad bipartisan 
support for charter schools. In fact President Clinton's 
advocacy of charter schools freed up money that allowed us to 
create our first charter school. I am very grateful for that--
there were no strings attached to that money. We had a 
contractual obligation with the school district to make that 
work.
    That would be my advice to you, look at means such as the 
``Straight A's Act'' or other means to hold us to whatever 
standards you consider to be the appropriate ones for our great 
country. Fund the programs in a flexible way for us to carry 
out our mission. I believe if you come to Florida, you will be 
proud of the fact that this State is saying no more social 
promotion, yes to high standards, we are going to teach kids 
algebra in eighth grade. We are going to ensure by third grade 
they are going to be reading at grade level.
    There is a veritable renaissance going on in public 
education today. This is the kind of response that I hope you 
would want and would promote by freeing up the resources from 
Washington. We have a relatively large size Department of 
Education in Tallahassee. It has gotten a lot smaller since my 
friend and now Lieutenant Governor, Commissioner Brogan, was 
there 4 years ago. He cut the department in half, but it is 
still pretty good size; 7 percent of our budget statewide comes 
from Washington but 40 percent of the Department of Education's 
work is to fill out the forms and comply with the requirements 
from Washington, DC; 40 percent of the staff of this Department 
of Education is trying to comply with your wishes. They are not 
focused on ensuring that a child gets a year's worth of 
knowledge in a year's time.
    I would hope that could change. I would hope that you could 
trust us, once we meet certain criteria of rigorous assessments 
and high standards and focus on assuring that kids that have 
been left behind in the current system begin to see 
advancements in their education; that you could trust us to be 
able to do what is right for our children. It is the highest 
priority in our State and I am pretty certain that it is the 
highest in New Jersey, the highest in Kansas and all across 
this country. If you trust us we will perform. Thank you.
    [The prepared statement of Governor Bush follows:]

 Prepared Statement of Hon. Jeb Bush, Governor of the State of Florida

    Good morning Mr. Chairman and Members of the Committee. This is my 
first time addressing a Committee of the United States Congress as 
Florida's governor, and I am grateful for the invitation and the 
opportunity to discuss Florida's educational reform efforts with you.
    You have no doubt heard much about Florida's recent educational 
reforms, and depending on the source of your information, some of what 
you've heard may even be true.
    In the short time that I have before you, I would like to briefly 
describe some of the important elements of the education reform plan 
that we adopted in Florida this year, then discuss some of the dramatic 
efforts being taken by the dedicated educators throughout our state to 
improve student achievement. I'd like to conclude by discussing the 
ways we believe the federal government can best help us in our efforts 
to provide a high-quality education to every child in Florida.

                       The Good News and the Bad

    When I took office as Florida's Governor in January, the news on 
the educational front was both good and bad.
    The good news was that Florida was moving in the direction of high 
standards, rigorous assessment and true accountability.
    Florida had adopted a rigorous set of standards known as the 
Sunshine State Standards. These standards tell us what students should 
know and be able to do from kindergarten through high school. Florida 
had also established a school evaluation system that was tied to these 
standards, and we had established a test, the Florida Comprehensive 
Achievement Test, the ``FCAT,'' that was specifically designed to test 
these standards.
    However, there was also some bad news. Shortly after I took office, 
it was announced that Florida's high school graduation rate was an 
astonishing 52 percent. Fifty percent of Florida's fourth graders were 
not able to read at the fourth grade level. And, a survey showed that 
over one-third of Florida's ninth graders, or about 60,000 ninth 
graders, had a D or F average. And despite this fact, Florida, like 
many states, was still clinging to the notion of ``social promotion''--
a feel-good idea that was setting up tens of thousands of Florida 
children for ultimate and tragic failure.
    In that context, Lieutenant Governor Frank Brogan and I proposed 
and fought for legislative approval of the Bush/Brogan A+ Plan for 
Education.

                     The Principles of the A+ Plan

    The A+ Plan is built upon the foundation of three fundamental 
principals. The first principle is meaningful and undiluted 
accountability--there must be different consequences between success 
and failure.
    The second principle is zero tolerance for failure, and the honesty 
and the courage to point out where it exists. Too often, there can be 
political or institutional reluctance to identify ``failure.'' Although 
this can be extremely difficult and painful, it becomes much easier 
when one realizes that a loss of courage to identify failure results in 
sacrificing children and their futures merely to protect the 
``system.''
    This leads to our third principle. We zealously believe that our 
educational system must be child-centered, not system-centered or even 
school-centered. The educational universe should revolve around the 
individual educational needs of each and every child, not the other way 
around.
    We have weaved these three fundamental principles throughout the A+ 
Plan.

                      The Elements of the A+ Plan

    Assess annual student learning against high standards. First, in 
order to more accurately assess student learning and to better 
determine how well Florida's students were achieving the learning 
benchmarks set forth in the Sunshine State Standards, we're expanding 
the Florida Comprehensive Achievement Test so that all third through 
tenth graders will take it, not just fourth, fifth, eighth, and tenth 
graders. To demonstrate the rigor of the Florida Comprehensive 
Achievement Test, I have included sample questions from the tenth grade 
FCAT with my written testimony.
    Earlier this year, Education Week magazine rated each state's 
educational standards and assessment methods in its ``Quality Counts 
'99'' report. I'm proud to say that Florida was given a grade of ``A 
minus'' and was ranked among the top five states in this category. With 
Florida's adoption of the A+ Plan this year, I am confident that 
Florida's ranking will climb even closer to number one in next year's 
review. For the record, I've included a copy of the Quality Counts '99 
state rankings.
    Clearly communicate school performance to everyone. Second, in 
order to clearly identify to parents, teachers and community leaders 
which schools are performing and which are not, we changed the 
terminology for grading Florida's schools from a ``1'' through ``5'' 
grading scale to an ``A'' through ``F'' grading scale. We are also 
sending the school report cards home to parents and posting them on the 
Internet.
    I am especially proud of the fact that our grading system sets one 
standard for all students, regardless of their race, regardless of 
their family income levels, and regardless of their ethnicity-every 
single student and every single school will be held to uniformly high 
standards.
    Reward high performing and improving schools. Third, schools that 
move up a grade and schools that receive an A grade are directly 
receiving a bonus of $100 per student to spend as each school sees fit. 
In fact, next week we will be distributing $30 million to Florida's 
high performing and improving schools with no strings attached as a 
reward for their exceptional performance.
    Assist low performing schools. Fourth, to quickly turn around low-
performing schools, schools that receive grades of D or F are required 
to develop a school improvement plan specifically tailored to address 
the particular needs of each school. These schools will also receive 
technical and financial assistance from their local school districts 
and the state.
    Provide alternatives to children in chronically failing schools. 
Fifth and finally, if a school receives an F grade in any two years of 
a four year period, children in those chronically failing schools will 
be given alternative educational choices through an Opportunity 
Scholarship. The Scholarships will allow these students to obtain a 
quality education at a better-performing public school or the private 
school of their choice.

                        Opportunity Scholarships

    Here's how our Opportunity Scholarship program works. Private 
schools that accept students using Opportunity Scholarships must accept 
the value of the Scholarships as full tuition, must meet applicable 
health and safety standards, and must accept students using Opportunity 
Scholarships on a random basis. Students using Opportunity Scholarships 
to attend a private school will still be required to take the Florida 
Comprehensive Achievement Test and the Florida Writes! test so we can 
continue to evaluate their academic progress.
    When the state Department of Education issued grades for Florida's 
public schools in June, 78 public schools in Florida received an F 
grade, and over 600 schools received a grade of D. In terms of 
students, this meant that 508,000 students were attending D schools, 
and 61,000 were attending F Schools.
    Because they had been previously identified as critically low-
performing schools, students at two Pensacola elementary schools that 
received F's this year became eligible to receive Opportunity 
Scholarships.
    In total, 134 children left these two public schools to attend 
other schools. Seventy-six left to attend a better-performing public 
school, and 58 left to attend five participating private schools that 
included four parochial schools and one Montessori school.

           Debunking the Myths About Opportunity Scholarships

    In the weeks that these children have been using Opportunity 
Scholarships, many myths about the Scholarships have been destroyed.
    The ``skimming'' myth. One of the often-repeated myths we heard 
during the legislative debate was that providing students in 
chronically failing schools with alternative educational choices would 
result in ``brain-drain'' or ``skimming'' of the best students from the 
failing schools, resulting in a disproportionate number of quote-
unquote ``hard-to-educate'' kids being left behind. Data released last 
week from these two elementary schools in Pensacola squarely 
contradicts that myth. When school officials looked at the academic 
history of the children who used Opportunity Scholarships, roughly even 
numbers of high-performing and low-performing students chose to attend 
other schools using Opportunity Scholarships.
    The ``elitist conspiracy'' myth. Another myth that has been 
destroyed is what I call the ``elitist conspiracy'' myth. Those that 
repeated this myth said that Opportunity Scholarships would mainly 
benefit and be used by children from suburban, white, higher-income 
families. Shortly after school report cards went out this summer, we 
looked at the racial and economic breakdown of F schools, and this myth 
was quickly destroyed. Of the 61,000 students in F schools, 85 percent 
are minorities--63 percent, or 38,430 are African American children, 
and 20 percent, or 12,200 are Hispanic children. Furthermore, of all 
students attending Florida's F schools, 81 percent of them participate 
in the free and reduced school lunch program.
    Not only do these statistics debunk the ``elitist conspiracy'' 
myth, they powerfully underscore the urgent moral imperative we face in 
ensuring that each of these children receives the opportunity to gain 
the life-long benefits of a high quality education. In light of these 
statistics, it's not hard to understand why Florida's Opportunity 
Scholarship Program has received the endorsement and support of African 
American state legislators in Florida, the Urban League of Greater 
Miami, and most recently, civil rights leader and former United Nations 
ambassador Andrew Young.
    The ``abandonment'' myth. The other myth that was destroyed was the 
myth that Opportunity Scholarships would lead to the ``abandonment'' of 
the children ``left behind'' in the failing schools.
    I wish that every Member of this Committee could have attended the 
Florida State Board of Education meeting in June when local school 
officials presented school improvement plans for these two chronically 
failing schools. The list of reforms being initiated at these schools 
by local officials was truly impressive in substance and in scope:
    <bullet> More after-school and Saturday tutorials,
    <bullet> A reduction in the teacher-student ratio,
    <bullet> A lengthened school year from 180 to 210 days, and
    <bullet> Blocks of time that are specifically dedicated to 
traditional core subjects--reading, writing and mathematics.
    So principals would have the authority they need to improve the 
educational environment, local school officials gave the two principals 
the ability to hire or transfer any person working in the school.
    And, in order to reduce the high turnover rate of students in these 
schools, the school district has now agreed to provide transportation 
to any student who moves but wishes to continue attending either 
elementary school.
    The state of Florida has also committed more resources to quickly 
turn these schools around. The Department of Education is providing 
more money, including grants totaling $87,000, for basic skills 
programs to help improve learning in the areas where it is needed most: 
reading, writing and mathematics.
    Witnessing the remarkable changes planned for these two schools had 
a powerful effect on Florida's Attorney General Bob Butterworth, one of 
the state's highest-ranking elected Democrats. Although General 
Butterworth had previously opposed Opportunity Scholarships, shortly 
after he witnessed the dramatic efforts being made to improve the 
quality of education at the two Pensacola schools, he announced his 
support of Opportunity Scholarships, because he believed they were 
responsible for sparking the improvements at these schools.
    So while it is very early in the implementation of the A+ Plan, 
many of the worst fears about Opportunity Scholarships have failed to 
materialize, and in fact, we have turned skeptics into supporters along 
the way.

             Educational Improvement Sparked by the A+ Plan

    And beyond Pensacola, it has been inspiring to witness the changes 
taking place all across our state by Florida's dedicated educators in 
response to the accountability measures of the A+ Plan.
    <bullet> For example, in Martin County on Florida's southeastern 
coast, school officials are providing teachers at two low-performing 
schools with ten extra days of additional training to help them teach 
students basic skills. Also, teachers at low-performing schools will 
receive a $1,000 bonus for raising the performance of their students.
    <bullet> In Jacksonville, low-performing schools will now have 
summer and after-school programs to focus on improving reading, 
writing, and math skills.
    <bullet> School officials in Ocala are hiring additional teachers 
to reduce class sizes and the school superintendent has called for more 
teacher training and development of parent-community activities.
    <bullet> School officials in Broward County, the nation's fifth 
largest school district, are spending millions of dollars to reduce 
first-grade class sizes to 18-20 students per class in 104 low-
performing schools. An associate superintendent told the local 
newspaper, ``Contrary to public opinion, the schools have really been 
energized by this [grading system]. They are determined to improve 
their scores.''
    <bullet> In the Tampa area, Hillsborough County school 
superintendent Earl Lennard made statewide news recently when he vowed 
to take a 5 percent pay cut, or a personal loss of $8,250, if any 
school in Hillsborough County receives an F grade. To meet this high 
expectation, Lennard promised his schools the support they need, 
including reduced class sizes for select ``D'' schools and money for 
after-school or Saturday tutoring at all schools. This pledge prompted 
one Hillsborough schoolteacher to remark, ``I've seen principals eat 
worms. I've seen vice principals kiss pigs to get students to read a 
certain number of pages, but I have never seen a superintendent put his 
salary on the line.'' At least not until the A+ Plan.
    <bullet> In Miami-Dade County, the fourth largest school district 
in the nation, school officials are increasing intensive math and 
reading instruction at schools receiving low grades, and are hiring 210 
additional teachers to work at the 26 schools that received F grades. 
Elementary school students in Miami-Dade County will see their class 
sizes shrink, in some cases by half!
    Keep in mind, that in each of these cases, local school officials--
not state officials and not federal officials--are implementing the 
various reforms that they believe will work best in their schools. As a 
state, we have simply set up an accountability system that is child-
centered and standards-based. We have injected our educational system 
with the catalytic mechanisms needed to give every educator at every 
school real incentives to see that every child gains the power of 
knowledge.

                      Future Goals of the A+ Plan

    So I am excited and hopeful about the educational renaissance that 
is beginning to take place throughout Florida, and in future years, as 
we continue to implement the entirety of the A+ Plan, we expect to see 
even greater benefits.
    Eliminate ``social promotion'' and increase funding for remediation 
efforts. One goal in particular that we hope to achieve is the complete 
elimination of social promotion. Based on a preliminary survey, 
Florida's school districts are in the process of revising their Pupil 
Progression Plans as a result of the A+ Plan. The term ``administrative 
placement'' is being removed from these plans, and performance criteria 
are providing the basis for promotion.
    We've provided $527 million in flexible funds for local school 
districts to use to help provide remediation so that students can get 
the help they need to be promoted to the next grade with proficiency at 
their grade level. School districts are using these flexible funds to 
implement a variety of approaches: some are hiring additional teachers 
and reducing class sizes, others are funding after-school programs and 
tutoring, some are purchasing additional materials and supplies, others 
are providing intensive reading instruction, and others are capping 
class sizes in algebra. Each school district is doing what it believes 
is best.
    A year's worth of knowledge in a year's time. The other significant 
change we expect to see in the future is having the capability to 
determine whether children are learning a year's worth of knowledge in 
a year's time.
    Once we begin testing all third through tenth graders, we will be 
able to measure each student's annual progress against the Sunshine 
State standards. With this information, our state's grading system will 
ultimately be based on students meeting high standards as well as each 
student's annual progress.
    Leave no child behind. There's another element of the A+ Plan's new 
grading system that I am proud of: our commitment to ensure that no 
child is left behind. The A+ Plan's new grading system, which we will 
be implementing during the next two years, will take into account the 
performance of the lowest performing 25 percent of students in Florida. 
Schools will not be able to attain high grades by simply focusing their 
efforts on the top three-quarters of students in the state. Our future 
grading system will ensure that Florida's educators focus attention on 
the bottom quartile of the state's students.
    Continue tearing down barriers to learning. Ultimately, we hope to 
tear down the barriers and the obstacles to student achievement, and 
make Florida's educational system truly aligned and obsessively focused 
solely on student learning. Once the barriers come down, educators, 
parents and community leaders alike will be inspired to prove that 
every child can learn. When Hillsborough County School superintendent 
put his salary on the line and voluntarily risked a five percent pay 
cut to guarantee that no school in his district would receive an F 
grade, Tampa businessman Dave Marshall made a similar pledge. Because 
Mr. Marshall's alma mater, Oak Grove Middle School, had received a D, 
he pledged to give up five percent of his own salary and donate it to 
the fundraising branch of the school district if Oak Grove went down to 
an F. Mr. Marshall then recruited ten coworkers from his company to 
tutor eighth grade students at the school for one hour each week. And 
this is only one example of what can be achieved if we continue to 
increase accountability and remove barriers to student learning.
    Mentoring Initiative. To encourage more adult and community 
involvement in the lives of Florida's children, last month I was joined 
by the former Chairman of the Joint Chiefs of Staff, General Colin 
Powell, to kick off my Mentoring Initiative. Since taking office last 
January, I have spent one hour per week at Augusta Raa Middle School in 
Tallahassee mentoring a student, and we're hoping to recruit 200,000 
mentors across Florida to get engaged in the lives of our state's 
children. This initiative will bring together non-profit groups, state 
agencies, businesses, communities of faith, schools, and others from 
around the state in a partnership designed to help students excel, both 
in and out of school. We are also changing the state personnel policy 
to allow state employees to devote one hour a week, or four hours a 
month to mentor Florida's young people.

                     The Federal Role in Education

    So we have much work to do as we continue to implement this 
comprehensive reform plan that will bring Florida's educational system 
into the 21st century. While we have begun to do all we can to make 
Florida's educational system performance-based and child-centered, 
seven percent of our budget is regulation-based and system-centered, 
and that's the federal portion of our education budget.
    I am here to fully support the principles behind the Academic 
Achievement for All Act, or ``Straight A's Act.''
    States like Florida that are moving toward a truly accountable, 
performance-based and child-centered system should be given regulatory 
and funding flexibility to achieve their academic goals. It's time to 
move away from the Washington-knows-best model, and allow states that 
are willing to meet stringent performance goals to have more 
flexibility.
    The current federal approach is still based on a model that was 
designed in the 20th century, and states like Florida are blazing 
forward with 21st century educational approaches. Through charter 
schools, charter districts, and performance contracts, we're finding 
ways to hold schools accountable with much less process.
    Right now, federal programs have lots of process, and little or no 
accountability.
    Let me give you an example of what I mean. Though the federal 
contribution to education in Florida is small, only about seven percent 
of total spending, it takes more than 40 percent of the state's 
education staff to oversee and administer federal dollars. In fact, in 
Florida, six times as many people are required to administer a federal 
education dollar as are required by a state dollar. And how much 
learning has the federal government achieved through these 
expenditures? No one knows.
    Imagine what our states could do if we could spend more of our time 
and energy working to improve student achievement, rather than 
tediously complying with a dizzying array of federal rules. At the very 
least, the federal government should stop creating barriers for states 
that are taking new educational approaches.
    Because the A+ Plan's accountability measures are so potent, I 
believe that once fully implemented, the A+ Plan may do more good to 
help low-income children in low-performing schools in five years than 
the Title I program has done in our state in 35 years. Without 
legislation like the Straight A's Act, Florida will not be able to use 
federal funds to fully support our reform efforts. But with the 
Straight A's Act, Florida's school districts could use federal funds to 
support their accountability-driven efforts in the manner they believe 
best to address their local solutions, whether those solutions are more 
technology, smaller class sizes, a longer school year, or individual 
tutoring.
    The federal government should welcome states that are willing to 
trade flexibility for strict performance standards. As a state, we are 
welcoming school districts that are willing to meet strict performance 
standards in exchange for flexibility from state rules.
    As a matter of fact, a few months ago, before Florida's legislative 
session, I was visiting an elementary school in Tampa, and the district 
superintendent and I were talking about the many regulations that the 
state imposes on its local school districts.
    Having previously founded a charter school with the Urban League of 
Greater Miami in 1995, I knew that the state's charter school law 
allowed certain schools to operate free of district regulations if the 
charter school agreed to meet certain student performance criteria. As 
the superintendent and I talked, I asked whether he would be interested 
in becoming the state's first ``charter district''--a school district 
that would agree to achieve certain performance goals in exchange for 
regulatory flexibility from the state.
    Despite the fact that no law on the books permitted the creation of 
a ``charter district,'' we eagerly discussed the idea, and within two 
months, passed legislation that allows for charter school districts. 
Within the next month, we expect to receive applications from six 
school districts in our state wishing to become the first charter 
districts.
    In a similar vein, I have come here to offer you more 
accountability from Florida, in exchange for more flexibility. We can 
increase the impact that federal dollars will have on student learning 
in our state, if we are provided with more freedom and less one-size-
fits-all regulations from the federal government. I sincerely hope that 
Congress will pass the Straight A's Act so Florida can become the first 
education ``charter state.''
    I thank you for the privilege of speaking before the Committee 
today.

                               ACADEMIC STANDARDS, ASSESSMENTS, AND ACCOUNTABILITY
----------------------------------------------------------------------------------------------------------------
                                                                       Assessment (30 percent of grade)
                                                             ---------------------------------------------------
                                                                                           Which subjects are
                 State                         Grades            How does the state     tested using assessments
                                                                   measure student         aligned to state's
                                                              performance? (Fall 1998)   standards? (Fall 1998)
----------------------------------------------------------------------------------------------------------------
New York..............................  95  A                 CRT, Wr, Perf...........  Eng, math, sci, ss
New Mexico............................  94  A                 NRT, CRT, Wr, Perf......  Eng, math, sci, ss
Maryland..............................  93  A                 NRT, CRT, Wr, Perf......  Eng, math, sci, ss
Virginia..............................  92  A-                NRT, CRT, Wr............  Eng, math, sci, ss
Florida...............................  92  A-                CRT, Wr, Perf...........  Eng, math
West Virginia.........................  92  A-                NRT, CRT, Wr, Perf......  Eng, math, sci, ss
Massachusetts.........................  91  A-                NRT, CRT, Wr, Perf......  Eng, math, sci, ss
Oregon................................  91  A-                CRT, Wr, Perf...........  Eng, math, sci, ss
Kansas................................  90  A-                CRT, Wr, Perf...........  none
Georgia...............................  89  B+                NRT, CRT, Wr............  Eng, math, sci, ss
Kentucky..............................  89  B+                NRT, CRT, Wr, Perf, Port  Eng, math, sci, ss
North Carolina........................  89  B+                CRT, Wr.................  Eng, math, sci, ss
Texas.................................  88  B+                CRT, Wr, Perf...........  Eng, math, sci, ss
Alabama...............................  88  B+                NRT, CRT, Wr............  Eng, math, sci
Nevada................................  86  B                 NRT, CRT, Wr............  Eng, math
Arizona...............................  86  B                 NRT, CRT, Wr, Perf......  Eng, math
Ohio..................................  86  B                 CRT, Wr, Perf...........  Eng, math, sci, ss
Pennsylvania..........................  86  B                 CRT, Wr, Perf...........  Eng, math
South Carolina........................  85  B                 NRT, CRT, Wr, Perf......  Eng, math
New Hampshire.........................  85  B                 CRT, Wr, Perf...........  Eng, math, sci, ss
Delaware..............................  85  B                 NRT, CRT, Wr, Perf......  Eng, math, sci, ss
Wisconsin.............................  84  B                 NRT, CRT, Wr, Perf......  Eng, math, sci, ss
Illinois..............................  83  B                 CRT, Wr, Perf...........  Eng, math, sci, ss
Indiana...............................  81  B-                NRT, CRT, Wr, Perf......  Eng, math
Michigan..............................  81  B-                CRT, Wr, Perf...........  sci, ss
California............................  80  B-                NRT.....................  none
Louisiana.............................  80  B-                NRT, CRT, Wr, Perf......  Eng, math
New Jersey............................  80  B-                CRT, Wr, Perf...........  Eng, math, sci
Maine.................................  79  C+                CRT, Wr, Perf...........  Eng, math, sci, ss
Connecticut...........................  78  C+                CRT, Wr, Perf...........  Eng, math, sci
Washington............................  77  C+                NRT, CRT, Wr, Perf......  Eng, math
Mississippi...........................  77  C+                NRT, CRT, Wr, Perf......  Eng, math, sci, ss
South Dakota..........................  75  C                 NRT, Wr.................  none
Wyoming...............................  73  C                 NRT, CRT, Wr, Perf......  Eng, math
Colorado..............................  72  C-                CRT, Wr, Perf...........  Eng
Nebraska..............................  72  C-                none....................  none
Missouri..............................  72  C-                CRT, Wr, Perf...........  Eng, math, sci, ss
Utah..................................  72  C-                NRT.....................  none
Arkansas..............................  71  C-                NRT, CRT, Wr, Perf......  Eng, math
Oklahoma..............................  70  C-                NRT, CRT, Wr............  Eng, math, sci, ss
Minnesota.............................  70  C-                CRT, Wr, Perf...........  Eng, math
Rhode Island..........................  70  C-                CRT, Wr, Perf...........  Eng, math
Vermont...............................  69  D+                CRT, Wr, Perf, Port.....  Eng, math, sci
Tennessee.............................  68  D+                NRT, CRT, Wr............  Eng, math, sci, ss
Alaska................................  67  D+                NRT.....................  none
Hawaii................................  60  D-                NRT, CRT................  none
Idaho.................................   57  F                NRT, Wr, Perf...........  none
North Dakota..........................  52  F                 NRT.....................  none
Montana...............................  50  F                 NRT.....................  none
Iowa..................................  39  F                 none....................  none
U.S...................................  --  --                --                        --
----------------------------------------------------------------------------------------------------------------
Key: Port=Portfolio assessment; Perf=Performance assessment; CRT=Criterion-referenced test; NRT=Norm-referenced
  test; Wr=Writing assessment.
 
Note. States are ranked by number grade to the nearest decimal; ties are ranked by alphabetical order.

    Chairman Kasich. Thank you, Governor. Let me just go back 
to a couple of the myths, what I hear from people who are 
legitimately concerned about the fact that if you give people 
an opportunity at some point to opt out, it will destroy the 
public school.
    I think the first issue that I hear the most of is that if 
you give people a chance to get out, then what happens is a few 
leave or some leave, but the parents who are not as interested 
in their kids' education, that they don't--they are not 
involved. So the bad kids get left in the failing school and 
the good kids get out, and they take the resources and the 
whole thing collapses. I have never understood that because 
that is like if a building is on fire, you might as well leave 
everybody in than to get some people out. But nonetheless, you 
found something a little different than that, what you found in 
Florida in terms of whether we have made the public schools 
better as a result of some people leaving.
    Governor Bush. Well, to be fair about it, Mr. Chairman, 
this is the first year of a pretty bold experiment, and so all 
the data is not in. But in fact, the initial students that were 
given--that is, where parents were given the choices, they are 
no different than the kids that continue to go to that school 
in terms of income and aptitude and the tests that they took 
the year before. So at least in our case, there is no evidence 
of the brain drain myth that exists.
    Chairman Kasich. Second question, it involves things like 
special education, where I hear people say well, the public 
schools have to take everybody and the private schools can 
choose, and therefore, you know, you expect too much out of the 
public schools and that is why they don't perform as well as 
the private school. How do you deal with that particular issue?
    Governor Bush. Parents get to choose in our case. And the 
schools that opt into our plan have to take all comers. Now, if 
schools--if an elementary school, private school, is accepting 
kids with Opportunity Scholarships and they are not capable of 
dealing with someone with severe physical or mental 
disabilities of some kind, the parents aren't going to send 
that child to that school. But on the flip side, nor are we 
measuring the school's performance based on those children 
either.
    The way we do our grading system is we take the kids that 
are capable of learning fully; it is not to say we don't have a 
very aggressive program to help the kids that are very 
exceptional kids; in fact we do. But kids that are new to our 
country, that don't speak English, they have a 2-year 
transition period before they begin to be counted in the FCAT 
tests. Kids with severe disabilities are not counted. In fact, 
as a pilot program, it hadn't got a lot of attention. In south 
Tampa and Bradenton, parents are given Opportunity Scholarships 
for kids with severe disabilities as well. And it is a little 
bit harder to assess how--if their chance for enhanced quality 
of life is being improved by that. It is harder to measure 
these types of things with kids. But parents have taken the 
other option. They have taken the private option.
    Chairman Kasich. Are we having, though, an inordinate 
amount of cost in the public school as it relates to special 
education that the private schools don't experience? In other 
words, some public school officials will say, look, if we 
didn't have to handle all this, we would have more money, we 
could do a better job. Are you telling me this is a problem 
that we have really not resolved?
    Governor Bush. Well what I am saying is that we have a 
complex funding formula. I try to avoid acronyms. Being new to 
the public realm, I am still holding out. But I don't even 
remember this one. It is the Florida Education--Jim, help me 
out--Florida Education Funding Formula, FEFP. I don't know what 
the P stands for, but it is an equitable funding mechanism that 
weighs in,factors such as kids with exceptionalities. So the 
money runs with the child into the public school system and, in 
the case of Opportunity Scholarships, runs with the child when 
the parents decide to make that choice. So a kid that may have 
attention deficit disorder, severe, or may be constrained to a 
wheelchair and have specific health care needs, they have 
higher weight in their funding formula already. And that is how 
we deal with it in Florida.
    I am sure it is quite similar across the country.
    Chairman Kasich. I am probably not as politically correct 
as you. I like this--I know that we got to put the right names 
on things, but frankly I know that gets to be a big issue in 
the way we conduct things in America today. But frankly, we are 
giving parents choice in terms of where their children, where 
they think their children get the best education.
    Let me ask you this, Governor Bush. Another part of the 
concern is the good kids leave, the public schools collapse. 
Now I think you have found--am I correct in saying this--that 
as a result of the threat of schools losing market share, the 
public schools and the whole administration has become very, 
very aggressive in terms of getting off the list and actually 
bringing about this great improvement; that those of us who 
believe in choices, the choice is a necessary part of it. Is 
that what you are finding in the public schools occurring?
    Governor Bush. What we are finding is there is an effort. 
This is the first year of our plan. But the change of 
priorities has been well recorded and significant for this 
school year.
    And secondly, I didn't mention this and it is important, I 
advocated education reform during the campaign, so there was 
total transparency. No one was surprised when I unveiled it. 
Had I done this and said, OK, we are going to cut public 
education funding, it wouldn't have passed.
    And it is important to recognize that public education has 
the highest priority, Republicans and Democrats alike, in the 
State legislature. We funded public education by a 7 percent 
increase in general revenue dollars and in the all-funds 
budget, which includes everything, there was a $1.5 billion 
increase. It is the highest ever.
    Not only that, the State of Florida puts more money into 
capital outlay dollars to build more schools than any State in 
the country, another billion dollars of money invested. We are 
a fast-growing State, but we made a commitment to public 
education. And because of that, people were willing to change 
the system. Had we cut back, I think the arguments, the myths, 
would have been too strong to have had such provocative 
changes.
    Chairman Kasich. Do you need Federal dollars to do school 
construction? Are you in favor of that?
    Governor Bush. I will take all the money you guys can give 
us--I knew you didn't want to hear that.
    Chairman Kasich. Well, no. No. No. We want to hear this. 
Maybe you say it is necessary. I am willing to hear what you 
got to say on it.
    Governor Bush. You all have to----
    Chairman Kasich. Be careful, Jeb.
    Governor Bush. You all have to create the priorities from 
the national perspective.
    Chairman Kasich. Can you do it without Federal dollars?
    Governor Bush. Yes. We are doing it. The Federal money for 
building right now is minimal. It may be nonexistent. We don't 
count on it. And we are spending over a billion dollars this 
year and we will continue to do so. We have made a commitment. 
Now, if you want to give us a little bit more, you don't want 
to put any strings attached to it, you are not going to say it 
all should go to lower class sizes or some input-driven thing 
rather than an output performance criteria, I will take all I 
can get.
    Chairman Kasich. I am done with questions. We are going to 
go to John.
    Governor, I know have you a talk coming up here very soon, 
but you have to understand you are now on Washington time, 
which means you will run a little bit late. I hate for you to 
just run out of here without the Democrats and more of my 
colleagues being able to question you. I say to my colleagues 
we will come back. When the Governor is done, the Secretary of 
Education will be here. I think we need to hear from him and 
complete this day, and would ask you all to vote and quickly 
come back so we can get started.
    We are going to start all the way down and hopefully 
everyone here will have an opportunity to ask a question of 
some of the witnesses today. Governor, we will be back as soon 
as we can. If you want to use the phone in the back, feel free.
    [Recess.]
    Chairman Kasich. The hearing will come back to order if 
everyone could please take their seats. Let me recognize John. 
You have one.
    Mr. Spratt. I will yield to Jim Davis.
    Chairman Kasich. Let me recognize the gentleman from 
Florida, Mr. Davis, for a few questions. The Governor has 
probably about 20 minutes left.
    Can we straighten out Bill Gray? He is a friend of mine. 
Bill Gray is a friend of mine. Please straighten out Bill Gray. 
Bill, if you are watching, by the way, it is interesting 
because Bill--it is amazing he would bring up Bill Gray, 
because you know Bill Gates just gave $1 billion to the 
disadvantaged. And the fact is that Bill was there and talked 
about the exciting potential of that billion dollar gift. And 
Bill Gray is a terrific guy, former chairman of the committee.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I would like to first 
ask unanimous consent to put my full statement in the record. I 
would also welcome my Governor. Governor, as you know, I 
respectfully but fundamentally disagree with you on your plan 
and I am going to refer to it as the voucher program, because 
that is my concern. You have mentioned many good things this 
morning, but the voucher feature concerns me and I want to talk 
about that.
    Let me first say that I believe that parents and the rest 
of the public strongly support a public school system, and they 
demand those schools successfully educate all of our children. 
They expect us to work together to make that happen. In fact, 
based on my homework, none of the fourth and fifth graders in 
the two Pensacola schools you mentioned, whose failing test 
grades caused those schools to be voucherized, sought a 
voucher. Not one of them considered private school a suitable 
alternative for them. All of the fourth graders chose to stay 
in their public school, and they expect us to fix it.
    And, Governor Bush, you and I are working together on the 
Medicaid funding for the school districts, and we had a very 
good meeting yesterday and we are making progress on that. I am 
very glad to hear your comments today about the school 
construction. I hope we can work together on that. But with all 
due respect, I have to say the voucher plan is really not 
designed to improve our most struggling schools, but it will 
force an experiment using our most vulnerable students as 
subjects.
    Let me just give you one reason why I believe that and give 
you the chance to comment on it. It is clear to my school 
district and me that the report card you are using is based on 
a comparison of schools against one another. Under this system, 
there will always be schools at the bottom that will receive an 
F. I have to tell you, the folks that are doing their best 
every day in the schools I represent in Hillsborough County 
think this is fundamentally unfair. And they are very fearful 
of dollars leaving their schools, going to private schools. 
They don't think this is fun. They are very worried. It is 
something we are fighting for, and you are correct that Earl 
Lennard is leading the fight to try to do everything we can.
    But let me ask you this question. Based on what my school 
district and I have divined from reading your report card 
system, it appears to me that no matter how much a struggling 
school improves from the prior year, no matter how much closer 
that struggling school comes to moving toward the higher grades 
than previous years, many of them will still be at the bottom, 
receiving an F grade, and they will be voucherized. That just 
seems terribly unfair. I would like to give you the chance to 
comment on that.
    [The prepared statement of Mr. Davis follows:]

Prepared Statement of Hon. Jim Davis, a Representative in Congress From 
                          the State of Florida

    Thank you, Mr. Chairman. Governor Bush, welcome to Washington. As 
you know, I have a very deep interest in our public education system, 
and I appreciate your taking the time to come here today to tell us 
about the voucher program in our home state of Florida. However, I must 
respectfully, but fundamentally, disagree with you about the impact 
that vouchers will have on the public schools in our State.
    As my record in the Florida House of Representatives and in 
Congress demonstrates, I believe we must reform the way that education 
is delivered in our schools. But that reform must not come at the 
expense of any of our students. It should come about by meeting their 
needs within our public schools--by empowering the teachers, the 
parents, and the students. I know that it can be done without diverting 
money from our public schools to vouchers because it has been done 
successfully in a ``failing'' school in Hillsborough County, which I 
represent.
    First, I'd like to tell the other side of the story. I don't 
believe that the Florida voucher program is about helping our students. 
Rather, it is about forcing an experiment to occur, using our most 
vulnerable students as subjects. Under this new system, you have 
ensured inevitable failure for many of our struggling schools. You said 
in your statement that no child will be left behind, but that is 
exactly the opposite of what is certain to occur in these schools.
    For example, the grading system that has been implemented to grade 
the schools based on the Florida Comprehensive Assessment Test (FCAT) 
will force a failing grade and voucherization on many of our struggling 
schools. Since this legislation was ram-rodded through the Florida 
Legislature without talking with principals, teachers, or parents about 
ways to best measure student performance or progress, I have spent a 
considerable amount of time studying this program and talking to 
administrators, teachers and principals in my school district about the 
impact that the testing and grading system will have on our children.
    The Hillsborough County School District and I believe that this 
test has been designed to ensure that there will always be failing 
schools. Under this system, the higher our schools perform, the higher 
the hurdle is raised. Encouraging academic achievement is admirable; 
however, this new grading system does not really encourage academic 
excellence for our most struggling schools. It encourages our schools 
to work hard to try and pass the Florida Comprehensive Assessment 
Test--but no matter how hard you work it doesn't necessarily mean 
you're going to pass because the FCAT is based on a curve that means 
someone always fails. What kind of a message are we sending our kids?--
``No matter how hard you work, no matter how hard you try, no matter 
how much you improve, you may still fail and be voucherized.''
    The FCAT compares schools against one another without regard to the 
nature of their individual students. Under the voucher grading system, 
our weakest schools will always receive the lowest grades, in many 
cases an ``F,'' guaranteeing voucherization regardless of how much a 
school has improved from the previous year or how close a school has 
come to achieving a higher grade from the previous year.
    Another reason I think that the voucher plan does not help our 
struggling schools is because of the smoke and mirror funding approved 
by the Legislature to fund the ``so-called'' improvement or our public 
schools. In listening to you describe this SUPERFUND, Governor Bush, it 
seemed that this is $527 million in brand new money to, in your words, 
``provide remediation so that students can get the help they need to be 
promoted to the next grade with proficiency at their grade level.'' 
Governor, the implication is that these funds will be used to help 
struggling students with things like tutors, before- and after-school 
programs, lower class size; all of which we know can make a real 
difference with these students.
    However, beyond the rhetoric, this SUPERFUND of $527 million is not 
a new infusion of money into our failing schools, rather it was created 
by eliminating three other funds and dumping them into this big pot of 
money. The money from those smaller pots were used by our schools for 
summer school and drop-out prevention. However, you've now told the 
school districts that in addition to using these funds for summer 
school and drop-out prevention, they have to stretch these dollars to 
pay for all programs they need at their schools for teacher enhancement 
or to improve student performance. Basically, you've given them no new 
money to do many more things.
    In short, the Legislature has not provided any additional support 
for our struggling schools to intensify their efforts and it has forced 
some school districts to abandon valuable existing programs, such as 
summer school, which my own school district may have to cut in order to 
provide help for our struggling schools.
    Further compounding the lack of support for school districts, the 
State took away $100 million in funding to hire new teachers and aides 
to reduce class sizes. As Majority Leader of the Florida House of 
Representatives, along with Speaker of the House Peter Rudy Wallace, I 
fought to establish a special fund for class size reduction for 
Kindergarten through Third Grades. You can't even imagine my disbelief 
to learn early this year that the Legislature, with your approval, had 
abolished this special fund. Under your new system, if a school wants 
to reduce their class sizes they have to resort to using funds from 
your SUPERFUND. Studies have shown that smaller class sizes in the 
early grades result in better performing students. It does not make any 
sense to me that the Legislature would abolish these funds to help 
students when the goal is to create a child-centered program.
    Your veto of over $16 million which the Legislature provided to 
school districts to extend the school year is further counterproductive 
to efforts by our most struggling schools to improve. These details and 
others lead me to the conclusion that the voucher plan is designed to 
force a very risky experiment of vouchers, using our most vulnerable 
students as subjects, rather than improve our most struggling schools.
    Let me close by urging you not to abandon our public school system 
by voucherization and instead to focus on what we know helps struggling 
schools succeed. I'd like to share with you the success story of 
Cleveland Elementary in Tampa, Florida. Two years ago, Cleveland 
Elementary was placed on the Florida Department of Education's list of 
``critically low performing schools.'' As a result of this stigma, a 
very able principal, Cathy Valdes, motivated the school community--
teachers, parents and students--to take action to improve their school. 
When your grading system was released this summer, Cleveland received a 
very solid ``C'' and is improving more and more daily. Here's how they 
did it.
    <bullet> Using paid & volunteer tutors to work with sizable numbers 
of students throughout the day.
    <bullet> Using before and after-school programs to extend the 
school day with instructional and enrichment activities.
    <bullet> Using Federal funding for high-poverty schools to hire a 
full- time social worker, a full-time psychologist, as well as extra 
teachers to reduce class sizes.
    <bullet> Using Project Achieve to give students daily instruction 
in social skills to help children control anger, avoid fights, conquer 
fears and learn to get along with others who look or act differently.
    <bullet> Setting aside an uninterrupted block of time for reading 
instruction that bans interruptions such as field trips and special 
activities.
    <bullet> Getting to know a child well enough to determine what is 
keeping that child from attending school--a problem at home, the 
teacher visits the home. If a child needs a pair of shoes, then he or 
she gets a pair of shoes. Carrollwood Elementary PTA adopted Cleveland 
and provided clothes for the children at Cleveland. Active and 
meaningful business partnerships.
    I commend Cathy Valdes, along with the teachers, parents and 
students at Cleveland Elementary for their commitment to public 
education and for working to ensure that their school becomes one in 
which they can show great pride.
    In closing, I believe that our public schools have great potential 
to help even the least motivated students. I do not believe that we 
should be taking money from our public school systems through voucher 
programs. Rather, we should be working harder with our teachers and 
parents to improve a system that has its difficulties at the moment but 
that shown its potential over the years through providing us with 
millions of outstanding graduates over the years.

    Governor Bush. Let me first describe how you get an F and 
point out that this grading system that was established was 
established prior to my arriving, by then-Gov. Lawton Chiles 
and the Florida Board of Education. The grading system, they 
called it 1 through 5 instead of A through F, but it was 
basically the same thing. To get an F in Florida for a school, 
you have to have 60 percent of your children at below basic 
level, not median level but below basic level in reading, math, 
and Florida Writes. Sixty percent of all the kids that take the 
tests, the students that take the tests have to be at below 
basic level.
    Now, that system is being modified, as we demanded in the 
law. Two other elements--and the board rules are now in the 
process of occurring, and superintendents and other people 
across the State next to us will have a chance to testify to 
give their input on how we go about this--but the law allows 
for two other elements to be included in the grading of the 
schools. One is annual increase in performance of the 
individual student. Until now, we haven't been able to do that 
because we haven't tested the students grades 3 through 10. We 
have tested grades 4, Florida Writes is grade 5, and then 8 and 
10. So you couldn't measure individual student performance year 
to year. But moving to a child-centered system we now can do 
that. So that will be an added factor in the grading system.
    The third element that the law requires that I was 
insistent upon, the inclusion of an added weight on how schools 
do in the bottom 25 percentile. So, Congressman, there are many 
fine high schools in--Gorey Elementary is a great elementary 
school in Tampa. If Gorey does its job with the broad number of 
students, because most of their kids are in the higher 
performance percentiles but they do not do well with the bottom 
25 percentile, then they are not going to be afforded a higher 
grade. Their grade may actually go down.
    These board rules are going to be put in place by December, 
and so the next test, which will be the second year of this 
Florida Comprehensive Achievement Test implementation, will 
factor that in. I believe that will probably change a lot of 
people's thinking about what they perceive to be the old rules 
that were established by the previous administration.
    Mr. Davis. If I could further comment, the test that you 
refer to was designed for a different purpose than you were 
using. It was designed to measure progress individual students 
made from year to year. I think in the haste to get the voucher 
program started, for whatever reason, you have chosen to use it 
for a different purpose. You have chosen to use it to compare 
schools against one another. We all do know from our days in 
school, Governor, when you have a test like that, a certain 
number of schools have to receive a failing grade and a certain 
number have to receive an A. They are compared against each 
other. So my concern is with respect to these schools that got 
an F this year. No matter how much they improve from last year, 
no matter how much they have improved over the last 2 or 3 
years, many of them are going to be trapped at the bottom 
again, and the F has to be given out and these schools will be 
voucherized. We are on the verge of facing a very significant 
loss of public dollars into private schools.
    Governor Bush. Many of the schools that are graded F will 
show improvement. In fact two in Escambia--I am not a gambling 
person except occasionally on the golf course--I would bet you 
5 bucks that both of them will get off. They are getting more 
resources, they are getting more attention. They are getting 
more private sector support. They are getting more parental 
support. They are getting more superintendent of school 
support. I believe their kids can learn. I believe that they 
will. And if they don't, remember this is 60 percent of all the 
kids in a school being at below basic level in 23 different 
tests on writing, reading and math. If they don't, then 
shouldn't those parents be given other options?
    There is a moral imperative to this as well, I believe, and 
that is that when you have a higher income you can choose a 
private school or you can choose to live in a better 
neighborhood where the school may work better. But if you don't 
have the income, it seems to me you are basically trapped in 
the school that the school district assigns you to. And you 
ought to be given another public school choice or a private 
option when there has been failure, as defined by State 
standards, and then failure again.
    I can't imagine on something this important that we would 
turn the other way when that happens. And fortunately that is 
not what is happening. You know the school districts and the 
very dedicated public school teachers and everybody are 
rededicating their efforts, particularly in these schools that 
have historically lagged behind.
    Chairman Kasich. The gentleman from Georgia is recognized. 
The Governor only has a few more minutes here. Maybe we will 
take just a couple on each side, and the Secretary is here. And 
because of those roll calls, it ate into our time. But Mr. 
Chambliss is recognized.
    Mr. Chambliss. Thank you, Mr. Chairman. I have one quick 
question, but I want to make a comment before I ask the 
question. I have always been a strong supporter of the private 
school system, and I am particularly a strong supporter of the 
public school system. I am a product, and my wife is a product, 
of public schools. My children are. My wife has been a public 
school classroom teacher for the last 28 years. I have a 
daughter who is a kindergarten teacher in the public school 
system.
    I just want to tell you, Governor, we politicians tend to 
talk about education every campaign season. We talk about what 
we are going to do to improve the quality of education. All of 
us are sincere in our statements and it is in our heart to do 
that. But I just want to tell you that I commend you for being 
aggressive and taking on a very sensitive issue that is near 
and dear to the heart of every single American, particularly 
every parent. You can't do what you are doing without it being 
controversial, because you are stepping on toes that have been 
in place ever since this country was founded. But you seem to 
be doing it in a well-thought-out manner. I can tell you that 
the whole Nation is going to be watching the progress of your 
system in Florida.
    I also want to tell you, like you, I don't use the V-word 
because it has a negative connotation to it. And I don't know 
whether I support what people refer to as the voucher system or 
not, but I do support any system that will grant to a parent 
the right to choose a good quality school for their child. And 
that appears to be what you are doing in Florida.
    Now, there is one question I have about your merit-based 
bonus system for teachers. My wife in certain years will have a 
class that is just intellectually better than the class she had 
before. And those kids are going to do better on test scores 
than the class she had the year before. And if she is compared 
to everybody else in the system for the year that she has a 
lower intellectually gifted group of students, then she is not 
going to do as well. And I have a little bit of concern about 
merit-based pay in that respect. I think a lot of teachers 
obviously feel that same way.
    What are you doing and how are you throwing that issue into 
the mix with respect to the bonus plan that you have for 
teachers?
    Governor Bush. Well, at the State level, we have not 
addressed merit pay as part of this plan. What we have said is 
that if schools show improvement--and as I said, next week we 
will be unveiling a list of schools, I believe it is about 300 
schools that are either A-rated or have shown improvement--
about half are going to be A-rated and they are going to 
receive $100 per student directly to the principal and 
teachers. I guess they could provide additional pay for their 
teachers, but my collective bargaining would probably preclude 
that. This is really to go to school improvement efforts, and 
$100 per student to go to the schools that have shown 
progressive improvement one grade level up.
    Now, in the case of Pensacola, as part of the remediation 
plan for the two schools that were graded F for 2 years 
running, there is part of the plan to include higher pay for 
the teachers that are in those schools. And I support that 
notion. But my vision for this is that those strategies ought 
to be developed locally and the State's responsibility is to 
fund adequately and to have meaningful assessments and 
accountability measures.
    Chairman Kasich. No speeches, one question. Mr. Clement and 
Mr. Green. That is it. Thank you.
    Mr. Clement. Thank you, Governor Bush. Congratulations, 
first----
    Chairman Kasich. No speeches. Just one question.
    Mr. Clement. We are pleased to have you here. I believe in 
the power of ideas and the power of concepts, and I know you 
have got a tough job. I would like to know, since it is your 
first year, how many Opportunity Scholarships are we talking 
about, number one? And number two, I know Florida's SAT scores 
have dropped 4 points this year. I know you are trying to serve 
2 million students in public schools. How many of the students 
are you going to be able to reach, let's say, in this first 
term?
    Governor Bush. Well, there are 2.2 million students in 
Florida. The numbers of parents who will be given other choices 
because their kids are in chronically-failed schools will be 
determined by the number of chronically-failed schools. The 
beauty of our plan is it is totally aligned to student 
achievement. If there is a rising student achievement and 
schools are showing improvement, the objective is not to have 
any Opportunity Scholarships awarded, because this is focused 
on improving the quality of public schools.
    And as I said before, one of the important elements is to 
make a commitment to increased funding for schools as well, 
which we have done. There was broad bipartisan support for 
that, and a 7 percent increase even for a State as fast-growing 
as ours is a significant increase in commitment to public 
education. So I hope we will have rising test scores.
    As it relates to the SAT test, I believe that we have more 
people, more students, that take the test. We are about at the 
national average. Is that acceptable? Heck no. I would love to 
see it go up.
    Chairman Kasich. Mr. Green for the last question, and the 
Governor for the last word. No, I might have the last word. Go 
ahead.
    Mr. Green. A question. A group of freshmen here are trying 
to reach out, Governor, and identify the State workers that are 
spending 40 percent of their time filling out paperwork to 
comply with Federal regulations. If we contact your office, 
could you provide a list?
    Chairman Kasich. Provide that for the record. That would be 
very helpful.
    Governor Bush. Absolutely.
    [The information referred to follows:]

                                 Washington Office,
                                          State of Florida,
                                  Washington, DC, October 21, 1999.
    To Budget Committee Staff: Attached is data generated by the 
Florida Department of Education reflecting the breakdown of Full Time 
Equivalent (FTE) staff positions and revenue source information for the 
K-12 education programs. This information is to be included for the 
record on Governor Bush's testimony of September 23, 1999. Please 
contact me if you require any further information. Thank you for your 
patience.
            Sincerely,
                                              Frank Bonner,
                                               Legislative Analyst.

                       DEPARTMENT OF EDUCATION: SUMMARY OF K-12 POSITIONS BY BUDGET ENTITY
                                                   [1998-1999]
----------------------------------------------------------------------------------------------------------------
                                                                      Fund source
                     Budget entity                      --------------------------------------     Total FTE
                                                          General revenue      Federal/PC&G
----------------------------------------------------------------------------------------------------------------
4811-Commissioner......................................             $44.00  .................             $44.00
4813-Planning, budgeting & management..................             179.50            $119.30             298.80
4814-Human resource development........................              15.00               2.00              17.00
4825-Public schools....................................              84.15             130.85             215.00
4835-Workforce development.............................              54.12              47.88             102.00
                                                        --------------------------------------------------------
      Total DOE (excluding postsecondary)..............             376.77             300.03             676.80
                                                        ========================================================
      Total revenue--K-12 programs/Federal flow thru...   6,810,919,428.00   1,024,461,940.00   7,835,381,368.00
----------------------------------------------------------------------------------------------------------------


                       DEPARTMENT OF EDUCATION: SUMMARY OF K-12 POSITIONS BY BUDGET ENTITY
                                                   [1999-2000]
----------------------------------------------------------------------------------------------------------------
                                                                      Fund source
                     Budget entity                      --------------------------------------     Total FTE
                                                          General revenue      Federal/PC&G
----------------------------------------------------------------------------------------------------------------
4811-Commissioner......................................             $40.00              $1.00             $41.00
4813-Planning, budgeting & management..................              85.50             104.80             190.30
4814-Human resource development........................              23.00              12.00              35.00
4817-Technology and administration.....................             109.00              20.00             129.00
4825-Public schools....................................              77.50             127.50             205.00
4835-Workforce development.............................              36.74              65.26             102.00
                                                        --------------------------------------------------------
      Total DOE (excluding postsecondary)..............             371.74             330.56             702.30
                                                        ========================================================
      Total revenue--K-12 programs/Federal flow thru...   6,978,426,904.00   1,049,961,940.00   8,028,388,844.00
----------------------------------------------------------------------------------------------------------------

    Chairman Kasich. I mean, the specific--if 40 percent of 
your people spend their time filling out paperwork, we would 
like to know what it is. I want to thank you, Governor, for 
coming. I think one important point for you and Mr. Riley, what 
we have found is that single parents with children, who are in 
poverty, is likely to find their children with a lack of 
education and their being in poverty. I think the rising 
poverty statistics for the undereducated in America is one of 
our great crises as we go into the next century. I think we all 
have a commitment to take a look at that and try and fix that.
    I want to thank you for your efforts and thank you for 
coming here today. And good luck to you.
    Governor Bush. Thank you, Mr. Chairman. And as it relates 
to that one final point, that is something that our State is 
beginning to get focused on in a very dramatic way is early 
childhood development, so we don't have an argument about 
whether kids started school not prepared to learn compared to 
others. If we make a command focus on that, this whole debate 
changes pretty dramatically. So we are making an effort to 
ensure that when young boys and girls in Florida go to school, 
that when they are in kindergarten they will be prepared to 
learn. Then the focus is a year's worth of knowledge in a 
year's time. And that is a worthy, ambitious goal. That is what 
we are going to do.
    Chairman Kasich. Thank you, Governor.
    Secretary Riley, is he making his way in?
    Mr. Secretary, if we can, you want to go ahead and take a 
seat. I would like to thank the Secretary for coming to the 
meeting today. I know he has a busy schedule. I want to 
apologize for the tardiness, Mr. Secretary. We had a couple 
votes over there. I want to welcome you along with Mr. Smith, 
who is the Acting Deputy Secretary of Education. I want to 
thank you for your long and distinguished career of public 
service, both as a Governor, of course, of South Carolina, and 
your long-term service and commitment to education as the 
Secretary of Education. So it is a privilege for us to have you 
here today and we look forward to your statement.

 STATEMENT OF HON. RICHARD W. RILEY, SECRETARY, DEPARTMENT OF 
                           EDUCATION

    Secretary Riley. Thank you so much, Mr. Chairman, and thank 
you for your long years of service, and it is good to be here. 
I appreciate the opportunity. And if it is all right, I will 
submit my longer statement for the record.
    I have just come back Mr. Chairman, members of the 
committee, from a 5-day trip to the West Coast, including 
Seattle that I flew out of late last night--Congressman 
McDermott's area. And I will tell you there are some very 
exciting things going on in Seattle. It is a place I would 
advise any of you that are interested, to take a look at. The 
community has come together there for public education and it 
is very exciting.
    Let me begin by making some observations about public 
education and helping to put some things in perspective. Many 
of us, regardless of our political affiliation, believe that 
public education is the great bedrock institution of American 
democracy. I think we all believe that. Whatever your race, 
your language, your religion, your ethnic origin, we meet 
together in the public space of public education. Benjamin 
Barber observed, ``Public education is important not because it 
serves the public, but because it creates the public.''
    And parochial and private schools make an important 
contribution to the democratic spirit of our country and many 
of them do a wonderful job. But public education is the public 
space where almost 90 percent of all of our children obtain 
their education. That is why I disagree with those who believe 
that public education is an institution from another time that 
has lost its way.
    I have been to over 600 schools in the last 6 years as 
Secretary of Education, and I can tell you that good things are 
happening. And yet there are some people, almost defeatist in 
their attitude, who are caught up in the worn-out nostalgia 
that once there was a time long ago when all things in American 
education were better.
    Nostalgia is not really relevant when it comes to getting 
our young people ready for the 21st century. Things are 
different now. Schools are different. Whether you are talking 
about technology, special education issues, increasing 
diversity of our student population, things are different. And 
I am tired of the pessimists who have so little faith in this 
Nation's young people and in this Nation's public school 
teachers. We have 53.2 million young people to educate in the 
here and the now.
    I point out over the last 10 years public school population 
has gone up 16.5 percent. Private school population has also 
gone up 11.5 percent. Surely this is the right time to be 
rolling up our sleeves and unleashing the American ``can do'' 
spirit of optimism about getting an important job done. When I 
go to public schools, I see excitement. I see schools changing. 
I see them working hard. And yes, sometimes I see failure. And 
while I am a strong supporter of public education, I am no 
defender of low-performing or failing schools.
    We all need to work together and bring immediate help to 
those children who are in schools that need to be turned around 
and turned around now. We need to start by making sure our 
children go to safe and healthy schools. I can tell you that 
the health and safety of the children is the very first and 
absolute concern of all parents. This is why so many parents 
are asking for our help when it comes to building new schools. 
There are prisons in this country that are built much better 
than most of the public schools that I visited.
    I was in a school in Patterson, New Jersey, a school over 
100 years old. A year or so ago, the library consisted of two 
pushcarts with books. Bathrooms, only one for boys, one for 
girls, 330 children. The playground was a small blacktop, 
cracked and uneven. It was too dangerous for the children to 
play on it. They weren't allowed to play on it. There was only 
one fire escape at the end of the second floor, leaving 
students in the other three rooms potentially endangered in the 
event of fire. One or two computers, as I recall, in the whole 
school. And I saw 5 or 6 children, minority children, poor 
children, standing in the hall in line when I was coming 
through, and I said, ``What are these children in line for?'' 
and the principal told me they were in line to get their asthma 
treatment. This dingy, dank, wet school. These children then 
are expected to learn to high standards.
    And that is our charge and that is their charge. These 
children were worrying about breathing. They weren't worrying 
about high standards. And I think if this Congress wants to 
really make a major contribution that can make an immediate 
difference for parents, then we should pass the President's 
School Modernization Bond legislation this year. I think that 
should be a real strong bipartisan interest to people out there 
in the States that want that very badly.
    And this isn't about Federal or local control, it is about 
stopping the practice of serving lunch in an overcrowded school 
to children at 9:30 in the morning, as is done in Miami, 
Florida. The cafeteria is so small, the school has grown up in 
population, kids have to eat in shifts.
    It is about fixing roofs. It is about making sure there is 
water in the science lab, when children are expected to learn 
math and science to high standards. It is about safety and 
changing the way that we build schools in this country. Instead 
of building schools the size of shopping malls, let's build 
schools that are smaller, that give young people a sense of 
safety and of connection, a sense that they are getting some 
individual attention. We should be building schools as centers 
of communities that stay open late so that the entire community 
can use them, schools that have the technology for the 21st 
century.
    And I believe if we build our schools smarter, we can help 
to create some smart growth policies that will make many more 
communities much more livable as well.
    And despite these many obstacles, public education is 
making progress. Our Nation's reading scores are up for the 
first time in our history at every grade level tested, 4th, 8th 
and 12th. The same is true of math. In all three grades tested, 
achievement scores are up. This is especially true for children 
in the low range of scores.
    There are other signs of progress. ACT and SAT scores are 
now virtually at their highest level in 2 decades. We have a 
record number of high school seniors taking the tough advanced 
placement tests. Not enough. We need to work on that. Sixty-
five percent, though, of all high school seniors are now going 
directly on to college. I think we need to represent that the 
overwhelming majority of our students in our Nation's great 
institutions of higher education are public school graduates. 
Whether they went to Ohio State or the University of Michigan 
or Princeton or UNC or Davidson, Mr. Spratt, or wherever, the 
public education system is literally filling up these campuses 
with bright and optimistic young people now.
    Can our public schools do better? They must do better. If 
we are going to reach the high standards for all of our young 
people that we must reach, we have some very real problems. Too 
many of our children are not mastering the basics early. We 
have a growing shortage of qualified teachers. We have a 
stubborn achievement gap that too many of our minority children 
are not overcoming. That is why we have spent over a decade now 
creating a new foundation for the 21st century that is a very 
sharp departure from the past: the singular idea that we should 
set high expectations for all of our children.
    We changed the law, as many of you recall, in 1994, the 
reauthorization of the Elementary and Secondary Education Act. 
We eliminated the watered-down curriculum for Title I children, 
for poor children. They have the same high school standards as 
all children. I think that was a very wise move and that is the 
way it is now and should be. And I think that is one reason why 
so many people really are just now starting to think about our 
poorest schools. We have never really done this before, despite 
all the talk about equity and equality.
    Well, I am glad that so many people are now concerned. It 
is a positive development and it has been a long time coming. 
But let's not throw out the baby with the bath water now that 
we have so many new friends that are concerned about the future 
of public education. Let's also remember where we are starting 
from in our thinking. For many years there has been an unspoken 
assumption in this country when it came to educating our 
children. It is kind of about one-third of our students. I know 
when I was coming along in school, one-third would be expected 
to be prepared for college. One-third could kind of drift 
through school and finish high school, and get a rather decent 
job back then working in a textile mill or on a farm. The 
bottom one-third would drop out, struggle along, maybe get some 
kind of meaningless diploma.
    The fact is that has changed now. All 100 percent of those 
students must get a good education if they are to have a future 
at all. We are going to have to go in a new direction. 
Everywhere I go, I see the growth of what I think is a new 
emerging consensus. I call it an American consensus to improve 
American education: high standards for all students; mastering 
the basics in early years, especially reading; smaller class 
size; early intervention when a child is struggling; improving 
teacher quality; accountability for student performance; 
modernizing our schools, especially technology; and much much 
more parental involvement.
    Now, this consensus includes increased support for 
technology, of course, for after-school programs, anything we 
can do to keep our children safe, making sure that our children 
learn basic American values.
    The American people are also telling us quite clearly that 
they are prepared to support this growing consensus, to improve 
education with new investments. Almost 80 percent of all 
Americans think that the important issue that should be at the 
top of the Federal agenda is how to improve and invest in 
education for our children. This support holds whether you are 
talking about more computers in the classroom, reducing class 
size, fixing up run-down schools, giving teachers the pay they 
deserve, all of these issues.
    Now, I want to say a word about parental involvement which 
I talk about a lot all over this country. I think it is a chief 
focus of this hearing. Parents set expectations and the best 
schools in this Nation consistently reach out to parents. The 
most important thing that a parent can do to improve education 
in America, as I have said all around, is to slow down their 
lives and help their children grow. If every parent in America 
had the time and took the time to read to their children, to 
work with their children only 30 minutes an evening, it would 
literally revolutionize American education. This, in my 
opinion, is a far more valuable approach to improving education 
than to talk about vouchers.
    This consensus that I have been talking about also places a 
strong new emphasis on fixing failing schools. This is very 
positive. We can't afford to tolerate failing schools. There 
are many things that can be done. These are State and local 
decisions, but local leaders have many, many options. You can 
put new leadership into a school. School districts can give a 
new principal the flexibility to change the staff and the 
entire direction of the school, and that is called 
reconstitution. I support such options. I think the more 
options like that, the better. I also support closing down a 
failing school, if necessary, and starting over from scratch.
    Public charter schools are also an option that can be 
considered, all of these within the public school system. There 
are also many school districts like Seattle that are 
successfully expanding public school choice options. Increasing 
the number of school choice options. for parents and students 
is one of the untold stories of American education.
    We also have proven models of successful reform that 
struggling schools can adopt. Robert Slavin of Johns Hopkins 
University has a proven track record in his Success for All 
model. About 1,500 schools, including many Title I schools, are 
now using this approach in some 47 States. Gene Bottoms of the 
Southern Regional Education Board also has a very successful 
model in his High Schools That Work approach. About 970 schools 
are now part of this initiative and 5 to 10 new schools are 
being added every week.
    New American schools have done a great job of helping 
school districts with real school reform. And two of your 
distinguished colleagues, John Porter and David Obey, I think, 
did a wonderful thing in developing bipartisan support in the 
creation of the Comprehensive School Reform Demonstration 
Program. Over 1,600 schools across America are now using these 
proven models of reform to turn their schools around. All of 
these approaches suggest that we have the ability to fix low-
performing schools now.
    Now, let me turn to the issue of vouchers, since I know you 
are talking about that some today. And it seems that it has 
captured the attention of some people. To my way of thinking, 
the appeal of vouchers rests largely on the idea that you don't 
have to do any of the things I have talked about in my 
testimony, the hard things, ways to turn schools around. It is 
another approach. Vouchers are the latest in a long series of 
quick fixes that have beset public education, whether it is new 
math, open classrooms, or whatever. Voucher supporters want you 
to believe that there is some kind of parallel universe out 
there that is ready and able and willing to take on the job of 
educating 46 million public school students, that all you have 
to do to fix public schools is leave them behind.
    Well, I must tell you that there is no such parallel 
universe out there. The only way to fix public schools is to 
fix public schools--and not abandon them. The only way to turn 
around a low-performing school is to turn around the entire 
school, and not use a voucher system to help a select few and 
abandon all the rest. And I don't believe that public tax 
dollars should be drained away from public education at a time 
of record enrollments. Researchers estimate it would cost about 
$15 billion in public tax dollars to give vouchers to all the 
young people already in private and parochial schools in our 
country. With the same amount of money, we could fully fund 
IDEA and probably finance the President's school modernization 
program and the class size proposal. And those are much better 
options in my judgment.
    I say all of this as a friend of private and parochial 
education. I have done everything that I could in the last 6 
years to make sure that private and parochial schools get all 
of the increased support that they can get, including the e-
rate which is very significant. Private school students are 
included in the more flexible Title I and other Federal 
programs. We make programs as flexible as we can. Of course, 
you cannot overstep the constitutional boundaries.
    Now, when a private or parochial school takes public 
dollars at the level that voucher supporters are proposing, 
they will inevitably become less private and less parochial. 
That to me is harmful to our strong belief in having strong 
private and parochial schools in this country.
    Let me conclude by urging the Congress to please not get 
sidetracked by the allure of quick-fix gimmicks. Every veteran 
classroom teacher can tell you about the long list of failed 
theories and half-baked experiments that they have had to 
contend with when it comes to improving education. I think we 
need to focus on the essentials that everybody, everybody in 
substance, agrees are essential. And that is why this emerging 
bipartisan American consensus on how to improve education is so 
important. It gets to the heart of the matter. It is 
comprehensive in scope. The focus is on all of our children and 
not just a few of them.
    This approach might not seem as exciting as the fad of the 
moment. But it is a solid approach and will prove to be very, 
very exciting in the long run, just to have all our children 
read well and learn more themselves in the next century.
    Mr. Chairman, I thank you very much and I will be happy to 
respond to questions.
    [The prepared statement of Secretary Riley follows:]

 Prepared Statement of Hon. Richard W. Riley, Secretary, Department of 
                               Education

    Mr. Chairman and members of the committee, I am pleased to testify 
today in support of public education and on behalf of those who are 
working hard at every level--Federal, State, and local--to improve the 
quality of our public schools.
    Public education is the bedrock of our American democracy. I say 
this not to denigrate in any way the vital contributions of other 
religious, cultural, private, or community organizations, nor do I 
question the role of the family in building a strong society. But no 
other institution does as much as the public schools to pull us 
together as a people. Whatever our race, language, religion, or ethnic 
origin, we meet together in the public schools. That is why Benjamin 
Barber has observed that, ``public education is important not because 
it serves the public, but because it creates the public.''
    The belief that high-quality public schools are the foundation of 
both our democracy and our economic prosperity, in particular the 
conviction that education is and should be the great equalizer ensuring 
equal opportunity for all Americans, is reflected in the constitutions 
of nearly all States. Collectively, these State constitutions 
demonstrate a national commitment to the idea that all children deserve 
equal access to a quality education and the opportunity to develop to 
their maximum potential as individuals and citizens.
    That commitment has been backed up by nearly a decade of hard work 
by States and communities determined to improve the quality of their 
public schools. These efforts are based on a strong, bipartisan 
consensus on the core principles of successful education reform. 
Everywhere I go, governors, mayors, superintendents, principals, 
teachers, and parents are emphasizing the same things: high standards 
for all students, mastering the basics in the early years, smaller 
class sizes, encouraging parental involvement, improving teacher 
quality, expanding after-school and summer learning opportunities, 
accountability for student performance, and modernizing our schools.
    Just as important, the American people are committed to backing 
this education reform consensus with greater resources for our public 
schools. They understand and believe in the importance of public 
education, and have shown a growing willingness to make the investments 
needed to fix our schools. In fact, recent polls have found that 
Americans favor more Federal spending on education by a 3 to 1 margin. 
And at least three-quarters of those surveyed supported specific 
investments to pay teachers more, put more computers in classrooms, 
reduce class sizes, and fix up run-down schools.
    This reform momentum has begun to pay off. The latest results from 
the ongoing National Assessment of Educational Progress (NAEP) reported 
solid gains in math and reading achievement, including substantial 
improvement for low-achieving students and for those in the highest-
poverty schools. For example, the 1998 NAEP reading assessment showed 
substantial gains for low-achieving students (those scoring in the 
bottom 10 percent and bottom 25 percent), suggesting that it was 
improvement among these students that raised the national average of 
all fourth graders. Similarly, high-poverty schools have registered the 
greatest gains in NAEP math scores since 1992.
    Individual States have shown even more progress. North Carolina, 
for example, more than doubled the percentage of its 8th graders 
scoring at the proficient or advanced levels on the NAEP math test. 
Connecticut registered the largest numerical gain of 10 points and the 
highest overall 4th grade score of 232 on the 1998 NAEP reading test.
    Despite this improvement, we know that there are too many schools 
that are failing to provide a quality education to our children. While 
I am a strong supporter of public education, I am not a defender of 
failing schools. However, I believe that when our public schools are 
not working as well as they should, we have a patriotic responsibility 
to fix them, not abandon them.
    Fortunately, we know how to fix persistently low-performing 
schools. The same comprehensive approach that States and school 
districts are using to improve the performance of all schools is 
equally effective at turning around failing schools. Raising standards, 
better teachers, smaller class sizes, increased accountability, and 
greater parental involvement can turn around the worst of schools. And 
a key part of improving failing schools is making sure that every 
student gets the extra help he or she needs to get back on track 
academically.
    I won't mislead you about the challenge we face: it takes hard work 
and a sustained commitment to turn around failing schools. The 
temptation is to look for a short-cut, a faster way to claim victory in 
the struggle to make every public school a good school. That is what 
makes voucher proposals so appealing: they promise improvement in the 
quality of education without the hard work of fixing our schools. The 
reality is that such proposals cannot hope to keep that promise, even 
for the small number of students who would be able to take advantage of 
vouchers. What vouchers would do is undermine public education by 
diverting critical resources from our public schools and distracting 
attention from the task of strengthening educational opportunity and 
excellence for all students.
    In my view, it just doesn't make sense to risk derailing the strong 
momentum for effective education reform that is building in States and 
communities across the Nation. It especially doesn't make sense to 
replace an education reform agenda built on sound, research-based 
principles with a fad, about which the only thing we can be certain is 
that it undermines the very institution that helped build a Nation out 
of diverse peoples.
    The real answer to the problem of failing public schools is not to 
abandon them, but to pursue a proven reform agenda, provide the 
resources necessary to fix those schools, and help provide a good 
education to all students.

                           What Really Works

    Education researchers will tell you that there is no silver bullet 
for improving our schools. Successful districts and schools rely on 
comprehensive improvement strategies that reflect and respond to the 
specific needs of their students. This is why the Clinton 
Administration has developed a comprehensive set of program and funding 
proposals that provide the resources and flexibility needed to 
effectively support State and local improvement efforts. These 
proposals focus on high standards, mastering the basics, smaller class 
sizes, improving teacher quality, accountability, and school 
construction and modernization.
                    high standards for all students
    The 1994 reauthorization of the Elementary and Secondary Education 
Act marked a watershed in the history of American education. Along with 
the Goals 2000: Educate America Act, the 1994 reauthorization helped 
end the tyranny of low expectations for children by placing high 
standards for academic achievement at the heart of education reform. 
That bipartisan effort to raise expectations for all children spurred 
States and school districts to set high standards and establish goals 
for improving student achievement.
    Nearly all States now have standards and goals in place, and the 
initial returns are promising. In addition to the NAEP gains noted 
above, the National Education Goals Panel reported that between 1990 
and 1996, 27 States significantly increased the percentage of 8th 
graders scoring at either the proficient or the advanced level on the 
NAEP math test.
    Federal programs have helped bolster State and local reform efforts 
linked to high standards. For example, in a report on Goals 2000 
prepared by the General Accounting Office, State officials described 
Goals 2000 as ``a significant factor in promoting their education 
reform efforts'' and a ``catalyst'' for change. The recently completed 
National Assessment of Title I reported that Title I had promoted State 
and local development of standards and assessments, and that Title I 
accountability requirements had encouraged the use of performance data 
to guide curricula and professional development. In addition, about 
half of poor school districts reported that Title I is driving reform 
efforts to a large extent.
                          mastering the basics
    The move to high standards necessarily starts with mastering the 
basics of reading and mathematics. The achievement gap between 
economically disadvantaged students and their more advantaged peers 
remains alarmingly large in these essential subjects. This is 
especially true for the key basic of learning to read, which is the 
prerequisite for learning all other subjects. The latest reading 
assessment from the National Assessment of Educational Progress (NAEP) 
confirmed what many other studies have shown over the past several 
years: poor children are twice as likely as other children to read 
below the basic level.
    Title I Grants to Local Educational Agencies (LEAs) is the key 
Federal vehicle for closing the rich-poor gap in reading and math 
achievement. The recent National Assessment of Title I concluded that 
trends in the performance of the Nation's highest-poverty schools, as 
well as the progress of the lowest-achieving students, shows positive 
gains in reading and math since the 1994 reauthorization of Title I. 
The Administration has requested $8 billion for Title I Grants to LEAs 
in fiscal year 2000 and would provide additional funds to the highest-
poverty schools by allocating a significant proportion of the request 
through the Targeted Grants formula.
    Another essential investment in mastering the basics is our $286 
million fiscal year 2000 request for the Reading Excellence program. 
This bipartisan initiative, which was enacted last year, supports 
extended learning time for children to strengthen their reading skills, 
teacher training in reading instruction, and family literacy 
activities. Reading Excellence is part of the President's America Reads 
Challenge, which calls for all children to read well and independently 
by the end of the third grade.
                          reducing class size
    Helping all children master the basics and reach high standards 
demands a great deal of personal, one-on-one attention from teachers, 
particularly for those disadvantaged, minority, and limited English 
proficient children who have further to go to reach State standards. 
Students are more likely to receive this attention in small classes of 
less than 20 children than in the overcrowded, 35-student classrooms so 
often found in today's schools and particularly in failing schools.
    The Class Size Reduction program, currently funded at $1.2 billion, 
would provide $12.4 billion over 7 years to help schools hire 100,000 
new teachers and reduce class size in the early grades to a nationwide 
average of 18. This initiative responds to a growing body of research 
showing that students attending small classes in the early grades make 
more rapid educational progress than students in larger classes, and 
that these achievement gains persist well after students move on to the 
later grades. In particular, Project STAR--a longitudinal study of 
smaller classes in the early grades in Tennessee--found that students 
in smaller classes (13-17 students) substantially outperformed students 
in larger classes (22-26 students) on both standardized and curriculum-
based tests. In addition, the positive achievement effect of smaller 
classes on minority students was double that for majority students, a 
smaller proportion of students was retained in grade compared with 
students in larger classes, and there was greater early identification 
of special educational needs in the smaller classes. A follow-up study 
found that the higher achievement levels reached by students in the 
smaller classes persisted at least through eighth grade. The President 
is requesting $1.4 billion for Class Size Reduction in fiscal year 
2000.
                       improving teacher quality
    A key emphasis of the Class Size Reduction program is on hiring 
highly qualified teachers who are prepared to teach in smaller classes. 
Similarly, we cannot expect our students to reach high standards until 
every classroom is led by a qualified and well-trained teacher capable 
of teaching to high standards. Research shows that qualified teachers 
are the most important in-school factor in improving student 
achievement, yet high-poverty urban schools are most likely to suffer 
from unqualified teachers. In high-poverty schools, more than 20 
percent of all teachers are teaching out-of-field, or in a subject in 
which they lack either a major or minor degree. That's about twice the 
rate of teachers teaching out-of-field in low-poverty schools.
    We made a good start on improving teacher quality last year when 
Congress passed new teacher recruitment and training programs as part 
of Title II of the reauthorized Higher Education Act (HEA). The 
President's fiscal year 2000 request includes a $40 million increase 
for the HEA Teacher Quality Enhancement grants program, which would 
help States improve the quality of their teaching force, strengthen 
teacher education, and reduce shortages of qualified teachers in high-
poverty districts.
    Our ESEA reauthorization would build on the improvements in the HEA 
to help ensure that all teachers are prepared to teach to high 
standards. A new Teaching to High Standards initiative would support 
new teachers during their first 3 years in the classroom and help 
ensure that all teachers are proficient in both academic knowledge and 
teaching skills. In addition, our reauthorization proposal would 
support high-quality teaching in high-poverty schools by requiring that 
all new teachers paid for with Title I funds be fully certified in the 
subject they teach.
           increasing accountability for student performance
    A key element of standards-based reform is a strong emphasis on 
accountability. Challenging State academic standards provide the bar by 
which to measure the performance of students, teachers, schools, and 
school districts. The purpose here is not and should not be punitive, 
but to identify weaknesses and help guide improvements. Many States 
have taken this to heart by establishing rigorous accountability 
systems that hold districts and schools accountable for student 
performance and providing support for those schools that aren't getting 
the job done. However, State progress in the area of accountability has 
been uneven, and we believe it is time to provide stronger 
encouragement at the Federal level. As I said in my reauthorization 
testimony earlier this year, there is both a moral and fiscal dimension 
to being more accountable. We cannot afford to lose the talents of any 
child, and we must ensure that the substantial resources entrusted to 
us by taxpayers are used effectively.
    Our ESEA reauthorization proposal includes an Education 
Accountability Act, a package of measures to hold districts, schools, 
teachers, and students to high standards and help ensure that all 
students receive a high-quality education. This bill would encourage 
States to develop an accountability system for all schools, including 
Title I schools, that includes procedures and standards for identifying 
low-performing schools. It also would provide States and districts with 
additional Title I resources to help turn around low-performing schools 
and mandate strong corrective action if there is no improvement within 
3 years. Our fiscal year 2000 request for Title I includes $200 million 
to accelerate the pace of State and local school improvement efforts.
    The Education Accountability Act also would require annual State, 
district, and school report cards that are distributed to all parents 
and the public. These report cards would help give parents the 
information they need to make good choices about the public schools 
their children attend.
    The reauthorization bill also would require States to put in place 
within 4 years policies ending the practices of social promotion and 
traditional grade retention, and to provide intensive and comprehensive 
educational interventions to students who are at risk of not meeting 
standards for promotion in a timely fashion. The President's fiscal 
year 2000 budget includes $600 million for the 21st Century Community 
Learning Centers program, which can help students meet promotion 
standards through extended learning time before and after school and 
during the summers.
                 school construction and modernization
    Finally, States and school districts face a huge task in 
modernizing existing schools to provide students with a world-class 
education for the 21st century. The average public school is 42 years 
old, and the General Accounting Office estimates that one-third of all 
public schools need extensive repair or replacement. And the baby boom 
echo--which this fall brought an estimated 447,000 new students to our 
schools for a record total of 53 million elementary and secondary 
school students--means that States and districts must squeeze ever more 
students into these old structures. We cannot expect students to meet 
demanding new standards of achievement in dilapidated, dangerous, and 
overcrowded facilities. And both new and renovated schools should be 
designed for the kind of education we know works best: smaller schools 
that create a sense of community and small classrooms in which teachers 
can provide lots of individual attention.
    To help States and districts shoulder the financial burden of 
building and modernizing schools at the same time they are implementing 
standards-based reforms, the President's School Modernization Bond 
proposal would subsidize almost $25 billion in construction bonds over 
2 years to modernize up to 6,000 schools.
    This proposal does not in any way inject the Federal Government 
into local decisions about which schools are built or renovated. What 
it does is provide Federal help to address a massive national problem. 
There is a quote from Plato that I believe holds great relevance for 
our system of public education. Plato said, ``That which is honored in 
a country * * * is that which will be cultivated there.'' As we near 
the millennium, I hope we will honor our children and cultivate their 
education by helping to build and modernize their schools.

                     Expanding Public School Choice

    High standards, the basics, smaller classes, better teachers, and 
accountability are not just slogans--they are sound educational reform 
strategies that are working to fix failing schools and improve the 
quality of public education all over America. That's why I disagree 
with the implicit assumption of voucher proponents that the only choice 
faced by parents and children--particularly poor children--is between 
bad public schools and good private schools. This ignores the efforts 
of millions of hard-working public school principals and teachers who 
provide a quality education to millions of students--and not just in 
the affluent suburbs.
    However, that doesn't mean we can ignore for one moment the failure 
of some public schools to do right by their students. I have 
consistently called for quick action to turn around failing schools and 
for making available options for the students in those schools. You can 
reconstitute a school by putting in new leadership and giving that 
leadership the authority to change the staff and implement wholesale 
reforms in school structure and curriculum. If all else fails, you can 
close down a persistently low-performing school and start from scratch. 
And to help students escape failing schools, we are proposing in our 
ESEA reauthorization bill to give school districts the option of 
allowing students in a failing Title I school to transfer to another 
public school.
    Districts also may consider expanding public school choice options 
to provide alternatives to failing schools. I strongly support public 
school choice because it does not drain resources from our public 
school system and because it maintains accountability safeguards over 
the use of public funds. I just returned from Seattle, Washington, 
where I heard a great deal about efforts to expand public school 
choice. The growing amount of choice in our public school systems is 
one of the untold stories in American education.
    The percentage of public school students attending a school chosen 
by their parents rose from 11 percent in 1993 to about 15 percent in 
1996. That means about 7 million children attended public schools of 
choice 3 years ago. I suspect that number has increased considerably 
since that time, in part because the Clinton Administration has 
strongly supported expansion of public school choice. Since 1995, for 
example, the Public Charter Schools Program has supported the 
development of an estimated 900 new charter schools. A total of 1,700 
charter schools are operating this year, or a little more than halfway 
toward President Clinton's goal of 3,000 charter schools by 2002. Our 
fiscal year 2000 request of $130 million would support up to 1,400 
charter schools serving some 400,000 students.
    Magnet schools--organized around themes such as math and science or 
the performing arts--are another very effective public school choice 
option. Approximately 1.5 million students are currently enrolled in 
over 5,200 magnet schools. Magnet schools can help promote diversity by 
attracting students from a variety of backgrounds, and the Department's 
Magnet Schools Assistance Program is specifically designed to aid 
desegregation efforts by eliminating, reducing, or preventing minority 
group isolation. Studies have shown that Federally funded magnet 
schools have helped provide minority students a high-quality public 
school education that otherwise would not have been available.
    Our ESEA reauthorization proposal includes an initiative designed 
to encourage the development of high-quality public school choice 
options that are available to all students, including students in 
failing schools. The Opportunities To Improve Our Nation's Schools 
program, or OPTIONS, would provide 3-year competitive grants to support 
public school choice projects that stimulate educational innovation and 
improvement and contribute to standards-based reform efforts. Funds 
would be targeted to high-poverty school districts and projects could 
include, for example, public schools at work sites or on college 
campuses, as well as postsecondary enrollment options for secondary 
students.
    Finally, we need to encourage school districts and schools to think 
about expanding choice within schools. Offering more rigorous course 
options, promoting Advanced Placement courses, and creating schools 
within schools are all good ways to provide greater and more 
stimulating choices within existing schools. We are requesting a 
significant increase in the Advanced Placement Incentives program for 
fiscal year 2000, from $4 million to $20 million, to launch a 3-year 
initiative to bring challenging courses to all high schools.

                         Fixing Failing Schools

    We also know, however, that it is possible to turn around failing 
schools very quickly. For example, just a few years ago Harriet Tubman 
Elementary School in New York City, where 99 percent of students come 
from low-income families, was one of the lowest-performing schools in 
the city. After being assigned to the Chancellor's District--a special 
school district created for the lowest-performing schools--school 
leaders, parents, and teachers devised a plan for comprehensive change, 
including an intensive reading program. In just 2 years, the percentage 
of students performing at or above grade level on the citywide reading 
assessment rose from 30 percent to 46 percent. As a result, Tubman 
Elementary was removed from the State's list of low-performing schools.
    Similarly, at Hawthorne Elementary School in Texas, where 96 
percent of students qualify for free lunch and 28 percent of students 
have limited English language skills, only 24 percent of students in 
the school passed all portions of the 1994 Texas Assessment of Academic 
Skills (TAAS). Four years later, thanks to a rigorous new curriculum 
for students in the early grades, almost 63 percent of students passed 
the TAAS, with the largest gains over the period being made by African 
American students.
    These schools share much in common with other high-performing, 
high-poverty schools. In a survey of 1,200 top scoring schools with at 
least a 50 percent poverty rate, the Education Trust found that 80 
percent reported using standards to design instruction, assess student 
work and evaluate teachers. Similar percentages reported the use of 
systematic early intervention strategies as well as the use of extended 
learning time for students, particularly in reading and math. And 
nearly all schools dedicated significant resources to professional 
development for teachers.
    A Texas study identified similar approaches as responsible for the 
success of over 50 high-poverty, high-achieving schools. The study's 
authors observed that ``there are good practices that would enable any 
high-poverty school to create an environment in which almost all 
students achieve high levels of academic success.''
    In addition, there are a variety of proven reform models that 
struggling schools can adopt--often with the help of Federal funds--
``right out of the box.'' For example, many Title I schools have 
adopted Robert Slavin's Success for All program, while Gene Bottoms of 
the Southern Regional Educational Board has developed a High Schools 
That Work initiative. Representatives John Porter and David Obey have 
helped over 1,600 schools adapt these and similar proven reform models 
to their own specific needs through the Comprehensive School Reform 
Demonstration program.
    Other Federal programs, such as the Class Size Reduction 
initiative, can support efforts to turn around failing schools and give 
students the extra help they need. In Columbus, Ohio, the school 
district is targeting its Class Size Reduction funds to 13 high-
poverty, low-performing schools. The funds will be used to hire 58 new, 
fully certified teachers in grades 1-3 in these schools and reduce 
class sizes from an average of 25 to an average of 15. The smaller 
classes are part of a broader strategy that includes implementation of 
proven early reading programs like Success for All, intensive teacher 
training in early reading, 90 minutes of reading instruction per day, 
and clear standards and assessments with benchmarks linked to the 
curriculum.

               Vouchers Are Appealing, But Fatally Flawed

    These examples show that successful educational improvement demands 
comprehensive approaches, a sustained commitment from everyone 
involved, and plenty of hard work. The appeal of vouchers, I believe, 
rests largely on the idea that you don't have to do these things. That 
there is some kind of parallel universe of superior private schools 
that is ready, able, and willing to take on the job of educating 46 
million public school students. That all you have to do to fix the 
public schools is to leave them behind and subsidize private education 
instead. Well, I'm here to tell you that there is no such parallel 
universe. The only way to fix the public schools is to fix the public 
schools, not abandon them.
    And that's not just me talking--the American people agree and have 
agreed for almost 40 years. In 1950, a Life Magazine poll asked 
Americans whether they favored Federal funding of schools run by 
churches or just the public schools. Only 30 percent favored giving 
Federal money to religious schools. In 1999, at a time when improving 
education is the top national priority and Americans favor increased 
Federal spending on education by a 3 to 1 margin, a new Life Magazine 
poll showed the same 30 percent support for giving Federal dollars to 
schools run by churches.
    There is a lot of emotion in the debate over private school 
vouchers, over this plan in one city and that plan in another, but I 
would like to steer clear of the emotion and focus on the facts. And 
the facts say that vouchers cannot improve public education in a 
meaningful way.
    Let me begin with the core assumption of voucher proponents: that 
private schools provide a superior education to public schools, and at 
lower cost. Numerous studies show that if you control for family 
educational background and income, students in public schools perform 
about as well as students in private schools. I won't deny that the 
very best private schools provide an excellent education, just as the 
very best public schools do, but on average private schools do not 
deliver the superior education promised by voucher supporters.
    As for costs, research shows that nominal tuition charges at 
private schools substantially understate the real costs of private 
education. Most private schools rely heavily on special fees and 
fundraising activities to supplement tuition. In addition, most private 
schools do not provide the range of educational services found at 
public schools, such as special education, bilingual education, free 
transportation, and food and health services. The record keeping and 
reporting required to ensure accountability for public funds in a 
voucher system also would increase costs. Once these factors are taken 
into account, any cost benefits of private education largely disappear.
    It also is important to remember that a significant portion of any 
public investment in vouchers would go to students and families already 
in the private schools. Nationwide, for example, it would take some $15 
billion to pay the costs of the 5 million students already enrolled in 
private school. This substantial expense would do nothing to help 
students in public schools, particularly the disadvantaged students who 
are the focus of Federal education programs.
    Another set of concerns is purely logistical. With over 90 percent 
of our children attending public schools, there just are not enough 
spaces to accommodate more than a small percentage of public school 
students in existing private schools. In California, for example, less 
than 1 percent of the State's public school students could expect to 
find space in private schools. It also seems logical to assume that the 
spaces that are available are likely to be found in second-tier private 
schools and not the best ones.
    And getting students to private schools can require costly 
transportation subsidies. The City of Cleveland, for example, spent 
$1.4 million in 1 year to pay for taxis that carried voucher students 
to school. Transportation is an often overlooked but unavoidable and 
very expensive extra cost of voucher programs.
    A final area of concern is that many of the attributes that explain 
the appeal and the academic success of private schools are incompatible 
with the purposes of publicly supported education. For example, many 
parents turn to private schools because they believe religion should be 
an important part of their children's education. And most private 
schools use selective admissions procedures to screen out difficult-to-
serve students, such as some children with disabilities or behavioral 
problems.
    Private schools have been quick to recognize that participation in 
voucher programs threatens much of what gives private education its 
character and vitality. For example, a 1998 survey of 22 urban areas 
found that 86 percent of religious schools would not participate in a 
voucher program if it permitted students to opt out of religious 
instruction.
    Many private schools also value their independence from the 
oversight that necessarily accompanies the use of public funds. This 
led 64 private schools in Miami to abstain from participation in 
Florida's statewide voucher program. While we can all appreciate and 
respect the determination of these schools to remain independent, their 
position underscores the difficulty of ensuring accountability for 
public funds in voucher programs.
    All of these factors--the performance, capacity, costs, character, 
and accountability of private schools--suggest that the supporters of 
vouchers have not really thought through the real implications of their 
proposals. If they had, I believe that they would have to agree that 
private school vouchers just don't make sense as a responsible strategy 
for effective reform of the public schools. Voucher proposals can only 
distract the American people from the hard work of real education 
reform, drain critically needed funds from our public schools, and 
undermine support for public education.

                               Conclusion

    For nearly a decade, the Nation has worked to develop and implement 
a comprehensive set of sound, research-based education reform programs. 
These programs are working to help States and school districts across 
America improve the quality of public education and turn around low-
performing schools. This bipartisan, mainstream approach is based on a 
strong belief in the importance of public education for American 
society and democracy, high expectations for all children, and a 
commitment to ensuring that no child is left behind and denied the 
opportunity for a quality education. Vouchers would undermine public 
education and could derail this reform consensus while providing 
education of an uncertain quality to a small minority of students. The 
only responsible choice is to continue support for proven practices 
that strengthen public education for all children.
    I will be happy to take any questions you may have.

    Chairman Kasich. Mr. Hoekstra is recognized.
    Mr. Hoekstra. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. In your written statement you quote Plato, ``That 
which is honored in a country is that which will be 
cultivated.'' you also go on to, in your comments today, talk 
about that this is not about local and Federal control, that 
this is about a bipartisan American consensus on education. I 
think there is a broad bipartisan American consensus in 
education as to what kind of education we want and what results 
we want with our children. There is a real national debate 
about what the best way is to achieve that. I have also had the 
opportunity to travel to 20 States and hear testimony from 
people in the public, private, and home school environments 
talking about what they want for education. And there is a real 
debate. And it is a real debate versus the proposal that you 
and the administration are putting forward, which is one of 
Federal control.
    In your own written statement, you frequently use the term 
``we know how,'' ``we know,'' how to ``pursue a proven reform 
agenda,'' when you talk about the Federal programs, and you 
talk about flexibility. But when you actually read the 
statement, it talks about, ``you know,'' ``this program 
requiring''--it is not requiring Washington to do something, it 
is requiring people at the State and at the local level to 
follow a Washington mandate. It talks about strong 
encouragement to hold accountable local districts. To 
``encourage and mandate,'' ``would require,'' ``would 
require.'' The approach that the administration is putting 
forward is not one of flexibility that allows people at the 
local level to work toward this consensus, but it is one that 
says rather than reaching--a school reaching out to its parents 
and involving children's parents, which is what you 
articulated--the schools are forced to reach out to Washington 
to find out what the bureaucrats and the bureaucracy in 
Washington believe is the best solution for them.
    I don't know if you have been to Chicago lately. We had an 
opportunity to have Secretary Bennett there who, in the 1980's, 
described that as the worst performing school district in the 
country. Former Secretary Bennett and Paul Vallas, who is the 
superintendent of schools over there, testified at our hearing.
    The former Secretary no longer believes that this is the 
worst school district in the country. And the formula for 
success was not following Washington mandates, but what the 
State of Illinois did for the Chicago public schools. They 
demandated the schools and provided accountability. They said 
we will get rid of all the different State programs that are 
coming into the Chicago public schools, we will demandate the 
schools, and we will give you a couple of checks, but we want 
to hold you accountable.
    Why won't your administration support the same kind of 
approach here, that in exchange for local and State flexibility 
to meet the specific needs of a Detroit or a Chicago--and there 
is not a proven track record that what worked in Chicago is 
what will work in Detroit--why won't you let those States and 
those school districts, who are trying to serve their kids, 
have more flexibility and then hold them accountable for the 
results?
    Secretary Riley. Well, Congressman, I think you make the 
point that the flexibility that is out there now in Title I and 
other programs evidently is working well in Chicago. We have--
--
    Mr. Hoekstra. Excuse me. They only get 7 percent of their 
money from Washington, or 7 to 10 percent. What happened is, 
they got freedom from the State to spend 93 percent. The 7 
percent from the Federal Government isn't what fueled their 
success.
    Secretary Riley. Well, Congressman, I will respect your 
premise which is that by Washington regulations we have 
hamstrung Chicago somehow to where they didn't have local 
freedom to make decisions.
    And then your statement was that what they are doing, using 
within the context of our programs, gives them all kinds of 
freedom, gives them all kinds of flexibility. We have so much 
more flexibility in the Federal programs now than we did when 
we came here, that it is not even compared. We eliminated 
three-fourths of the regulations on Title I.
    So I think--I understand what you are saying, Chicago is a 
very good example, and they are really turning that around. We 
are trying to have Federal programs be such that can be helpful 
to Chicago and not harmful to them. And I work very closely 
with Paul Vallas and very closely with the mayor and others 
there. And I will tell you, our programs are helping them 
immensely.
    Mr. Hoekstra. Then how come Paul Vallas says, why doesn't 
the Federal Government give me the same kind of freedom that my 
Governor will give me?
    Secretary Riley. Well----
    Mr. Hoekstra. Why can't we be as flexible and as 
trustworthy of the Chicago school system as what their Governor 
is?
    Secretary Riley. Evidently we are not harming them with our 
regulations or they couldn't be having the same kind of 
success.
    Mr. Hoekstra. Is that the standard, we are not harming 
them?
    Secretary Riley. You indicated they were harming them, by 
having some kind of restriction on them and not giving them the 
freedom to do as they wish. We don't have but 7 percent of the 
money. That is right. In Columbus, Ohio, the chairman's own 
district; those folks there are taking class size money, and 
putting it--targeting it in the low--poorest schools and have 
really come around to a very sensible approach. They have some 
15 pupils per teacher; they are making a difference.
    We have that kind of flexibility in the programs. And 
please understand, I agree that they should have flexibility. 
You have to have some accountability, and those too you have to 
work out. You can't pour Federal dollars out there and have no 
accountability. You have to have some accountability. And we 
are very strong on that, as you know.
    Mr. Hoekstra. We are looking forward to it. We are going to 
give the administration a wonderful opportunity to give local 
schools and States a tremendous amount of flexibility and to 
trade it off for accountability.
    The former Governor from Ohio will be here later today. He 
has testified that the 7 percent of the money that the State of 
Ohio gets generates 40 to 50 percent of the paperwork that the 
State bureaucracy had to put in place. I hope that as you go 
back through your statement and take a look at it, that you 
emphasize--as we move forward in reforming education, you 
emphasize the flexibility and start removing from our 
vocabulary here in Washington the terms ``require,'' 
``mandate,'' to ``hold.''
    You are right, when you see what is going on at the local 
level, there is tremendous success. And the people in Columbus, 
other than their football, do sensible things. All right. They 
can be expected to do the right thing.
    Chairman Kasich. That gentleman has just now lost his time.
    Mr. Secretary, if I could, you can respond--the Secretary 
has limited time. I want to recognize Mr. Spratt, Ms. Rivers, 
Mr. Pitts and Mr. Wamp and maybe Ms. Hooley too. So we are 
going to have to be limited in our questions, please. And, Mr. 
Secretary, of course you can respond.
    Secretary Riley. The Straight A's Act, that I gather you 
are talking about, I am opposed to--and I would say, as you 
point out, only 7 percent of the dollars come from the Federal 
Government, 93 percent is State and local. So obviously the 
great decision-making is with the 93 percent.
    The 7 percent, though, that we send out, from a national 
point of view, if you have no targeting, if you have no 
national purpose, that money just becomes lost in that process. 
So I am opposed to that. Under the 5-year proposal, all the 
State would have to do is have standards and assessments, a 
plan, goals, and any State purpose could be served. I mean, you 
could use the money for building something, if it was an 
education-related thing, you could use it for vouchers, you 
could use it for whatever, and you could totally lose the focus 
and the targeting of poor kids or disabled kids that we have in 
the current system.
    I prefer our current system with a lot of flexibility and a 
lot of the accountability.
    Chairman Kasich. Mr. Spratt is recognized.
    Mr. Spratt. Mr. Secretary, thank you very much. You have 
been bringing both experience and passion to this subject. You 
have proved your commitment to it over the last 7 years and, 
before that, for 8 years as Governor of South Carolina. I can 
attest to that.
    Let me quickly ask you one question because others have 
questions. I have watched you for 7 years in this job, in the 
context of a tight budget in the Cabinet and in the Congress, 
marshal money for education, as much money as you can, more 
money every year.
    Today, the President is going to veto the tax bill. What 
would be the consequences for education, all of the educational 
programs, if this bill were to pass and become law?
    Secretary Riley. Well, the indications that we have from 
looking at the tax cut that has been sent to the President 
could be as much as a 50 percent cut in education dollars over 
a 10-year period. Now, that is dramatic. Again, you can argue 
those numbers, more or less, but I am telling you, it could be 
very dramatic in terms of education, and I am very pleased that 
the President is going to veto it, or has vetoed it, I think, 
already this morning.
    Mr. Spratt. Thank you very much.
    Chairman Kasich. Mr. Pitts is recognized.
    Mr. Pitts. Thank you, Mr. Chairman.
    Welcome Mr. Secretary. Again, in the context of the tight 
tax dollars and with the need for increased efficiency of our--
the use of our tax dollars, I want to ask you about 
administrative overhead costs. If we are interested in driving 
the Federal tax dollars down to the local public school to be 
spent on activities that affect classroom learning, such as 
teacher salaries, teacher aides, equipment, books, computer 
supplies, whatever the local school district determines is 
their priority, as long as it is classroom related; and if that 
is the only requirement, if we give them more flexibility in 
the use of that money, more local control--and I would like to 
exempt things like special ed and voc ed and migrant ed--but if 
we could give them a block of money, what percentage of that 
tax dollar is needed for administrative overhead by the 
bureaucracy on the Federal level? And maybe you could estimate 
what would be needed on the local level and the State level.
    Secretary Riley. Well--and that is a very legitimate 
question, and I appreciate it.
    I would say this in terms of Title I, which is our biggest 
K-through-12 program, our administrative cost here in 
Washington is approximately one-fourth of 1 percent or less. 
One-fourth of 1 percent or less. Title I law reads that the 
State cannot take for administrative costs any more than 1 
percent, so for Title I, it gives to the school district 98-
plus, almost 99 percent.
    Now, overall for Federal K-through12 programs, it is less 
than 1 percent. Approximately one-half of 1 percent for all of 
K-through-12, if you figure all of the programs for 
administrative purposes here.
    Mr. Pitts. All of the other programs?
    Secretary Riley. Yes. If you count them, all our 
administrative costs are less than--are about one-half of 1 
percent; Title I is even half of that. And so I think that 
getting funds to the school district really, Congressman, is 
what we ought to talk about. If you talk about going beyond the 
school district and to the classroom, you are bypassing a very 
important part of American education, the elected school boards 
who really make the local decisions.
    So I would urge Congress, when you are looking at these 
things, I think the point that the Federal dollars should be 
looked at is at the district level and not the school itself. 
Those are district decisions, in my judgment. But the 
administrative costs are very low.
    I would say this, that I am very pleased that certain 
programs we have cut out, eliminated some 68 programs, which 
saves over $600 million, since we have been there. We have cut 
student loans, of course, from 22 percent down to below 10 
percent, which saves probably $1 billion a year. And our total 
costs are around a half a billion. So, I mean, we think that we 
run a rather efficient business.
    Mr. Pitts. Now, if you keep your administrative costs 
within 2 percent, 1 or 2 percent, do you think that is fair to 
require, if they are using Federal dollars and they have that 
local flexibility, that the State and the local level should 
not be using more than 2 percent each, as well?
    Secretary Riley. Well, the----
    Mr. Pitts. I am talking about utilizing by the 
bureaucracies.
    Secretary Riley. The States vary significantly on that. 
Some of them have a very efficient operation, others less so. 
Of course, under Title I they can't use more than 1 percent for 
administration. And that is our--that is clearly the biggest as 
that is an $8 billion program. So States, we think, ought to be 
just like the Federal Government, ought to be very careful, 
very conservative about their administrative costs.
    There are certain necessary administrative costs; if you 
are going to have full accountability and make sure the funds 
are spent properly, you have to have some. But we try to keep 
that down to the very minimum, and the State, I would hope, 
would do the same.
    Chairman Kasich. Ms. Rivers.
    Ms. Rivers. Thank you.
    Mr. Secretary, it is always a pleasure to see you and hear 
from you. You just mentioned a moment ago locally elected 
school boards. And as someone who spent the better part of a 
decade on a local school board, a lot of issues are very 
important to me. I think I bring a perspective that perhaps 
some folks don't have.
    For example, the debate earlier today around the vouchers, 
the argument is that vouchers really don't hurt local public 
schools because it is on a per capita basis, and if you just 
pull out the money per child, it leaves the same sort of 
program for everyone else.
    My experience is that the costs are not really allocated on 
a per child basis within a school; things like labs, gyms, a 
comprehensive library cost the same amount whether there are 
200 children or 225 in the school. A bus that has to run from 
point A to point B is not reduced in cost because two children 
fewer are riding it. There are economies of scale, and in many 
cases, smaller sometimes equals more expensive.
    What is your experience or how does the Department, what 
does their research suggest about this?
    Secretary Riley. Well, in serving on the school board, you 
were on the front line, and you observed that, I think, very 
accurately. The State constitutions, as you know, are the 
general law of the State; practically all the constitutions say 
that the State will provide free public education for all 
children in the State.
    Now, you can then pull 10 children out or 100 children or 
whatever and go to another location, and then leave that 
location closed down, or if they change their mind, they come 
back to that school. So the school system, really, under the 
State constitution has to plan for all the children in the 
State.
    And as you point out, many of the services then are 
services that serve all children; you can take 2 percent off 
and you still have to have those services there.
    So I think that is a very good point, that you can't--the 
State or the school district can't just drop their funds 
immediately if 1 percent or 2 percent of the children go to 
another location.
    Ms. Rivers. Heat and light cost the same irrespective of 
how many kids.
    The second question I have is, you mentioned earlier that 
the voucher proposal that was discussed earlier was about the 
same amount as fully funding IDEA. That is about $15 billion, I 
think, when I last looked into it.
    One of the things that I know local school boards struggle 
with is that many of their special ed costs are not met within 
the Federal dollars that come to them. Originally, they 
expected around 40 percent; we have never done that at the 
congressional level. Shame on us in Congress.
    But were we to reach that point, we would put considerable 
money back into local schools to be used at their discretion, 
because it would free up local dollars that they are committing 
to meet their special education needs. Yet when I proposed it 
here, virtually everyone on that side of the aisle voted 
against funding IDEA. What would that money do for public 
education, do you think?
    Secretary Riley. Well, it would be a significant help; I 
don't think there is any question about that.
    First of all, I would be quick to say that all of us should 
be very proud of what we have done in this country for disabled 
children. We must never cease having that as a clear priority. 
But I would say this, I hear from an awful lot of people--from 
school board members and others--about the expense of educating 
disabled children, the fact that the Federal Government was 
authorized to provide as much as 40 percent--it wasn't a 
mandate; it was an authorization, and of course we only fund a 
very small 12 or 14 percent of the excess cost now. And funding 
has gone up significantly over the last 3 years, I think about 
64 percent, with Congress being a leader in that and we have 
certainly supported it.
    I support full funding of IDEA, but you have to support 
full funding of IDEA in line with other costs that are out 
there. You can't just say, we are going to do this and nothing 
else. Disabled children are tremendously helped by small 
classes, tremendously helped by qualified teachers and so 
forth. So I think the surplus that is out there now in your 
amendment--and I thank you for it; I think it is the right 
thing to do--if you have a surplus and you deal with Social 
Security and Medicare and the debt as much as you can, then to 
have those funds go for something like IDEA would help all 
Americans in a very clear, fair way.
    So I appreciate your amendment.
    Ms. Rivers. My last question--if I still have time, the 
last question: You just mentioned class size reduction is a big 
issue. Frankly, the two proposals that the President has put 
forward, the class size reduction one, has gotten more 
attention, but as somebody who has dealt with schools at the 
local level, my experience is, many schools would like to go to 
smaller class size, but don't have the classrooms.
    To go to smaller class size means more classrooms have to 
be available, and therefore the school construction initiative 
is more important in many cases or is a predecessor, it has to 
be the prerequisite to moving forward on class size.
    What is the Department's experience in trying to evaluate, 
you know, the overcrowding of schools, the availability of 
classroom space?
    Secretary Riley. Well, as you point out, those two really 
feed off each other. Class size is extremely important. And our 
research shows that small classes with 15 to 18 students in the 
early grades, and teachers able to teach reading, that children 
do well in early school, middle school, high school. It is a 
longitudinal study, and it is very, very powerful.
    However, as you point out, that exacerbates the 
construction problem. To me, you don't then say, let's don't do 
it. Because it is right and it is good for children, you have 
to do something about construction. And they are trying to do 
that, I think, in every State, in every school district, and we 
are trying to help. And it is doable within this current 
season, with the surplus and with the money we have to deal 
with only the financing; not to say what schools are built or 
whatever they are built around, those are local decisions, but 
simply to help with the interest on the bonds, for some $25 
billion of school bonds. It would be a wonderful way to go into 
the new millennium with children seeing what is important to 
us, renovating, improving, building schools.
    Ms. Rivers. Thank you, Mr. Secretary.
    Thank you, Mr. Chair.
    Mr. Chambliss [presiding]. The gentleman from Tennessee, 
Mr. Wamp.
    Mr. Wamp. Ms. Rivers talked about a development of IDEA, 
and I was recently in a small, rural east Tennessee county 
where they have taken the initiative to build new schools. That 
is not their problem; it happens to be a traditionally 
Democratic county, and I was meeting with the superintendent. 
He told me a story of the last school year where some students 
were involved in an incident; I think it was illegal drugs. 
Based on school board policy, some of the students were 
suspended and some were not. Those that were not were 
classified as learning disabled. The school board, the parents, 
the teachers, the superintendent, they were all irate and 
believe that here in Washington, we have actually created two 
different classes of students based on local school board rules 
and regulations.
    I would just ask you to comment on whether or not you think 
we have gone too far. In a day where many national experts say 
there are too many children medicated for ADHD, we have too 
many children in this country who are basically being medicated 
when they may not be properly diagnosed. This is a problem.
    Since we have such a growing population of learning 
disabled, do we here in Washington, DC, want to draw a 
distinction between two different classes of children in this 
country? Where one would have to abide by the rules, and the 
other would not? This superintendent just plain said to me, 
``All I need from you is less regulation and less control out 
of Washington.''
    Secretary Riley. Well, I enjoyed being with you in 
Chattanooga, by the way. The IDEA is very, as I said, 
important, but it is a complicated measure. Every disabled 
child is different. Every child, for that matter, is different. 
But they are different in a complicated way and they need to be 
dealt with. And I think IDEA goes a long way to doing that, and 
it should be funded better.
    No, those are local decisions really, I think as you 
describe them, determining whether a child is learning disabled 
or not or should be receiving medication or not. We certainly 
don't determine that. But when you have a child who is disabled 
who then is being punished for some reason; the law does 
require that that child continue to get educational services. 
Frankly, I agree with that. I don't think you ought to punish a 
child by denying them educational services. And that is really 
a very controversial part of IDEA.
    I agree that you should provide educational services. I 
think we should provide them for all children at all times.
    But it does get complicated. You have complicated children, 
and I really can't get into the overuse of drugs for children 
with ADD or whatever. I do know a lot of children with ADD who, 
with the help of Ritalin, have been tremendously helped in 
their learning capacity and potential. And other drugs may be 
overused; I am really not able to comment on that. But I 
appreciate your comment.
    Mr. Wamp. Would you recognize that is one area where 
Federal control actually restricts the local school board if 
they have to, by Federal law and in this case, they have to 
treat those children separately. That is a control that is 
creating a lot of angst for a lot of school boards out there.
    Secretary Riley. The Federal law would say, you have to 
give them Ritalin?
    Mr. Wamp. They have to keep them in school. Even if they 
violate school board policy, they have to keep them in school.
    Secretary Riley. They don't have to keep them in school; 
they have to provide educational services. And I mean, there is 
nothing wrong with that. You don't deny somebody educational 
services and say that is the way to punish them, in my 
judgment.
    I don't think that is the way things work. I understand it 
is complicated and perhaps expensive in some ways. But I think 
you can punish a child with a disability just like any other 
child. You can punish the child, but you have to provide 
educational services; and I think that is right.
    Mr. Wamp. I would be happy to yield.
    Chairman Kasich. We have to wrap it up here. The Secretary 
is already behind time. I want to thank the Secretary for 
coming. And, Ms. Hooley, the last question.
    Ms. Hooley. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for all of the good work you do. 
When we talk about education policy, there are some things that 
work very well. We know that high expectations or standards 
make a difference. In fact, I was just talking to a principal 
at McKay High School in Salem, Oregon. It was an underachieving 
high school, and because the administration set high standards 
and expectations, they have turned that high school around.
    We know the quality of the teacher you have in the 
classroom makes a difference. We know a small class size makes 
a difference in terms of a child's learning. We know parents' 
involvement makes a difference. While we talk about teachers 
and teacher quality and trying to reduce classroom size, 
though, we are looking at a national shortage of teachers.
    What can we do either on the Federal or local level to 
address the whole issue of the quality of our teachers?
    Secretary Riley. Well, every speech I make, I talk to young 
people about considering teaching. I think that is something 
all of us, as leaders, can do. All people know we need 2.2 
million quality teachers who can teach to high standards, who 
can teach with technology, who can teach to diverse student 
bodies over the next 10 years.
    Now, many of the programs this Congress has passed, the 
President has proposed, such as class size--the class size 
money goes to reduce class size in those early years. It can be 
used for recruitment; it can be used--15 percent of it can be 
used for professional development, for example, to help 
teachers learn how to better teach reading. So we try to keep 
those programs very flexible.
    The Higher Education Act that was reauthorized last year, 
Title II that was then funded, also has funds for recruiting 
young people into teaching, helping them through their 
educational process, and teacher colleges also, through those 
inductive years when they are new teachers when so many good 
teachers drop out after 3 or 4 or 5 years.
    So we have got to recruit more teachers. We have got to 
educate teachers better. And then we have got to retain them. 
And it is a very important thing for this country to work that 
out, because all of us need to be working on this--we are 
trying to use every way we can to help with that very issue you 
are talking about.
    I had over 100 university presidents here last week and it 
was very interesting, talking about teacher colleges. Not 
teacher college chancellors, but chancellors of the whole 
university, to try to get the teacher education part of the 
university on a level with the arts and sciences. To try to 
connect up the teacher education with the K-through-12 classes 
on the local level.
    So I think there are a lot of things we can do. We are 
working on that. I look forward to working with you to continue 
it.
    Ms. Hooley. I have one very brief last question.
    Chairman Kasich. We have got to suspend. I am sorry, Ms. 
Hooley.
    Ms. Hooley. I will get another chance, hopefully, with the 
next set of panelists?
    Chairman Kasich. Absolutely. I don't mean to cut you off, 
but people have very strict time constraints. Senator Voinovich 
is here. We are going to have the group of people who are 
involved in the scholarship programs.
    I want to thank you, Mr. Secretary. I want you to know my 
wife is going to have twins in February, and I have already 
sampled the Harry Potter book; I am reading it now. Any time 
you are looking for somebody to stand up and urge the parents 
to start taking that time to read to their kids--I don't know 
why we don't make a national campaign about this on both sides 
of the aisle.
    If you are looking for somebody up here to be a point 
person to join with you to constantly say to parents, read to 
your kids for 30 minutes, it makes all the difference in the 
world. I am willing to work with you and put some energy into 
that. You let me know and I want to thank you for being here 
today.
    Secretary. Riley. Thank you. And I thank the committee. 
Thank you very much.
    Chairman Kasich. We are now going go with the great 
pleasure of having George Voinovich. George Voinovich, I think, 
has been elected to just about every office there is to be 
elected to. Believe it or not, he was Assistant Attorney 
General, he was a State representative. He was the Cuyahoga 
County Commissioner, he was the County Auditor, he was the 
Lieutenant Governor, he was the Mayor of Cleveland, he was the 
Governor of Ohio, and now he is a Senator, and there are no 
other jobs we can think of that he can be elected to in Ohio.
    But the thing that is so wonderful about George Voinovich 
is he is very down to earth. It does not get real complicated. 
There are basics in life. And I will tell you the thing I 
admire most about him, he is as firm as the day is long. He is 
not afraid to go across the aisle. When he believes in 
something, he stands pat. He is just a terrific public servant. 
And I am very very proud to call him a friend.
    George, why don't you talk a little bit about Ohio 
education. We have two other people on the panel, but we know 
you have time constraints so we will let you go ahead, whatever 
you want to tell us.

   STATEMENT OF THE HON. GEORGE V. VOINOVICH, UNITED STATES 
                 SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman. I appreciate 
the opportunity to come here before this committee, and I must 
say that, I've just gone through an hour and a half with my 
colleagues trying to figure out how we are going to balance 
this budget. It is not going to be easy.
    Today I would like to share some thoughts with you about a 
subject that I talked to this committee about back in January 
1995 in Columbus, Ohio. At that time I said that we needed to 
look at the proper role of government at the Federal, State, 
and local level, and that we needed to define which government 
services were truly important to society. We had to determine 
what level of government should do it, and then determine how 
it was going to be paid for.
    Mr. Chairman, when I was a member of the National 
Governor's Association and chairman of that organization, we 
fought vigorously to delineate those responsibilities. I would 
like to just remind this committee that we have made some 
notable legislative progress. Recently a study was done by the 
National Conference of State Legislators, and they talked about 
the important things that have happened in terms of our 
relationships and key issues. They talked about the ``five 
hallmarks of devolution.''
    And, Mr. Chairman, you remember them--the Unfunded Mandates 
Reform Act, the Safe Drinking Water Act Amendments, welfare 
reform, Medicaid reform, and the elimination of the Boren 
amendment and the establishment of our children's health 
insurance program. They addressed the things that we were 
getting into; and what the Federal level of government 
involvement should be; what was our relationship and our 
partnership with States and local jurisdictions.
    In this year, one of the most significant things that has 
happened and something that this committee should be interested 
in is that we passed the anti-tobacco recoupment legislation. 
That is a significance piece of legislation for this committee 
to pay attention to, because in our State, the fact that we 
could use all of that tobacco settlement money means that our 
first year payment is the equivalent of all the growth of all 
of our other resources: income tax, sales tax and so on. A lot 
of that money is going to be used for education.
    I talked to the Governor of Nevada the other day; they are 
taking half of their money and they are going to provide 
scholarships for every kid in Nevada to go on to higher 
education. They are going to pay for that. So that bill that we 
passed makes a lot more money available to our State and local 
governments.
    The other thing that I think was significant that you 
should be interested in and concerned about is Ed-Flex, which 
basically took Federal education funds and said to the States, 
you can use this money for things that are not specified in the 
law as long as you tell us what you are going to do with it and 
as long as you come back and you account for what you are doing 
with that money.
    So we have made some real progress. But I must tell you 
that I am a little bit disturbed, as a former Governor and 
former State legislator and local government official, with 
what has happened on the national level. I just heard Secretary 
Riley talking about the issue of teacher education and what we 
are doing at our teaching colleges. So much of what the 
President and the Secretary have talked about in the last 2 or 
3 years about education, Mr. Chairman and members of the 
committee, are things that are the proper subject for State and 
local government. They are the role of the State governments.
    And if you look at the involvement of the Federal 
Government in education, they say it's 7 percent, but when you 
peel some things away, actually it is about 3 or 4 percent. 
Education is primarily the responsibility of State government.
    You are interested in budgets. The President's proposal, 
100,000 new teachers, $1.2 billion in 1999, $200 million more 
in this fiscal year coming up. School construction, $11 
billion; testing, which is the first step in a national 
curriculum; social promotion, a lot of things that they are 
talking about fundamentally are the responsibilities of State 
and local government. You as members of the Budget Committee 
should understand that during the last several years as you 
passed legislation to support education initiatives, that the 
money to pay for those programs came out of Social Security. 
People constantly come to me and say, ``We have got to have the 
money for the 100,000 teachers.'' I say, ``Where do you think 
the money is coming from? We don't have any budget surplus.'' 
We may have one this next year. But now, it is coming out of 
Social Security. The Federal Government is $5.7 trillion in 
debt. Fourteen cents out of every dollar is being used to pay 
for interest, $600 million a day is used to pay for the 
interest.
    And I think that what this committee should be doing in 
terms of the future is saying what is our role, and 
particularly, when you don't have the money to pay for it, you 
ought to be very reluctant about what programs that you get 
into.
    Now, what could we do in terms of education? Mr. Chairman, 
you have heard this. There was a study done by the General 
Accounting Office that showed there are 560 different education 
programs in 31 Federal agencies and offices, 92 of them are in 
early childhood care and education, prenatal to 3. I want to 
ask you the question, how much effort has been made by this 
committee or the Education Committee to look at those programs 
and determine whether or not they are needed? Are they still 
relevant? Can you take the money and use it for something else? 
Are they proper programs for the Federal Government to be 
funding, or are they a State responsibility? If they are a 
State responsibility, then maybe you should say to the State, 
we are going to phase them out and you are going to have to 
take on that responsibility.
    The other thing that I think that we need to look at is, 
are there any other initiatives on the Federal level where we 
could get a bigger bang for our buck. You are talking about 
children; parents reading to children. I have a bill in the 
Senate--a prenatal-to-3 bill--which does some very simple 
things. For example, we are asking for a one-time $30 million 
grant to public broadcasting so they can expand their Web site 
so that your wife or my daughter-in-law or some daycare 
operator can access information about public television. They 
have a curriculum to go with ``Mr. Rogers'' or some of the 
other programs that they have, like ``Sesame Street,'' and the 
parents or the teacher can read to the kids about it before the 
program goes on. They can watch the program, and after the 
program is over they have other materials that they can use to 
follow up.
    There are some things that the Federal Government can do to 
stimulate things happening on the local level. For example, the 
Federal Government has helped fund the research on the National 
Board of Professional Teaching Standards. So today, across the 
country there is competition. Ohio is No. 2 in the country next 
to North Carolina; across the country, teachers are pursuing 
certification by the National Board of Teaching Standards.
    But let me tell you, I met with a group recently that got 
Congress to provide $2\1/2\ million to pay for the tuition of 
the teachers in the States to take the test. I said, hold on a 
minute--that is not what we agreed to do. The money was to be 
used to do the research so that you get it all done, so you 
could certify these teachers. We don't want to get the Federal 
Government into paying the tuition of people that are applying 
for it. That is the State's responsibility.
    The point I am making is that as a newcomer here, it just 
seems that things just keep on going on and on and on, and 
nobody ever wants to look at a program to see if it can be 
eliminated. Now I chair a subcommittee that is called Oversight 
of Government Management, Restructuring and the District of 
Columbia. I brought in Secretary Riley's people. I brought in 
Secretary Shalala's people to talk about their prenatal-to-3 
programs. We have a thing called the Performance Plan and it is 
required under the Government Performance and Results Act. The 
GAO said that Health and Human Services and Education hadn't 
sat down to coordinate their efforts to deal with their 
prenatal-to-3 programs. So Secretary Riley--to give him 
credit--has taken that effort out of some lower level office 
and is bringing it into his office, where they are rewriting 
their plan so they can take the money that is being made 
available for those programs and making sure that it is are 
being used as effectively as possible.
    And over the next 2\1/2\ years, I am going through every 
one of those 92 programs that deal with prenatal to 3, and I am 
going to recommend we ought to get rid of some of them. We need 
to find out what programs we should be doing and what we should 
not be doing.
    The other thing I would like to comment on is if we do have 
a program and if we agree that it is a good program, then we 
need to provide flexibility. Ed-Flex is good, as is the 
Straight A's program that Mr. Goodling and our people in the 
Senate are working on. Give the States flexibility.
    Mr. Chairman, one of the greatest things that could happen 
in this Congress is if the Education Committee, or maybe your 
committee and Senator Domenici's, could get together with the 
Governors and say let's sit down at a table and spend 2 or 3 
days looking at what we are doing and figure out how is the 
best way to get this done. Honestly, I think you could get 50 
Governors together. How did we get Ed-Flex passed? We got it 
passed because the Governors agreed it was a good thing on a 
bipartisan basis. We got their support and the President signed 
the bill. We ought to be doing a lot more of that. In areas 
where we are partners with State and local government, it would 
be smart to bring them in and sit down and start talking about 
these things instead of Congress going off and saying we are 
going to do it. I understand the frustration. There is a 
problem a day, no, many problems a day. I want to do something 
about it. But the question is, is it our role to do something 
about it or is it their responsibility to do it, or is it 
shared? We ought to bring these people in and talk with them.
    As I said, we have to think in terms of flexibility; we 
have to give the most flexibility as possible. I remember with 
Ed-Flex somebody criticized it and said, Well, they are going 
to take Title I money, and they are not going to take care of 
the kids. I said, Are you telling me that the States and the 
local people are not going to take care of kids with Title I?
    I would like everyone to apply for Ed-Flex in terms of 
Title I because when they do, States can come back and say, 
``This is what we are going to do with Title I money.'' Then 
each year they have got to account for what they are doing with 
the money. In other words, give them the flexibility and then 
require that they have to account for it.
    The other thing is there are a lot of ideas out there. You 
know, one of the things you were talking about here is our 
scholarship program in Cleveland. It is a voucher program and I 
think it is a good program. It has been difficult to get on its 
feet, because there are people who oppose it and say it is the 
devil himself. There are others that are saying it is better 
than Heinz 57 varieties. But the fact is in terms of the 
Federal Government, I never mandated vouchers, I never mandated 
charter schools, but I would never preclude a community from 
using their money for the vouchers or for charter schools or 
for something like that.
    What we should be doing is getting as much innovation and 
initiative in this country to really start to deal with the 
problems that are confronting our kids in the area of 
education.
    Last but not least, I think that too many people do not 
understand that there is competition among the States in terms 
of a lot of programs, and particularly in education. I competed 
with Michigan, Michigan stole some ideas from me, I stole some 
ideas from North Carolina. I mentioned earlier on, the National 
Board of Professional Teaching Standards. There were only two 
States involved in that program, Ohio and North Carolina. Now 
38 States are in it and they are all competing. By the way, 
Ohio pays for teachers to apply to take the test. Once they 
pass the test, we guarantee them another $3,000 a year for 10 
years to reward them because they have now become nationally 
board certified.
    The point I am making is that we are all concerned about 
what is happening in education. You had Governor Jeb Bush in 
here. He is trying something new. A lot of people say what he's 
trying is a terrible thing. Who knows? Who knows? I don't know. 
But why is it that we are afraid to try new ideas? If you are 
in business and you have problems, you have to do research and 
development. Any business that sees something that is not 
working out or where they are not being competitive, or that 
doesn't try new ideas, goes out of business. This is a big 
business. Education is a big business.
    So I would just like to conclude, Mr. Chairman, that there 
are a lot of things that we can do in the area of education in 
this country. And again we have got to decide who has the 
responsibility and who pays for it; and then what we need to do 
is understand that we are partners. And what we try to do is to 
see how we can be the best partners so that we can really make 
a difference and get a return on our investment for our 
children which will allow us to move forward and be 
competitive.
    Education is this country's number one economic development 
tool. Period. But that doesn't mean that the Federal Government 
has got to take over and micromanage everything that is going 
on at the local level, particularly, Mr. Chairman, when there 
isn't any money.
    [The prepared statement of Senator Voinovich follows:]

Prepared Statement of Hon. George V. Voinovich, a United States Senator 
                         From the State of Ohio

    Mr. Chairman, members of the committee, thank you for inviting me 
here today before the Budget Committee to discuss the role of 
government in education.
    More than 4\1/2\ years ago, when I was Governor of Ohio, I had the 
opportunity and privilege to testify before this Committee at a field 
hearing in Columbus, Ohio.
    The purpose of my testimony on that January day, was ``to share 
with you some thoughts about a subject that impacts each of us every 
day--the proper role of government at the federal, state and local 
levels.''
    I said, ``first, we must define which government services truly are 
vital to society--and which are not * * * (S)econd, once we have 
determined what government should do, we must then determine which 
level of government--federal, state, local or some combination--should 
provide and pay for those services.''
    Mr. Chairman, when I was Governor, and member and Chairman of the 
National Governors' Association, I fought vigorously to have those 
delineations spelled-out. Fortunately, we have made some notable 
legislative progress since I addressed the Committee in January, 1995.
    Specifically, we have seen a decline in important Federal ``command 
and control'' initiatives. In State Legislatures magazine last year, 
the deputy executive director of the National Council of State 
Legislatures, Carl Tubbesing, outlined what he called the five 
``hallmarks of devolution''--legislation in the 1990's that changed the 
face of the federal-state-local government partnership and reversed the 
decades long trend toward Federal centralization.
    These bills are the Unfunded Mandates Reform Act, the Safe Drinking 
Water Reform Act Amendments, Welfare Reform, Medicaid reforms such as 
the elimination of the Boren Amendment, and the establishment of the 
Children's Health Insurance Program.
    I would also add that the most significant victories since the 
Unfunded Mandates Reform Act happened this year when the Congress 
passed, and the President signed into law, Tobacco Anti-Recoupment 
legislation and the bi-partisan Education Flexibility Act.
    The Education Flexibility Act, or ``Ed-Flex,'' provides that to the 
extent that the Federal Government is going to fund education programs, 
each of the 50 states will be able to target their Federal Title I 
education dollars to education priorities and initiatives identified by 
local school districts in each state. Ed-Flex will also cut down on 
Federal paperwork requirements for each state and school district.
    The Tobacco Anti-Recoupment legislation ensures that the billions 
in tobacco funds that the states went to court to obtain are not seized 
by the Federal Government. In our state of Ohio, Mr. Chairman, that 
means $9.8 billion over 25 years to spend on whatever state and local 
needs exist.
    In spite of all of these achievements, we still have not managed to 
slip the knot of Federal intervention involving what I believe is the 
number one state and local responsibility in America--our educational 
system.
    While I have the greatest respect for Secretary Riley, I must say 
that many of the programs that the President has proposed in education 
have been the responsibility, are the responsibility and should be the 
responsibility of our state and local governments.
    For instance, the President is looking to provide $11 billion worth 
of tax free bonds for school construction programs; he's spent $1.2 
billion and has sought $200 million more in order to hire an additional 
100,000 new teachers; he has pledged to install national testing, which 
is a first step toward a national curriculum; and he wants to implement 
policies relating to social promotion, teacher competency, school 
takeovers, report cards and discipline issues.
    If he was still Governor of Arkansas, I would have no problem with 
him wanting to implement these initiatives for his state and pay for 
them out of his own state's funds. However, he is not the Governor of 
Arkansas, he is the President of the United States, and like so many of 
the President's other initiatives, these costly education proposals are 
not the responsibility of the Federal Government.
    What the President is trying to accomplish equates to the greatest 
level of Federal intervention in education to occur in some time. Let 
me just say, that I do not oppose putting teachers in the classroom, 
but I am concerned with the Federal Government telling state and local 
officials that they have to hire new teachers. Localities should have 
the freedom to invest their dollars in their greatest needs--whether it 
is teachers, computers or textbooks. In fact, Ohio is spending $1.5 
billion of its own money that I had committed to repair and rebuild our 
schools when I was Governor.
    Not only are the President's education proposals not the 
responsibility of the Federal Government, but, the problem is 
compounded because there is no money to pay for the President's 
education proposals, except if the President uses Social Security funds 
to do so.
    When our nation's governors seek to implement new programs, they 
wouldn't even think about using their states' pension funds, however, 
the President is raiding the Federal pension fund--Social Security--in 
order to pay for his ``pet'' projects. That's because, as this 
Committee is aware, we have no on-budget surplus in order to pay for 
things like these 100,000 teachers or school construction or even the 
100,000 COPS program which has cost us about $7 billion. They're being 
paid for out of Social Security.
    In all honesty, our states are in much better financial shape than 
the Federal Government. As you know, Mr. Chairman, we have a staggering 
$5.6 trillion national debt--a debt that has grown some 1,300 percent 
in the last 30 years. We're paying $600 million per day just on the 
interest and 14 cents of every tax dollar goes to pay the interest on 
the national debt.
    Yet, the President advocates spending more Federal money that he 
does not have on the expansion of Federal education programs--and other 
programs for that matter--when to do so would require dipping into our 
nation's pension fund.
    Mr. Chairman, that is unacceptable. The Federal Government cannot 
use Social Security as a private bank for whatever purpose comes along. 
It's time to stop the gimmicks.
    If the President wishes to fund these programs, he should be honest 
with the American people and tell them how he's going to pay for the 
programs he wants. If he won't re-allocate Federal resources, or if he 
won't raise the dollars to pay for them, then he should do without.
    Regardless, I think that this Committee and the Congress should 
define what the role of the Federal Government should be with respect 
to education. We should look to eliminate programs that the Federal 
Government shouldn't be involved in, consolidate the programs in which 
the Federal Government should be involved and make sure that the money 
is being spent properly.
    Right now, according to the General Accounting Office, there are 
560 different education programs--including approximately 90 early 
childhood care and education programs--that are run through 11 federal 
agencies and 20 offices. I believe that it is critically important that 
the Department of Health and Human Services (HHS) and the Department of 
Education (DoEd), which manage the vast majority of early childhood 
care and education spending, coordinate their efforts to ensure that 
their respective programs complement and not duplicate one another.
    As Chairman of the Subcommittee on Oversight of Government 
Management, Restructuring and the District of Columbia, I've held two 
hearings this year to get HHS and DoEd to comply with the Government 
Performance and Results Act (GPRA) and report their efforts to 
coordinate these hundreds of programs. The GPRA requires these annual 
performance plans to help Congress, the departments, and stakeholders 
measure program effectiveness.
    According to the initial report by GAO, both departments addressed 
the issue of coordination in their respective plans, but failed to 
adequately report implementation of these coordination efforts.
    However, as a result of our hearings, the Department of Education 
is currently re-writing their performance plan so there will be better 
coordination. I would like to thank Secretary Riley for acknowledging 
this need and giving it a higher profile in his department.
    If the Federal Government is going to remain involved in education 
programs, then it is crucial that we work harder and smarter and 
utilize the right programs to get the best results for our children.
    To do this, I believe we should take the funds that we save from 
consolidating and eliminating those portions of the hundreds of Federal 
education programs, and use them in an area that I have been passionate 
about, and in which the Federal Government has been nearly invisible, 
and that is the care of our children from the age prenatal to three.
    I have introduced legislation, the Prenatal, Infant and Child 
Development Act of 1999, S. 1154, that leverages state and private 
dollars, but does not supplant them. My bill is a model that gives 
states flexibility with their block grant dollars and lets them focus 
on pre-natal to three in a way that makes sense for their local 
communities. It makes the programs better instead of just making them 
bigger.
    For example, my bill provides scholarship money for childcare 
providers to get credentialed so they are better able to care for 
children in the prenatal to three age group. It's not a lot of money, 
but it will increase the quality of child-care providers in our nation.
    The bill also helps us reach the goal that Head Start set of 
credentialing 50 percent of Head Start teachers by 2003. While my bill 
contains a modest amount of seed money for states that want to start 
coordinated early childhood programs, it is only meant to help them 
leverage more money. It is not simply a gift that will keep coming 
every year. Last, and most importantly, my bill is offset . It will not 
increase spending.
    Another priority is one I just mentioned, Head Start. As you know, 
Head Start provides developmental services for low-income children ages 
three to five and social services for their families. In my state of 
Ohio, we've maximized our use of Head Start, so that right now, every 
child who is eligible for Head Start in Ohio has a slot available to 
them for pre-school education.
    I believe that Head Start affords the opportunity for the Federal 
Government and the state governments to partner together in order to 
help address the needs of a special segment of our society. If the main 
stumbling block for states to participate in the program is a concern 
over too much red-tape, then I believe that the Congress should address 
these concerns to the satisfaction of each state and the detriment of 
none.
    As we address education programs that are designed to help our 
states, we must ensure that these programs maintain flexibility for our 
states. We have taken a giant step toward giving our states the tools 
they need to meet the challenges of tomorrow by passing the Education 
Flexibility Act, or ``Ed-Flex.'' As I mentioned earlier, under Ed-Flex, 
each state is allowed to target their Federal education dollars to 
education priorities and initiatives identified by school districts in 
that particular state.
    When Ed-Flex was first considered, it was a pilot program in first 
six, and ultimately twelve, states including Ohio. The ``naysayers'' 
were quick to assume that there would be a ``race to the bottom'' and 
that Title I funds would disappear. The truth is, under Ed-Flex, there 
will be accountability for how and how well Title I funds are spent.
    Another approach that gives state and local officials flexibility 
is the ``Straight A's Act,'' legislation which I have co-sponsored. 
This bill would consolidate more Federal education program dollars into 
a single block grant to the states and local school districts. In 
exchange for this flexibility, states and school districts must 
demonstrate academic achievement and improved test scores. With this 
block grant, states and localities would be free to invest in programs 
that produce results and ensure that funds reach the classroom where 
they can be most beneficial, while reducing bureaucracy and eliminating 
ineffective programs. In addition, the flexibility provided by this 
legislation will negate any perceived need to allocate more Federal 
dollars to implement this bill.
    Mr. Chairman, we must maximize every Federal dollar that is spent 
on our children; to get the ``biggest bang for the buck.'' With 
flexibility, our states are better able to manage their individual 
state education programs, while providing the necessary oversight and 
funds to each individual school district. This way, we are best 
equipped to implement the programs that will work best in each 
individual state and prepare our students to face life's challenges.
    From a national education policy perspective, in terms of national 
priorities, I believe states should be the ultimate decision makers of 
what they should or should not do. In other words, there should be no 
mandates. Period. For instance, I don't believe we should mandate 
vouchers and charter schools, however, I also don't believe we should 
say states can't pursue such programs. If a state has an innovative 
education approach that will help our kids learn, it should be 
encouraged.
    In Ohio, we pursued our own innovative education approach by 
implementing the Cleveland Scholarship and Tutoring Program. Believing 
that competition fosters improvement, I made the implementation of this 
pilot school scholarship plan one of my top priorities as Governor. As 
the first school choice experiment in this country, the Cleveland 
Scholarship and Tutoring Program has been in operation since 1995.
    It is a painful fact that the Cleveland public school system has 
not delivered the kinds of results that will best prepare our children 
for the rigors and challenges of the high-performance workplace of the 
21st century. The Cleveland School system spends roughly one-half 
billion dollars to graduate only 36 percent of its high school seniors. 
Few would argue that the children in Cleveland deserve better.
    The Cleveland Scholarship Program offers state-funded scholarships 
for use at both secular and religious private schools, giving low-
income students access to an otherwise unattainable private school 
education in Cleveland. In September 1996, during its first school 
year, the program provided scholarships to some 1,855 students for the 
ublic, private, or religious school of their choice. A later expansion 
of the program budget enabled parents of approximately 3,675 students 
to use vouchers to enroll in 59 participating area schools during the 
1998-1999 school year.
    This Scholarship Program represents one more ``selection'' in the 
smorgasbord of education reform that can help the Cleveland Schools 
deliver the results our children deserve. I want to stress that school 
choice should not be regarded as a panacea, but rather as one part of a 
broader reform movement. There is no silver bullet; lots of ideas may 
work, but I do not believe we should depend entirely on any one item, 
nor should we preclude any one item. It's all about what we can do to 
improve the quality of education for our children.
    Many of the Committee members may know that the Cleveland 
Scholarship program was recently struck down by the Ohio Supreme Court, 
not because it was unconstitutional, but because it was enacted on a 
``single-issue'' spending bill, or, in Congressional parlance, it was 
ruled non-germane because it was a ``rider.''
    Nevertheless, the Ohio Legislature passed the measure again this 
year as a single issue item based on its merits. Although the program's 
future status is unclear, I am hopeful that we will be able to continue 
the program and use the data that it produces to undertake a 
longitudinal study that will make sure that the program is delivering 
results. Over time, we should know more about the academic performance, 
attendance, conduct, and parental involvement of the students in the 
Cleveland Scholarship program.
    It all gets back to the fact that at each level--federal, state and 
local--we all want value, which is getting the best product for the 
least amount of money, and we all want positive results. When dealing 
with education, Congress should be concerned with allowing the creation 
of an environment where new ideas can at least be tried. We need to 
stimulate initiative and innovation, and ensure maximum flexibility, 
like we've done with Ed-Flex, but we should always remember that with 
freedom, there is accountability.
    In Ohio, we made our school districts accountable by ranking them 
according to four performance categories: effective, needing continuous 
improvement, under academic watch and in a state of academic emergency. 
These categories are based on 27 different criteria that are dependent 
on student test scores in math, reading, writing, science and 
citizenship.
    We implemented a ``4th grade guarantee'' that stipulates that no 
child will move on from the fourth grade until he or she passes a 
reading proficiency exam.
    We also implemented requirements that each high school student pass 
a proficiency exam before they graduate. Period. We were met with some 
opposition, but I felt it was the only way that we were going to ensure 
that our students had at least the basic skills that would help them 
become productive citizens.
    It's all about accountability, and in Ohio, we're doing something 
about it because we want our kids to succeed.
    Each year, we spend billions of dollars on Federal education 
programs--programs that are in some instances unnecessary, obsolete or 
duplicative. I believe it is our duty to determine if these programs 
are effective and what Federal role is involved with each program.
    If there is no Federal role in a particular education program, then 
we should eliminate or consolidate that program. If it's determined to 
be a state or local issue, we need to look at how to segue that program 
into a state or local responsibility. If it's truly a combination of 
responsibilities on the part of the federal, state or local 
governments, we need to determine who provides and who pays and to what 
extent. And we should also look at innovations where we can prioritize 
money and get a better return on our investment, particularly where we 
have consolidated or eliminated a particular program.
    As I stated earlier, there are 31 different Federal agencies and 
offices that run 90 early childhood care and education programs that 
help address the needs of our children from pre-natal to three. 
Providing for our nation's youngest children is my passion, and I will 
continue to use my Subcommittee chairmanship to determine how best to 
consolidate and coordinate those programs according to the criteria I 
just outlined.
    Mr. Chairman, I commend you for holding this hearing today, and I 
believe that your Committee should continue to examine the proper role 
that the Federal Government plays in the effective use of tax dollars 
for education. In fact, I believe it would be of great interest to this 
Committee to start by giving scrutiny to the 470 remaining Federal 
education programs.
    Throughout the history of our nation, education has been a state 
and local responsibility. Regardless--for the foreseeable future, the 
Federal Government will continue to play a role in the education of our 
children. Therefore, I believe it is incumbent upon both the Federal 
Government to remove the excessive regulations that tell our state and 
local governments what they can and cannot do with respect to 
education, and upon Congress, to streamline the multitude of Federal 
education programs so that our tax dollars are spent on true education 
needs. Above all, flexibility, accountability and innovation are the 
tools that will help our states and our localities give our children 
the opportunity they deserve to learn.
    Thank you Mr. Chairman.

    Chairman Kasich. I want to thank you, Senator Voinovich, 
for coming. I just wonder, have you ever put together your view 
of what the State government should do, what the Federal 
Government should do, how we can consolidate these programs? 
Have you ever written all this down anywhere?
    Senator Voinovich. Well, Mr. Chairman, I am going to be 
writing it down. In other words, I can tell you I have got 
enough written about what I don't think we should be doing. I 
don't think we should be paying for 100,000 teachers. I don't 
think we should be setting national curriculum.
    I know my friends in Head Start won't like to hear what I 
am saying, but you have had the Head Start program, which is a 
terrific program and as you know, Mr. Chairman, Ohio is the 
only State in the United States of America where every eligible 
child, whose parents want them to be in Head Start, is in Head 
Start, or public school preschool. We have done it. And we 
spent an enormous amount of money doing it. We eliminated 
general assistance for able-bodied people in our State and took 
the money and put it into Head Start, because I felt that we 
needed to make a difference for our kids early on in their 
lives. So we reordered our priorities.
    But the fact is that we have been in the program a number 
of years. It was supposed to be a model program, Head Start, 
and a lot of States, frankly, are doing nothing in this area. 
If I were calling the shots, what I would say to the States is 
if you want the Federal money, then we are expecting you to get 
in the program. If you don't think enough of the program, then 
we are not going to give you the Federal money for this Head 
Start program.
    I have talked to some Governors and said, why aren't you 
increasing your involvement with Head Start? They have come 
back to me and said, we don't want to fund it if we are going 
to have to put up with the Federal guidelines in the operation 
of this program. I said well, fine; we will just lift those. 
But there are a lot of areas that we are in, and we keep 
increasing funding, again, where the States should be stepping 
to the table.
    Mr. Chairman, I know some of you are looking to take the 
TANF money. Now, I don't advise you to do that. We cut a deal 
on welfare reform. Congress said we will give the States this 
money for 6 years. The States said we will take the same amount 
of money, but give us the flexibility. And States have stacked 
up a little money. But the fact is, we are using some of that 
TANF money right now in Ohio to provide prenatal education for 
parents; newborn baby education to parents. We are using that 
money, for example, to provide home visits to families for 
every new birth. In fact, your wife will probably be asked if 
you want somebody to come out to your house to talk about how 
to be a new parent. OK. This may sound silly, but it is 
necessary for some new parents. It is very important that 
during that first 3 years that that child get as much 
stimulation as possible because that is when their brain starts 
to grow.
    I guess what I am saying is that you will be getting a 
report back from me for my subcommittee on what is going on in 
these prenatal-to-3 years.
    Chairman Kasich. Let me say that, you know, George 
Voinovich and I have the same kind of ancestry and you can see 
he is a guy who as a Governor could kind of do three things and 
get everybody to move. He comes to Washington now and it 
doesn't happen as quickly. But just think, here is a guy who 
has just--what he has done on the early childhood development 
programs in Ohio and what he has done on Head Start, he is in a 
very strong position to have credibility and yet still talk 
about the things the government should do and shouldn't do and 
what State governments should do and shouldn't do, and really 
can't be criticized for not caring.
    And I am just excited that he is here, because if he would 
just keep his voice being heard, 1 day, over time, people will 
listen more and more and more, and you have just got to keep 
hanging in there.
    The gentlemen from Minnesota is recognized, Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. I agree. Sometimes 
it is probably more difficult to be heard in the clatter of 
those other 99 Senators over there. But I want to thank you for 
coming here today. You do offer a unique perspective.
    I want to mention something that you sort of implicated but 
you didn't exactly say. Our Governor, Jesse Ventura, was out 
here last spring, met with the delegation, and we talked about 
the whole idea of building new schools; in other words, this 
Federal funding. And the Secretary recently, or just a few 
moments ago, testified that that was still a very high priority 
for the administration.
    He said--and I would like to get your reaction to this--
Governor Ventura said that as far as he was concerned, if the 
Federal Government would just fund the obligations that they 
have made, for example, under IDEA, the special education 
funds, he said he would have more than enough money to build 
all the schools that we need in the State of Minnesota. Would 
you concur with that in terms of Ohio?
    Senator Voinovich. I am glad you asked the question. No. 1, 
we talk about how we don't need mandates. And Congress mandated 
IDEA and agreed that the Federal Government was going to pay 
for 40 percent of it. I think it is about 11 percent right now. 
If you ask every Governor, he or she would say to Congress take 
all the money you are putting into other programs and give it 
to us to fund your IDEA mandate, and we will have enough money 
available to do a lot of these things that these Federal 
programs are supposed to be doing. I think you would get a 
unanimous response on that.
    In terms of school construction, again, that is a local 
responsibility. In Ohio, one of the things that I recognized 
when I became Governor was that we had a real problem in terms 
of our physical facilities, particularly in our low-wealth 
districts. We have 29 areas in Ohio that are part of 
Appalachia. So we went to work. We are spending billions of 
dollars now in Ohio. And the way we do it with the school 
districts, if they are real low-wealth districts, we say you 
got to pay a little bit. In fact I went out and campaigned for 
some of the levies. And the leveraging in one district was for 
every dollar that they put up, we gave them 14. And it has been 
in existence long enough that I have been around for the 
ribbon-cuttings to open some of those schools.
    So Ohio and other States are aggressively pursuing 
rebuilding a lot of these buildings and constructing new 
buildings in areas where they are needed. Now, we are charging 
our taxpayers a lot of money to do that. It is not pennies from 
heaven. It is costing us. The question is, should we in Ohio 
send our money to Washington to fund school construction. I 
know it is a tax credit, but people have to understand that a 
tax credit means there is less money to the Federal Government 
and in effect the Federal Government is losing money because of 
it. Is it proper for us to send the money to the Feds and then 
have them turn around and redistribute the money? My feeling is 
that it is a State responsibility. If the Federal Government 
were flush, and had a whole lot of money, that might be a 
different story. But that is not the case.
    States should be stepping up to the table and doing school 
construction. Many of them are doing it. And the ones that are 
doing it understand they are not going to be competitive unless 
they have decent school building. So I am saying I don't think 
that is a role for the Federal Government--school buildings 
should be the responsibility of State and local government.
    Mr. Gutknecht. Let me follow up, if I could. I would like 
to get your reaction. George Will was on the Hill yesterday and 
gave a speech. And in the speech, he said of all the studies on 
student performance, they tend to confirm that only four 
factors seem to affect school performance. First was the 
percentage of two-parent households; second was the amount of 
reading that is done at home; third was the amount of homework 
that is assigned; and fourth, the amount of television watched 
at home. Apparently the amount spent, classroom size, and even 
Federal tinkering, doesn't seem to have much of an impact.
    I would like to get your reaction to that.
    Senator Voinovich. Well, I think there was one individual 
who said the closer you are to Canada, the better the test 
scores. They did a study of SATs and found that the more 
northern the States, the better the kids were doing. I think 
that has probably got more to do with the fact that they are at 
home, you have got two parents, and you have less single-parent 
households and so on.
    I thought those observations were very good, but at the 
same time, you have got to recognize that America is different. 
And the issue is how do you compensate for that fact. I went to 
high school in the Cleveland School District and I went to 
Cleveland public schools. In fact, we just had our 45th class 
reunion and I was saying to my classmates, that at the time we 
went to school, I think it was like 10 percent of the kids were 
from one-parent households. Today I think it is close to 70 
percent. So you don't have that parental involvement that you 
need. More and more, kids are being born without their father 
there in their lives. So what do you do about that situation?
    We recognize how important, say, a Head Start program is 
for at-risk kids. We understand that mothers need to have some 
help in making sure they know, when that child is born, what 
they should be doing so they don't miss that first 3 years of 
opportunity. We know that we need to encourage local 
communities to use their resources, for example, to coordinate 
programs that deal with prenatal to 3. These are leadership 
things, the roles that government can play. I mean, I don't 
think we should just say well, there isn't a role for us to 
play. The issue is what role should it be.
    And in terms of television, I just mentioned to you an 
initiative with public television. The people in Cleveland say 
you ought to not let kids watch TV. My kids didn't watch TV. I 
was the last person on my street to have a television set and 
the last one to have a color television set. But I had 2 kids 
graduate summa cum laude and another one graduate cum laude. We 
spent some time with those kids. But the fact is in this 
program that I am talking about, parents and child care 
providers can get information about the television programs 
from the Internet and talk to their kids about them so they 
learn something from them. We are finding in Ohio a lot of low-
income families don't use ``official'' child care. It is mom, 
grandma, somebody down the street, somebody who is taking care 
of three or four kids. What do they do during that period of 
time? If they know that they can watch public television and 
the kids have got something they can do constructive with their 
time, you are taking advantage of a wonderful opportunity to 
make a difference with those kids. That is the thing we should 
be looking at--what are the practical things.
    I think the other thing we should mention is 
accountability. I had a superintendent who had been in his 
school system for 25 years say to me, George, the most 
important thing you did is that you put into place the ninth 
grade proficiency test. This was back in 1991/1992. It was a 
test that basically said we don't care whether you have been in 
school 12 years or not; if you can't pass a ninth grade 
proficiency test, you don't graduate.
    I've got to tell you, that was like a big bomb hitting some 
urban districts. I had superintendents come in to see me and 
say there is no way, Governor, you are going to allow kids that 
have been in school 12 years not to graduate and get that 
diploma. I said, try me. I said, let's turn it around. And what 
we did is we started a public-private partnership, a tutoring 
program to really do what we could to make sure that that first 
group of kids could pass.
    Now we have a fourth grade proficiency test, a sixth grade 
proficiency test, and a tough 12th grade college entrance test. 
We are reporting the results. We are giving the people of the 
State a report card. Nationwide, today, there is a lot of 
complacency. You know, parents say their children's school is a 
good school. I've got to tell you something: in Ohio, when they 
got the report back that their fourth graders weren't passing 
that test or weren't doing so well, they started asking the 
school, what is going on, why aren't we getting the results? I 
invested in it.
    I just bumped into a guy who is the chairman of his board 
of education in Chagrin Falls, Ohio. Mr. Chairman, you know 
Chagrin Falls, it's a great community. And they were one of 6 
districts in Ohio that met all 18 of what we call the quality 
points. They are very efficient. He is going to his district 
for a levy and he is going to get it passed. You want to know 
why? Because he can say to the people in his district, we are 
No. 1, and it's because you are investing in your school system 
that we are getting a return on our investment. It is those 
kinds of things, that accountability, that means a great deal.
    Chairman Kasich. Mr. Spratt is recognized.
    Mr. Spratt. Senator, let me just thank you for your 
testimony. It was refreshing and I enjoyed hearing it. I hear 
you saying that you think there is a Federal role in education: 
We should lay back on the mandates and micromanagement, but 
there is a role and even some reason to be categorical, and 
there are some programs like Head Start that we think our money 
ought to be spent on and is worthy, and we ought to hold the 
States to some standards.
    Senator Voinovich. Absolutely.
    Mr. Spratt. So I take heart from what you say. Also you are 
pitching public education. So this is a kind of a hybrid 
presentation.
    Senator Voinovich. I am pitching all kinds of education.
    Mr. Spratt. I mean, public television as part of public 
education. I misspoke. Let me ask you something. You started 
out by saying that you were engaged in trying to finally end 
the budget season and balance--get the budget within the caps. 
We got a situation now where we have used the Labor, HHS, 
Education appropriation bill as a bill-payer for all other 12 
appropriation bills. I think we have tapped it out for about 
11, $12 billion, maybe a bit more in outlays.
    By CBO's calculation, to get outlays to that level, you 
would have to cut budget authority by as much as $28 billion 
out of an $88 billion overall bill. How do we close the year 
and not savage education?
    Senator Voinovich. Well, can I tell you the way we did in 
the State of Ohio? When I first came in when I became 
Governor--we were $1\1/2\ billion in the hole. The previous 
group had spent a lot of money and just assumed that the next 
budget would grow by 25 percent to pay for it. And so what we 
did was go through and look at the programs and prioritize the 
programs that we felt were the most important.
    Now, one of the things that I am concerned about is the 
real defense readiness problem we have in this country. We do 
need to spend more money for defense. But there is a feeling 
that you can increase spending for defense by $17 billion and 
then not have funds for what is it--I think it is labor--is it 
Labor-Education? Our appropriations subcommittee, I can't 
remember what the name of it is.
    Mr. Spratt. HHS.
    Senator Voinovich. Yes. We are underfunded there, and we 
are going to need to find some more money. First of all, you 
know, we are going to have a $14\1/2\ billion surplus which is 
going to have to be used to deal with this problem. One of the 
problems is that because of the budget agreement, we are going 
to have to spend less money this year than last year; correct? 
Isn't that right?
    Mr. Spratt. Caps.
    Senator Voinovich. Right. But we are going to have to spend 
less money. That is a tall order in itself. And then comes 
along Medicare which is hemorrhaging; then comes along our 
readiness problem where we are in deep trouble. We have this 
drought situation, and a bunch of other things that have come 
along. The issue is, how do you do all that and save Social 
Security? I think you have to go through and peel back on some 
of the things that you would like to do and say that we are 
just not able to afford doing these things. Now, that means you 
will take a whole lot of heat.
    The other alternative is to raise more money. And there 
aren't too many people around that want to do that. So it is 
going to be a difficult thing. But it is like everything else; 
everybody ought to give a little in order to get this job done. 
And I want to say something. There are a lot of wonderful 
programs out there. And a lot of people will come down here and 
you will hear them say what we have got to do. The children's 
hospitals, for example, want money to be reimbursed for 
educating the doctors. Same with the cancer hospital. I mean, 
there are all kinds of things. But unless we get ourselves, 
from a public policy point of view, back on track in terms of 
fiscal responsibility, we are doing a great disservice to 
everyone. Somebody told me the other day we are spending 54 
percent of the budget on mandates today. Somebody else said in 
10 years we will be spending 66 percent. And if we don't do 
something about getting that debt down, so we can stop paying 
14 cents out of every dollar for interest, and get back to 
being fiscally responsible, we are going to be in grave, grave 
trouble.
    In our State, we made the cuts, and the Chairman knows when 
we finally got to 1992, I will never forget it, I cut higher 
education, secondary education, and eliminated a lot of 
programs. And I went to the legislature, and I said to them, I 
will do it. You know what they told me when I did that? They 
said, We will grow out of this George, don't worry about it. 
Well, I had to do it and I did it. I went to them and I said, 
you know, I can cut education again, I could do a lot of these 
other things, but I think we have gotten to the point where we 
just can't cut anymore. And so we raised a little money to 
balance that budget. And because we got ourselves on our feet 
there, we moved forward.
    And today, when I left Ohio, we have about $1 billion in 
our rainy day fund. When I was Governor, it had gone down to 14 
cents. All I am saying to you is this is a budget committee. 
The greatest thing from a public policy point of view you can 
do is to get the fiscal house in order for the United States of 
America. I mean, I took over Cleveland, the first city to go 
into default. The first thing I did was get the books, but they 
were inauditable. I may say you may find some books here that 
are not auditable. Once you have got that and you are on firm 
ground--then you are in a much better position, I think, to 
deal with the things that are going to confront this country. 
And we have in my opinion, done a great disservice to our 
children and to our grandchildren. We have refused during our 
lifetime to pay for those things that we thought were 
important. We were unwilling to go without them, even if we 
weren't able to pay for them.
    I think that is really the challenge today, in this 
country. We need to understand that there are many competing 
interests out there that we need to deal with, because every 
person has got a particular point of view, and a cause that 
they want to have responded to. But the highest calling would 
be to get our fiscal house in order, so we can enter the next 
century with our feet on the ground.
    Chairman Kasich. I want to thank Senator Voinovich for 
coming. We are going to have to end his testimony. We have a 
short panel yet to come.
    George, by the way, we are going to have Mr. John Walton 
with us today who, along with Ted Forstmann, has created these 
scholarship programs, millions of dollars worth of help to 
people in districts where kids are not doing very well; and we 
had good testimony from the Secretary of Education and from Jeb 
Bush.
    I really want to thank you. I think your idea of convening 
the governors with Pete Domenici, we are going to pursue that. 
I look forward to working with you.
    I thank your able assistant, Mr. Dawson, for coming with 
you. We will let you get back to the Senate.
    Senator Voinovich. May I just add one thing? The people who 
will also be testifying at this hearing, the private-sector 
people, should really be applauded for what they are doing. The 
most important thing they can do, and what we are trying to do 
in Cleveland is, conduct longitudinal studies to see how their 
program really works. That is very, very important, because if 
a program does work and we get the results that prove it, then 
I think that is something that needs to be looked at for 
possible implementation elsewhere.
    Of course we won't find out from Jeb Bush, will we, for a 
few years? But we ought to be willing to go that route, even 
though some people may think it is controversial.
    Chairman Kasich. Thank you very much.
    We are now going to hear from Dwight Evans, a State 
representative who was first elected from the State of 
Pennsylvania in 1980. He is popular, has been reelected every 
term since. He also was the creator of a charter school over in 
the Philadelphia area. I am looking forward to his testimony. I 
thank him for coming today.
    We are also going to have Virginia ``Ginny'' Markell who is 
from--let me get it right--Clackamas, Oregon. That must be a 
nice area.
    Darlene, are you familiar with Ms. Markell?
    Ms. Hooley. I am very familiar with the fabulous work she 
does. Clackamas is part of my district.
    Chairman Kasich. Is it on the ocean?
    Ms. Hooley. Not quite.
    Chairman Kasich. I want to thank her for coming also.
    Why don't we start with Ms. Markell first, and if you 
could, kind of summarize your testimony. I know that as the 
head of the National PTA, you are probably a very articulate 
person. Why don't you just let us have it?
    Then, Dwight, I am sure you are probably not that effective 
a public speaker. No, I bet you are very effective. We will let 
the two of you just kind of let us have it. We will take a few 
questions, then get to our final panel.

     STATEMENT OF VIRGINIA MARKELL, PRESIDENT, NATIONAL PTA

    Ms. Markell. Thank you, Mr. Chairman. Good morning. It is a 
pleasure to see my own representative here and not getting too 
impatient just because I am here--it is a nice thought, 
Darlene--and other members of the committee also.
    Just a little background about the National PTA before I 
start. I am indeed the President; I was installed in June of 
this year. We are the largest and oldest child advocacy 
organization in this country with 6.5 million members. So when 
I speak, I speak with a lot of parents' voices behind me, not 
usually as loud as what 6.5 million members will do for us. But 
I want you to understand that we are a grass-roots organization 
and we do indeed solicit information from our local unit 
members in local schools and communities throughout this 
country.
    Much of today's discussion has been about vouchers, so I do 
want to give you some perspective about the National PTA's 
long-standing opposition to vouchers: long-standing opposition. 
Let me give you just a couple of highlights as to the reasoning 
behind that.
    First of all, we don't believe that vouchers really give 
families choices. The only choice belongs to private and 
religious schools. They are able to select the children that 
may attend those schools. Vouchers also, as you have heard 
today, divert public funds into private schools, which we think 
have limited public accountability. They do not meet standard 
criteria that other public schools need to in that neighborhood 
or community.
    We also know that in order for private school and religious 
schools to be held accountable, they may lose their autonomy in 
regards to their curriculum and certainly over their policy 
decisions.
    We also believe that vouchers do not equalize educational 
opportunities. Vouchers will not help the most disadvantaged 
families. They will not assure access to quality education, 
especially for those with disabilities and special needs.
    Voucher proponents have also not provided particularly 
strong evidence that they improve achievement. Research, in 
fact, conducted on voucher programs has been conflicting at 
best, and for more than 9 years of the voucher experiment, we 
do not have a clear or statistically valid success story.
    We also think that vouchers will create unnecessary and 
costly administrative burdens to States and districts. At a 
time when we are looking at more educational flexibility, 
voucher programs will impose new levels of administrative 
management. And probably most significant is the fact that 
vouchers will really benefit only a small percentage of 
children. Public schools educating 90 percent of our country's 
future need to have those funds.
    We have some other concerns about vouchers, too, 
particularly in regards to the fact that we think it is very 
divisive to communities. As we begin to siphon off some 
students, we lose the sense of community schools. There are a 
number of opinion polls that have been conducted over the last 
few years that demonstrate to us that the public has a very 
strong commitment to public education, so strong that some of 
the polls indicate that they are also willing to pay increased 
taxes to support that public education.
    We also think that there are some problems in the existing 
programs that we have. For example, both Milwaukee and 
Cleveland programs have been cited for not adhering to the 
selection and admission requirements that have been outlined in 
the law.
    We also think there are going to be some structural 
problems with the voucher program that you heard about from 
Governor Bush this morning as we begin to punish failing 
schools by taking funds and sending those funds to schools with 
a small number of students.
    Briefly, our priorities are that rather than looking at 
vouchers, we should be looking at enhancing the Federal 
investment in education. We are particularly attached to 
programs that the Department of Education has established. What 
it now needs from the government is full funding.
    For example, Title I only provides services to about one-
third of those who are eligible. Those services would need to 
be funded at $24 billion if we were to provide for every single 
entitled student. We already heard from Congresswoman Rivers 
this morning about IDEA and the funding that is needed to fully 
fund that.
    We believe that the foundation for education reform and 
change within this country can be attached to parent 
involvement. And we have been very supportive of the 
reauthorization of ESEA as it has strong components that 
support parent involvement. All of the research for the last 30 
years in regards to parent involvement has told us that the 
more parents are involved, the more successful students will 
be. You heard that even this morning with the Representative 
from Minnesota, who quoted the information that was presented 
from George Will yesterday.
    Education is at a crisis in this country. We would 
certainly be, as an organization, the first to admit that. We 
are seeing some major changes that need to occur as we look at 
record high enrollments, an increase in the number of students 
with disabilities or special needs, the fact that technology 
has changed the landscape of education and our schools have not 
kept pace with that, the anticipated teacher shortage, the fact 
that we need to modernize our schools and update our 
facilities. Certainly we need to look at extensive before- and 
after-school learning opportunities for children.
    The fact is, the problems will need to be addressed by the 
Federal Government. Without substantial infusion of funding, we 
will not be able to bring up failing schools to a standard that 
this country expects.
    I would like to talk just very briefly, since you have 
asked us to condense our comments, about some examples of 
Federal initiatives that we think will be the answer to real 
school improvement. The first one has to do with the 
Comprehensive School Reform Demonstration Program. This 
particular initiative provides grants to schools that have 
identified for themselves what is necessary in order to improve 
the education for the children that they serve. Parents and 
teachers and others in the local community design and agree on 
the implementation for research-based reform. That is the key 
element of the program--that it is community-driven by parents, 
teachers, local community members. Unfortunately, the program 
is not adequately funded.
    We have talked a fair amount this morning about class size 
reduction in terms of the numbers of students that teachers are 
actually responsible for in the class. The research that we 
have looked at indicates that reduced class size, not vouchers, 
tends to hold the greatest promise for real improvement in 
student academic success. Schools and communities know that 
this is the case. However, they cannot fund additional teachers 
without some assistance.
    Certainly school construction and modernization bonds will 
allow us to move our children into the opportunity to be 
exposed to the technology and the skills that they will need as 
we move into the next century. The 21st Century Community 
Learning Centers will provide millions of children a place to 
go after school, not only to benefit academic development, but 
also social skills, as they participate in quality after-school 
programs. Unfortunately, there is a great shortage of this kind 
of funding and programs, and the schools cannot make that up 
without additional investments.
    Parent involvement--I need to hit on that at least one more 
time before my time is up. I would like to encourage members of 
this committee to sign on with us in the PARENT Act. We are 
extremely proud that the government has identified the need to 
give parents the skills and the opportunity to be part of the 
educational system for their children.
    The House has introduced in H.R. 2801, and the Senate in 
1556, the PARENT Act which stands for Parental Accountability, 
Recruitment and Education National Training. This bill will 
provide States and schools with Federal leadership, information 
on research and model programs, and the technical assistance 
that they need to plan and implement effective parent 
involvement programs. We do know, again as I have already 
stated, based on the research that in order for true academic 
change to occur, education reform to occur and student 
achievement to rise, we need to have parent involvement.
    To summarize, let me just say that Congress should not be 
diverting funds to private schools, but should address the 
immediate needs of schools such as investing in comprehensive 
school reform, reducing class size and modernizing schools. 
Federal resources provide the foundation schools need for 
improvement. They also help expand opportunities for students 
in schools and communities with limited resources.
    And while I know you have heard this, I will say it again: 
Children are only 25 percent of our present, but they are 100 
percent of our future, and the government must invest in their 
well-being as well as their educational development to secure 
the economy of this country.
    I thank you for the opportunity to be able to discuss these 
issues with you. I look forward to the questions you might pose 
and certainly look forward to the National PTA working with 
this committee in the near future.
    [The prepared statement of Ms. Markell follows:]

    Prepared Statement of Virginia Markell, President, National PTA

    Good morning, Chairman Kasich and members of the committee. I am 
Ginny Markell, President of the National PTA, the oldest and largest 
child advocacy organization with 6.5 million members. I appreciate 
being part of today's discussion and I am pleased that you have placed 
particular emphasis on the importance of parental involvement in 
education reform.
    Much of today's hearing has focused on vouchers so I will begin by 
giving the National PTA's perspective on that issue and then move to 
where the debate really should be focused: how to make every public 
school an effective school and the programs and funding needed to get 
there.
    National PTA opposes vouchers because:
    <bullet> Vouchers do not give families ``choice.'' The only choice 
belongs to private and religious schools who are able to hand select 
the children they admit.
    <bullet> Vouchers divert public funds to private schools, which 
have limited public accountability and do not have to meet the same 
criteria as public schools. To be held accountable, the private and 
religious schools may have to sacrifice their autonomy over curriculum 
and other policy decisions.
    <bullet> Vouchers do not equalize educational opportunities. 
Vouchers will not help the most disadvantaged families, nor will they 
assure access to a quality education, especially for those with 
disabilities or special needs.
    <bullet> Voucher proponents have not provided strong evidence that 
they improve academic achievement. Research conducted on voucher 
programs has been conflicting at best. After more than 9 years of 
voucher experiments, a clear and statistically valid success story has 
not yet emerged.
    <bullet> Vouchers create unnecessary and costly administrative 
burdens on states and districts. At a time when policy-makers are 
calling for more education flexibility, voucher programs would impose 
new levels of administrative management and oversight.
    <bullet> Vouchers only benefit a small percentage of children. 
Public schools educate 90 percent of our nation's students.
    National PTA has other concerns about vouchers too. They divide 
communities and prevent substantive education reforms from moving 
forward. Voucher fights are ongoing in state legislatures, in the 
courts and at the local level. Numerous opinion polls continuously 
demonstrate that the public strongly supports public education. 
Accordingly, policies should focus on strengthening public schools, not 
promoting proposals that split the community and only help a select few 
students.
    In addition, there are significant problems with the few voucher 
programs that already exist. For example, both the Milwaukee and 
Cleveland programs have been cited for not adhering to the selection 
and admission requirements outlined in the laws. Others have structural 
problems; for instance the program in Florida, which Governor Bush 
described earlier, punishes failing schools by stripping away their 
funds and sending a small number of students to other schools. What 
happens to those children left behind in the failing school? If 
Congress passes a national voucher proposal these problems would be 
greatly magnified.
    Mr. Chairman, and other members of the Committee, another key 
factor in this debate is cost. Just to provide vouchers to the students 
who already attend private schools would cost $15 billion. For a 
comparison, that is more than the entire Federal investment provided 
through the Elementary and Secondary Education Act which benefits 
nearly 90 percent of school districts. Vouchers cannot be the answer to 
education reform for our nation's students. The answer is to increase 
the Federal investment in the education system we already have.
    Current Department of Education programs, which are targeted to 
address specific needs, have been effective in improving student 
achievement and reforming schools. Unfortunately, funding levels are 
not adequate to allow these programs to serve all eligible students and 
schools.
    For example, Title I only provides services to about one-third of 
those who are eligible. To provide services to all would cost a total 
of $24 billion. The Individuals with Disabilities Education Act (IDEA) 
is another essential program that far from meeting its full need. IDEA 
would need at least $12-14 billion to provide the 40 percent Federal 
Government share that was originally promised. Sadly, we could provide 
many other examples of the underfunding of Federal education programs.
    In addition, schools are facing enormous new challenges in carrying 
out their mission:
    <bullet> Record high enrollments
    <bullet> Increased percentage of children with special needs
    <bullet> Rapidly changing education technology demands
    <bullet> An anticipated teacher shortage
    <bullet> A price tag exceeding $200 billion to repair and modernize 
our schools
    <bullet> Extensive need for school-based before and after school 
care
    The fact is, the problems schools face will not disappear without 
Federal assistance. Without a substantial infusion of funds-continued 
over a sustained period of time-our nation's capacity to provide high 
quality educational services to all children will be irreparably 
harmed.
    Here are a few examples of Federal initiatives that would result in 
real school improvement and increase student achievement:
    <bullet> The Comprehensive School Reform Demonstration Program. 
This is an initiative which provides grants to schools that have 
identified what is necessary to improve education for the children they 
serve. Parents, teachers and others in the local community design and 
agree to implement research-based reforms that have been proven to work 
in other schools. Unfortunately, the program is not adequately funded.
    <bullet> Class Size Reduction. Research has demonstrated that 
reduced class size is a critical factor in helping students achieve. In 
fact, Professor Alex Molnar from the University of Wisconsin at 
Milwaukee, found that reduced class size, not vouchers, hold the 
greatest promise for improving student academic success. Schools and 
communities may know this is true, but do not have the financial 
resources to hire more teachers. Because it is of Federal interest that 
all children have the opportunity to succeed, Congress should provide 
supplemental funds to schools that have identified this need.
    <bullet> School Construction and Modernization Bonds. Children 
cannot learn in buildings that are unsafe or dilapidated. The estimated 
cost of repairing and modernizing school facilities is staggering--more 
than $200 billion--and cannot be absorbed by local communities. 
Congress must address this problem if schools are to succeed. Pending 
tax credit proposals could turn a Federal investment of $3 billion into 
$25 billion in local bonds for school construction.
    <bullet> 21st Century Community Learning Centers. Millions of 
children have no place to go after school and would benefit 
academically and socially by participating in quality school-based 
before- and after-school programs. Unfortunately, there is a severe 
shortage of these programs, and schools again cannot afford to resolve 
this shortage without help. The Federal Government's commitment to 21st 
Century Community Learning Centers must be increased.
    <bullet> Parent Involvement. Parent involvement is often cited as 
an essential element in school reform. National PTA is promoting the 
PARENT Act, which stands for Parental Accountability, Recruitment, and 
Education National Training. The bills have been introduced in the 
House and Senate as H.R. 2801 and S. 1556. The PARENT Act focuses on 
strengthening the connection between parents and schools by providing 
states and schools with Federal leadership, information on research and 
model programs, and technical assistance needed to plan and implement 
effective parent involvement programs.
    The PARENT Act would strengthen parent involvement by ensuring that 
teachers are taught how to work well with parents, technology programs 
are expanded to connect teachers and schools with parents, and parents 
are involved in planning how Federal funds are used in local programs. 
The PARENT Act is not a one-size-fits-all Federal program, but rather a 
sensible outline that will lead to improved student achievement.
    Polls indicate tremendous support for increased parental 
involvement and a willingness on taxpayers behalf to invest Federal 
dollars toward this effort. We encourage members of this committee to 
co-sponsor this important legislation.
    To summarize, Congress should not divert public funds to private 
schools, but instead should address the immediate needs of schools, 
such as investing in more comprehensive school reforms, reducing class 
size, modernizing schools, expanding before- and after-school learning 
opportunities and increasing parental involvement. Federal resources 
provide the foundation schools need for improvement. They also help 
expand opportunities for students in schools and communities with 
limited resources. Children are only 25 percent of the present, but 100 
percent of the future. America's tomorrow depends on quality public 
schools today.
    Thank you for this opportunity to present our views today. I look 
forward to the National PTA and your staff working together in the 
coming year.

STATEMENT OF HON. DWIGHT EVANS, A STATE REPRESENTATIVE FROM THE 
                  COMMONWEALTH OF PENNSYLVANIA

    Mr. Evans. Good afternoon, Mr. Chairman and members of the 
committee.
    I would first like to express how my particular views are 
shaped. I am a product of the Philadelphia public school 
district, formerly a teacher, taught in the public school 
district; a member of the Pennsylvania House for the last 20 
years, on the House Education Committee, chairman of the 
Appropriations Committee; supported the legislation to 
authorize charter schools in the Commonwealth of Pennsylvania, 
passed in 1997.
    There are now 50 charter schools in the Commonwealth of 
Pennsylvania. There are 25 charter schools in the City of 
Philadelphia. I started a charter school called the West Oak 
Lane Charter School. The West Oak Lane Charter School has about 
621 children, a longer school day, a longer school year; 
students wear uniforms, teachers wear uniforms, the principal 
wears uniforms; they teach Spanish; targeted toward computers. 
So fundamentally that gives you a little sense of my 
background.
    However, I want to express that there is a real frustration 
on my part, that I do not believe--and I can only specifically 
speak about Philadelphia and obviously not about the entire 
Nation--I do not believe that the schools are child-centered. I 
believe that they are adult-centered and they are not meeting 
the needs of all of the children. We have to begin to ask 
ourselves some serious questions.
    In my view, this is not about interest groups, this is not 
about one constituency, this is not about protecting favored 
programs that do not work. This is about teaching and learning. 
What should our children know and what should they be able to 
do? How do we support our teachers to assure that they enter 
the classroom ready to teach? And how do we support them so 
that they are ready to stay? What are the proper roles of 
school boards, the State government and the Federal Government? 
What choices are there--charter schools, magnet schools, inter-
district schools and even switching to the nearest closest 
public school? What criteria do we place on using tax dollars?
    I think that we need to start by recognizing that education 
will continue to be a State government and a local school board 
responsibility. While I recognize and applaud your effort and 
support here in Washington, I think the reality is that yours 
will always be a secondary role. The fact of the matter is that 
States will always set education policies and school boards 
will always be responsible for implementing that education 
policy. Depending on the source, the Federal support of basic 
education is estimated between 7 percent to 10 percent. Based 
on the latest information of Pennsylvania, Federal support is 
only 3 percent of the local funds available.
    We also need to recognize the fact that the education 
delivery system is always changing. Until quite recently, the 
education of public school children was totally in the hands of 
State government and the nearly 15,000 public school districts 
in this country. This is no longer the case. To the mix have 
been added charter schools, and programs such as those in 
Milwaukee and Cleveland. We should anticipate further changes 
and design our funding systems to be flexible enough to meet 
unanticipated changes.
    Let me continue by laying out what I believe ought to be 
the guiding principles for the appropriation of Federal funds. 
First of all, I would urge you to try to move away from 
categorical funding, to flexible funding. I realize that 
funding always comes with strings attached. I don't expect you 
to just hand over the money and not expect anything in return. 
We at the State and the local levels should be held accountable 
for improvements in teaching and learning. The bottom line 
should be the overall improvement, not just the preparation of 
reports.
    It seems to me that you at the Federal level need to focus 
on trying to set important priorities in education and then 
constructing more flexible grants that combine the dollars from 
the categorical programs. By way of illustration, it seems to 
me that the Federal priorities could be focused on such areas 
as support for the poorest students, who are the students most 
at risk, or assisting in the recruitment, education, retention 
and professional development of highly qualified teachers or 
principals.
    There should be few conditions attached to the receipt of 
these funds other than demonstrating improvement in teaching 
and learning. States should not have to institute specific 
processes or procedures in return for funding. Federal 
requirements, such as school report cards or the reconstitution 
of failing school buildings, may have more appeal than 
substance. According to a survey of accountability measures 
used by various States that was done by Education Week, 30 
States already have report cards. Will the state of education 
in this country really improve if the other 20 are required to 
do so?
    While reconstitution and school closures are touted as get-
tough measures, there is scant information on the usefulness of 
these tactics. The same Education Week survey also revealed 
that North Carolina, which is always cited for remarkable 
improvements in educational attainment, has neither closure nor 
reconstitution available to it.
    First of all, I would like to urge to you to let the States 
continue to take the lead in the development of standards, 
assessments and systems of accountability that fit our own 
unique circumstances.
    Let me repeat that: I would urge you to let the States 
continue to take the lead in the development of standards, 
assessments and systems of accountability that fit our own 
unique circumstances.
    While I recognize the potential of such programs as the 
recently implemented Ed-Flex, I would hope that the concept is 
merely the beginning of a more flexible approach to the use of 
Federal funds than an end.
    I would like to say this in closing, Mr. Chairman, to the 
members of your committee: I represent a legislative district 
that borders a suburb in the Commonwealth of Pennsylvania. The 
City of Philadelphia between 1990 and 1999 has lost 150,000 
people, who have left the City of Philadelphia. Obviously there 
are issues such as taxes and crime and things of that nature. 
But if my good friend, Congressman Hoeffel, was here today, who 
borders my legislative district, a great majority of the people 
who have left my district have left my district on the basis of 
the schools.
    My view is that the schools are not child-centered. They 
are not meeting the needs of the children; they are meeting the 
needs of the adults. Obviously, we have to begin to look at 
other options, begin to look at what works. We need to have--
and I compliment the chairman and the members of this committee 
for having this type of discussion, because the fact of the 
matter is, everything doesn't work for every single child.
    That doesn't mean that there are not good schools. The 
question is, we are talking about having good systems. We can 
always point to an individual school. How can we point to an 
entire system, and is that system meeting the needs of every 
particular child?
    So, in closing, I say to you that this is probably the most 
important issue to this country, that we need to begin to look 
at other ways in terms of the things that we are doing. I am 
not saying to you that charters magically, by themselves, will 
solve the entire problem. Obviously, I think that charters are 
a part of the solution.
    So we need to keep our minds open. We need to have some 
debate. I don't think that this is a Democrat, Republican, 
black, white, liberal or moderate issue. I think that this is 
an issue to find a way to what is the best for our children.
    Thank you, Mr. Chairman.
    Chairman Kasich. Thank you, Mr. Evans.
    Ms. Markell, let me just ask you in one area, first of all, 
Jeb Bush testified this morning and most of the criticisms you 
had of a school choice program were answered by him. There is 
no slight selection, there are standards. Virtually every 
criticism you had he spoke to in his testimony. What you also 
saw in his testimony was the fact that local districts, as a 
result of getting low grades, made a significant effort to 
improve themselves and to boost themselves.
    Urban schools today in America, more than half of fourth 
and eighth graders fail to achieve minimal standards on testing 
in reading, math, and science. Slightly more than half of urban 
high school students fail to graduate in 4 years. Twenty-five 
percent of American workers in manufacturing, mining and 
construction can't even fill out a job application. And then if 
you take a look at the international standards, which I really 
had wished to talk to the Secretary about, we rate 19th in math 
and science against--we are 19th in the world. Lithuania, the 
Czech Republic, Austria, Slovenia, New Zealand, France, Norway, 
Iceland, they are all ahead of us, and that is just a few of 
them.
    Does it ever bother you that the idea that if we just work 
harder with an absence of competition, because since--between 
1970 and 1997, per-pupil spending in the U.S. rose 91 percent 
in inflation adjusted dollars. I believe you are so committed 
to this and I think the greatest argument against change or 
choice in education is being made by people who have a sincere 
concern that if, in fact, there is choice, the public schools 
will be hurt. But it doesn't seem to be getting any better.
    I have held public office now for 21 years, and I think we 
have lost part of a generation of young people. When you look 
at the evidence of what happens in Milwaukee, when you look at 
Cleveland, when you look at the number of parents that stand in 
line--I was out in California, and parents were in line for 2 
days to get their kids into a magnet school.
    The next panel is going to represent some wealthy people 
who offer scholarships; people are dying to get these 
scholarships, to have some kind of choice.
    Do you ever worry that maybe just doing the same thing and 
not opening the door toward some competition is really the 
wrong way to go, and ultimately we are going to look back and 
say, we lost more of another generation of young people? 
Shouldn't we let the States be able to set programs that if 
they want to have a school voucher program, they should have 
it? If they don't want to have it, they don't need to have it; 
but shouldn't we honor diversity in education and let the 
States be able to choose the kind of educational structure they 
want?
    [The prepared statement of Mr. Evans follows:]

  Prepared Statement of Hon. Dwight Evans, a Representative From the 
                 Pennsylvania House of Representatives

    Good morning Mr. Chairman and members of the committee. I want to 
first of all thank you for this opportunity to discuss with you my 
views on how to improve the educational attainment of this nation's 
children and how I believe that the Federal Government can best support 
this endeavor.
    My views on education have been shaped by both my experience as a 
schoolteacher in the Philadelphia School District and as a member of 
the Pennsylvania House of Representatives for nearly twenty years. I 
have served on the House Education Committee and have been chairman of 
the Appropriations Committee for the last 10 years. I have played a 
leadership role in seeking a greater state role in funding basic 
education and in assuring that state funds were directed to those 
poorer school districts most in need of financial assistance. I 
supported the legislation that authorized the creation of charter 
schools in Pennsylvania and was the moving force behind the creation of 
the West Oak Lane Charter School in my own legislative district in the 
City of Philadelphia.
    While I take a great deal of pride in my efforts in the area of 
education, I also feel a certain sense of frustration over the fact 
that we adults have failed so many children for so long by failing to 
provide them with the kind of education that they will need to succeed 
in the future.
    To remedy this gross injustice, we must not only redouble our 
efforts; we must also redirect them. Our education system must be 
child-centered. Education is not about what is best for the adults in 
the system. It is not about interest groups, one-issue constituencies, 
or protecting favored programs that do not work. It is about teaching 
and learning. What should our children know and what should they be 
able to do? How do we support our teachers to assure that they enter 
the classroom ready to teach and how do we support them so that they 
want to stay there? What are the proper roles of our school boards, 
state governments, and the Federal Government?
    What choices are there--charter schools, magnet schools, inter-
districts schools, even switching to the next closest public school? 
What criteria do we place on using tax dollars?
    I think that we need to start out by recognizing that education is 
and will continue to be primarily a state government and local school 
board responsibility. While I recognize and applaud your efforts and 
support here in Washington, I think the reality is that yours will 
always be a secondary role. It is we at the state level who must set 
education policy and it is those at the school board level who must 
implement this policy. We at the state and local levels are the ones 
who are held most accountable for the success or failure of our 
children's education. I think it is also important to note that it is 
at the state and local level we put up most of the money. Depending on 
the source, Federal support of basic education is estimated to be 7 
percent to 10 percent. Based on the latest information for 
Pennsylvania, Federal support is only 3 percent of the total funds 
available.
    We also need to recognize the fact that the educational delivery 
system is also changing. Until quite recently the education of public 
school children was totally in the hands of state governments and the 
nearly 15 thousand public school districts in this country. This is no 
longer the case. To the mix have been added charter schools and 
programs such as those in Milwaukee, Cleveland and now Florida. We 
should anticipate further changes and design our funding system to be 
flexible enough to meet unanticipated changes.
    Let me continue by laying out what I believe ought to be guiding 
principles for the appropriation of Federal funds. Given both the 
complexities of the issue and the limited time to discuss them today, I 
can only describe them in the most general way.
    First of all, I would urge you to try to move away from categorical 
funding to flexible funding. I realize that funds always come with 
strings attached and I don't expect you to just hand over the money and 
not expect something in return. We at the state and local level should 
be held accountable for improvements in teaching and learning. The 
bottom line should be overall improvement, not just the preparation of 
reports for the sake of preparing reports.
    It seems to me that you at the Federal level need to focus on 
trying to set a few important priorities in education and then 
constructing more flexible grants that combine the dollars from a 
number of categorical grants. By way of illustration it seems to me 
that Federal priorities could be focused in such areas as support for 
the poorest students who are most at risk for academic failure, or 
assisting in the recruitment, education, retention, and professional 
development of highly qualified teachers.
    There should be few conditions attached for the receipt of these 
funds, other than demonstrated improvement in teaching and learning. 
States should not have to institute specific processes or procedures in 
return for funding. Federal requirements such as school report cards or 
the reconstitution of failing school buildings may not meet the local 
needs. According to a survey of accountability measures used by various 
states that was done by Education Week, 30 states already have report 
cards. Will the state of education in this country really improve if 
the other twenty are required to do so? While reconstitution and school 
closures are touted as ``get tough'' measures, there is scant 
information on the usefulness of these tactics. The same Education Week 
survey also reveals that North Carolina, which is often cited for its 
remarkable improvements in educational attainment, has neither closure 
nor reconstitution available to it.
    Second of all, I would urge you to let the states continue to take 
the lead in the development of standards, assessments, and systems of 
accountability that fit our own unique circumstances. Federal funds can 
be used most effectively and efficiently when they complement state 
programs. We need to integrate and coordinate Federal funds as 
effortlessly as possible. While I recognize the potential of such 
programs as the recently implemented Ed-Flex, I would hope that the 
concept is merely the beginning of a more flexible approach to the use 
of Federal funds than an end in itself.
    In closing, I would just ask you to trust us at the state and local 
levels to do the right thing for the education of our children, to 
assist us by providing some of the resources we need to do the right 
thing, and to hold us accountable to do the right thing.

    Ms. Markell. If I may, Mr. Chairman, let me address several 
of the items.
    I did hear Governor Bush this morning. Yes, it does sound 
like a very interesting and exciting program as he presented 
it. I think we do need to remember that it is a new program.
    He also talked about a number of things that have not been 
documented yet. I was fearful, as I listened to him talk, about 
parents not being able to select a private school, because the 
special needs expertise is not there. That was a very strong 
implication.
    We do like some of the things that he proposed. Our concern 
is indeed in moving public dollars into the private arena.
    And we are not opposed to change. I think many of the new 
initiatives that we are seeing out of the Department of 
Education indicates that. We certainly do not maintain and 
advocate maintaining the status quo. That has never been what 
the National PTA is about. In fact, our very founding was based 
on the fact that there were concerns about public education 100 
years ago. What we chose to do was not leave the public school 
system, however, but to stay within the system and demand 
change.
    I think that is what this country is asking us to do, is to 
look at programs that we can replicate, that have positive 
successes; but at the same time, not dismantling the public 
education system. We have grave concerns about what could occur 
if we divert public funds into private schools.
    Private schools do, at this point in time and in many 
situations, select students. They talk about a lottery; we have 
not seen that followed through. That may not be the case yet in 
Florida. We are not sure that that is going to be the case in 
the long run. We have concerns about that.
    Chairman Kasich. If you became convinced that the public 
school system could not improve without the potential loss of 
market share, or if you became convinced that the public 
schools, frankly, were given greater emphasis to improve if 
there was some competition, would you reverse your position?
    Ms. Markell. I can't be convinced to go there quite 
frankly. I think even as we look at----
    Chairman Kasich. No matter what happens, you can't be 
convinced that this system doesn't work? There is no 
circumstance under which you think that giving parents choice 
at the local level to take their kids out of a school system 
where they are not learning and allow those kids to go to a 
school system where they are confident they will learn, under 
no set of circumstances would you say----
    Ms. Markell. If you are talking public versus private, no, 
I would not. Public choice is an entirely different issue. 
Public school choice includes magnet schools and academies, as 
well as charters within the public school system.
    Chairman Kasich. But under no circumstance could you even 
conceive of a situation where you would say that we ought to 
permit choice outside of the public school?
    Ms. Markell. As a strong believer in public education, I 
cannot imagine that I personally would make that change nor 
would my organization.
    Chairman Kasich. I think that speaks volumes right there.
    I recognize the gentlelady from Oregon.
    Ms. Hooley. Thank you, Mr. Chairman.
    I thank both of the panel members. You can both comment on 
this question.
    We have heard a lot about vouchers today. For the record, I 
need to let you know that I am a product, well, I am a product 
of both public and private schools. I went to both. I also 
taught in both public and private schools. There are wonderful 
public schools; there are wonderful private schools. There are 
also some public schools that aren't very good and there are 
some private schools that aren't very good.
    What I haven't heard at all today, with all the talk about 
vouchers, do we ever hold those private schools accountable 
when we send a child with a voucher to a private school? Do we 
ever hold that private school accountable for improved 
learning? How do we know in the Florida model, if you are from 
an F school and you get a voucher, that the school that you 
choose to go to isn't an F school? Are there any standards or 
any accountability for private schools, based on your research 
or your information?
    Mr. Evans. I cannot speak to you specifically regarding the 
issue of vouchers in Pennsylvania, because there is no voucher 
law on the books. But I guess what I would like to kind of add 
to this conversation is, at some point, I would hope we would 
get past this ``us versus them'' approach.
    Obviously, when you begin to start talking about private 
schools or any other entity, the true test is going to be that 
parent; and ultimately if something is not working, you will 
make the assumption that that parent will not keep that child 
in that environment. My general sense is, I can speak about the 
charter school that we have.
    We started a charter school last year. Our principal did 
not work out in the first 4 or 5 months. There were some 
parents who had taken their children out of the charter school. 
We got a new principal. The principal came in, and the 
principal did some of the basic things that were necessary. Now 
some of those same parents who had taken their children out are 
now trying to get their children back into the school.
    So I guess what I am expressing is only my general feeling 
that there is a certain thing called an education tool box and 
that basically these kinds of decisions should be left up to 
the local school district, they should be left up to the States 
to fundamentally decide what works in terms of the child's 
interest.
    I keep hearing this conversation talking about the system, 
the system. What is the system? The system is children. The 
system is not buildings and bricks. It is children first.
    So if you--as you said yourself, you were a teacher, you 
have been in the system, you understand. Everybody here has 
options and choose who sits up on this panel. We all want to 
make a decision, what is in the best interests of our children. 
I don't think anybody should ever, in my view, question the 
fact that what somebody wants to look at in the interest of 
their children, first.
    Secondly, should private schools and other entities have 
standards? Absolutely, everybody should have standards, 
everybody should be held accountable; we all should be. But if 
something is not working, at what point do we say if something 
is not working that we need to have some other options 
available? At what point?
    I can tell you in the case of the City of Philadelphia, 
although there has been some change, there are some high 
schools that have a dropout rate of 30 to 40 to 50 percent. Do 
we continue to keep those high schools functioning as they are 
and basically don't do anything about it? Do we continue to let 
that happen?
    I guess I am just saying to you that I think that we should 
have discussions on the table, we should look at options, we 
should try to look at something. We may need to do something 
different there that hasn't been working. We can't continue to 
do the same thing.
    Ms. Markell. I think as you know in our own State, we have 
private schools that are not accountable to the public. We have 
private schools that have noncertified teachers, that don't 
need to take any form of testing for advancement. That is a 
concern. And I think that is probably one of the largest 
detriments as we talk about the difference between private and 
public education, that there is no level of accountability at 
the private level.
    I think, too, as we look at--and we had the very same 
discussion at the break about moving a student from potentially 
an F school that is a public school to an F private school, 
because our conversation with the Florida PTA folks is that 
there is no judging assessment or criteria looked at for 
private schools as we have given parents choice. That within 
itself says to me that the free market only works when you 
provide consumers all of the information. And if they don't 
have the same level of information about private schools as we 
are able to provide them for public schools, they are not 
making sound choices. That is fearsome, I think, for most of us 
who are such strong advocates of the public education system.
    Ms. Hooley. I think there are a lot of assumptions about 
the benefits of vouchers.
    Again, I have been involved in both public and private 
schools in a lot of different ways. I think there is an 
assumption that private schools are always better than public 
schools when some are and some just aren't. So I am concerned 
that we also need to have some accountability. If we are going 
to use a system that is a mixture of public and private school, 
that we have accountability for everybody.
    Representative Evans, I am a great believer in the idea 
that you try things; some things work, some things don't work. 
I have been involved in education long enough to know that fads 
do come and go. Some of those work. When kids are failing in a 
school, you have to do something about it.
    I can give you some wonderful examples where administrators 
have turned schools around. But if we are going to have 
accountability, which I think we need, then I think we need 
accountability for all.
    Mr. Evans. Congresswoman, I would just say this to you. I 
have never known, particularly, a public school to shut down 
because of academic failure--fiscal failure, but not academic 
failure. I have known that we, particularly in States, just 
continue to invest; even if it doesn't work, we continue to 
invest.
    I understand because I started off by saying I am a product 
of the public school system. The reality of it is, we have to 
figure out something different as a system. I am not saying 
there are not good schools. This constant argument, that people 
think you are going to destroy the public school system I think 
personally is a mistake, because the public school system in 
this country is always going to educate the majority of the 
kids. I do not believe that there is the ``capacity,'' quote, 
unquote, in the marketplace in itself to educate all the 
children.
    In the case of Philadelphia, we have 215,000 children in 
the City of Philadelphia. There are not enough Catholic schools 
or private schools in the borders of the City of Philadelphia 
that could deal with that issue of capacity.
    I believe that that is not the issue. I think the question 
really is, how do we change the dialogue between parents and 
teachers and principals so that parents really feel like they 
are equal partners and they are not just prisoners, and we 
don't just say, ``Well, you have no choice, you can't do 
anything about it, this is what you are stuck with.'' When do 
we begin to say that we put them on an equal plane?
    In the movie, ``Jerry McGuire,'' when they talk about--the 
part, ``show me the money'' and ``follow the money,'' ``show me 
the money'' and ``follow the money'' will change the dialogue 
of discussion if that parent is equal.
    Personally, I believe in the concept that principals should 
have the power to hire and fire. I believe in the principle 
that the principal is the instructional leader. I believe in 
professional development for teachers. I think that teachers 
need to be well trained and need to be ready. But I think the 
power is not really decentralized in the hands of principals. I 
don't know about anyplace else, but I know in Philadelphia, 
principals cannot hire and fire.
    It is like picking a team. Somebody gives you a team that 
is assigned to you; you have no choice, but they want you to be 
responsible if you are a principal. They want you to be in 
charge. You cannot be in charge of an environment where you 
have not picked that team to determine what is necessary.
    Ms. Hooley. Representative Evans, I don't think we disagree 
whether parents should be involved. I think they should. I 
think it makes a difference in the learning of that child. 
Thank you for being here. Again, Ginny, thank you for the 
terrific work you do and for being here today.
    Chairman Kasich. I want to thank you. I would like for both 
of you not to leave, to be able to stay with us. We are going 
to hear from some children. I want to get to them.
    Representative Evans, I can remember--is this the first 
time you have ever testified?
    Mr. Evans. Correct.
    Chairman Kasich. The first time I came down here, I was a 
state senator, I thought they were going to have marching bands 
and I would get an hour, I didn't get a chance to say much, 
most of the people weren't listening. But I want to thank you 
for coming. Your testimony is valuable.
    Virginia, I would like to work with you in the future. 
There is, without question, some common ground. I happened to 
write a book and talked about a lady from the Baltimore schools 
by the name of Trudy Williams, who through pure tenacity was 
able to turn that whole school around, that whole discipline 
around. She fought all the bureaucracies.
    It is possible for people to bring about miracles in our 
public schools. We all want to work together to have that 
happen. I want to thank the two of you. If you want to sit 
right out here in the front, that would be terrific.
    Now I would like to recognize John Walton and Patrick 
Purtill and a host of young people who are going to talk, I 
think, a little bit about their school. I first of all want to 
say, in a strange sort of way, the actions of Mr. Walton and 
Mr. Forstmann really represent what America is all about. I 
think that they have started this program--I guess I ought to 
let him tell us why they started this program, but my 
observation is, they were frustrated, they didn't think 
government would move fast enough, and that there were too many 
futures being lost. And in the great American spirit--
entrepreneurship, ideas, self-reliance--they sat down and said, 
let's put some money behind a true reform program.
    Senator Voinovich was here a little bit earlier, Mr. 
Walton, and he wanted me to compliment you. The Members of the 
House and Senate, I know, are very grateful for the fact that 
while you could be, because of the busy schedule you have and 
the many activities you are engaged in, it would just be easier 
to kind of go about your life. You have decided not to.
    I just mentioned a book that I wrote. It focused on people 
who really had no money, no fame, no real big success, just the 
person next door. Should I do another book, I certainly don't 
want to exclude the people who do have positions and do have 
resources and stand up and apply them, because all too many 
times it is easy to just take care of yourself and not worry 
about the world around us.
    As just another human being, I want to compliment you for 
the efforts that you have made and the priorities that you have 
set. I stand in admiration of your effort. The floor is yours 
to give us whatever presentation you want.
    Where are the children? We are going to have the children 
come on in. If you want to go ahead and start, Mr. Walton, the 
floor is yours.

  STATEMENTS OF JOHN T. WALTON, CO-CHAIRMAN OF THE CHILDREN'S 
 SCHOLARSHIP FUND; AND CHILDREN AND PARENTS IN THE WASHINGTON 
                        SCHOLARSHIP FUND

    Mr. Walton. Thanks a lot, Congressman Kasich. The 
Children's Scholarship Fund, like most things, grew out of an 
idea that has transformed considerably since its origination.
    Starting in 1992, we have seen the growth of scholarship 
funds around the country. They have been fueled by a growing 
sense of--really, of frustration with the possibility of losing 
thousands and thousands and even millions of children through 
the educational cracks.
    I would certainly agree with the participants in the last 
session that maintain that there is a strong public school 
culture, there are many excellent public schools. But the 
simple fact is that we are simply losing too many children to 
an inadequate education. Their opportunities are diminished, 
they are condemned to a life of poverty, often illiteracy, and 
in this country, in this age, we simply cannot afford that 
waste of human capital.
    The scholarship fund was originally actually--the 
Children's Scholarship Fund was Teddy Forstmann's idea. It was 
a wonderful idea. It grew out of the Washington Scholarship 
Fund which, for a thousand applications, we had over 8,000 
children apply. It demonstrated such an incredible demand that 
it was obvious that this was an issue that was really 
appropriate for wider distribution.
    It was an idea that appeared to really have struck a nerve 
with the parents in Washington. As a matter of fact, we have--
Rose Blassingame has brought her three grandchildren with her 
today from Washington--Franciscoe, Diamonesha and Lapria--and 
we really appreciate their coming here. But they are examples 
of the kinds of families and kids that are involved in these 
programs.
    What they do is that they offer--we offer basically a very 
minimal scholarship, it is like--$1,100 is the average 
scholarship. These parents dig into their own pockets and find 
the balance of the tuition necessary for these children to 
attend the school of their choice.
    You would think that since the qualification for these 
programs is for low-income parents that the demand would be 
relatively modest. But starting with 1,000 scholarships in 
Washington, we had 8,000 applications. When the program went 
national, for 40,000 scholarships, we had over 1.25 million 
children represented by the applicant pool.
    Now, that sounds like a lot of kids, but you might say, 
spread over the Nation, that is not really so many. The truth 
is that that was done mostly by word of mouth. There was some 
radio, there was some media promotion of it, but the vast 
majority of those applications came in through word of mouth. 
That is an indication of how parents in low-income communities 
are talking about education.
    We often hear the position that many of these parents are 
too uninvolved, they are too tied up in the struggle for 
survival or social issues, whether it is drugs or any of the 
other afflictions that divert people's attention from their 
children. But the simple fact is that when parents from 
virtually any background perceive that they can have a positive 
influence on their child, that they have true power to change, 
true power to improve, there are very, very few that will not 
take advantage of that option.
    It is that empowerment, it is that extension of equal 
opportunity to low-income parents that has catalyzed the 
support that we have seen across this country from donors, from 
advisory board members.
    I have got to tell you that these folks are from all sides 
of the political spectrum. As a matter of fact, when Teddy was 
talking to me about putting together an advisory board, he 
said, I think we are going to be the only Republicans on this 
board. I said, Teddy, I hate to tell you this, I am not a 
Republican. The point being that this is not a political issue; 
this is an issue about children, it is an issue about 
empowering parents, and it is an issue about, quite frankly, 
giving parents the most important vote that they could have.
    Those of us here in this room today, I doubt that there are 
more than a handful, if that many, that do not have true choice 
of where our children go to school. We can do one of two 
things. We can either pay tuition or we can live in a 
neighborhood with decent public schools. It happens all the 
time. Any realtor will tell you that property values vary with 
the competency, the performance of the schools. We all have 
choice.
    But, my friends, there is a large and significant and 
dangerously vulnerable portion of our population that do not 
have choice. They have no say in the type of education that 
their children get. It may be good. There are cases where these 
parents are well served. But too often when parents have no 
choice, they have no power to either move or pay tuition, the 
educational product is less than any of us would accept for our 
children.
    Probably the most important thing that we have learned from 
this experience is the impact that this type of parental 
involvement, that these parents' ability to cast their vote for 
the school that their child attends--the most important thing 
that we have learned from that is one that you might not 
expect. It benefits the children because the children, more 
often than not, much more often than not, end up getting a 
better education.
    They go to schools where the parents are convinced that 
those schools are--they are treating their children in the way 
that they want them to be treated. They are choosing that 
school; they are monitoring that school. But what really 
happens, the thing that has amazed me, has been the change in 
the families, the change in the parents that we see, of these 
children.
    We see parents who were the parents that you talk about. 
They are the parents that everyone is concerned about that 
aren't very involved; they sort of get their kids out the door 
in the morning and they maybe see them home in the afternoon. 
But they are somebody else's problem, somebody else is taking 
care of it; I am not going to go down there and talk to that 
teacher, that principal, because I left school in the sixth 
grade. Or I don't speak very good English; it is a very 
intimidating environment for me to go down there and represent 
my child at that school.
    But give me some power, give me the ability to determine 
what kind of school is best for my child, and I will talk to my 
neighbors, I will do the kind of informal research that parents 
do when they are trying to make decisions in a neighborhood, 
and I will come up with an answer that would surprise most of 
us sitting in this room with the accuracy of the evaluation. 
Parents are incredibly capable in using their own resources to 
evaluate schools.
    We talk about sending money to public schools. We talk 
about accountability. But the truth is, we don't send money 
anywhere--or sending money to private schools, but we don't 
send--in a government-sponsored program, whether it is 
something that this Congress might enact, if the money follows 
the child, you are not sending money anywhere. What you are 
doing is, you are empowering that parent to send their child 
where they think they will receive the best education.
    I have talked too long.
    Chairman Kasich. Be careful, you are starting to sound like 
a Republican.
    Mr. Walton. I am not a Democrat, either, if that makes you 
feel better.
    The thing that--probably the strongest impression, the 
lasting impression that I have come away from this with is, 
this truly is an issue of equal opportunity. It is an issue of 
providing educational opportunities to parents who have not had 
them the way that we have. Whether we live in good 
neighborhoods or whether we pay tuition in private schools, it 
doesn't matter; we have got choice.
    This is extending opportunity to those parents; it is 
extending the right to vote, to cast the most important vote of 
their lives and their child's life, which is the educational 
environment that their child will be in for the 12 years that 
they are in school.
    I am reminded often of the suffrage movement, where Wyoming 
was the first State to grant the right to vote for women in 
1848. It took us over 70 years before that right was extended 
to women across this country. I cannot believe that this 
country will wait that long to extend the right to vote for 
their child's education to the poor parents of this country.
    Thank you.
    Chairman Kasich. Let us have Ms. Blassingame if she would 
come on up. I know she has a little bit of testimony. I know 
that Patrick Purtill wants to make a short statement.
    [The prepared statement of Mr. Purtill follows:]

   Prepared Statement of Patrick D. Purtill, President and Executive 
                 Director, Washington Scholarship Fund

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to speak with you today. My name is Patrick Purtill and I 
am the President and Executive Director of the Washington Scholarship 
Fund. The Fund was created in 1993 to provide low-income Washington, DC 
children with scholarships to attend private, parochial or independent 
school.
    The Washington Scholarship Fund is committed to providing District 
children with the education they need to be full and productive 
citizens. Our program is aimed at increasing access to education for 
students who come from economically disadvantaged families. By 
providing partial scholarships, WSF gives DC children a chance at a 
brighter future.
    The Fund's program is very simple. Children qualify for a 
scholarship if they:
    <bullet> reside in Washington, DC;
    <bullet> are entering grades Kindergarten through eight; and
    <bullet> meet the definition of low-income as defined by the 
Federal School-Lunch Program.
    Scholarships, ranging from 30 to 60 percent of tuition, up to a 
maximum of $1,700 for elementary students and $2,200 for high school 
students, are awarded by random lottery to eligible families. This is 
the best way to ensure that all students have an equal chance at 
receiving a scholarship. After recipients are notified of their award, 
parents decide which school their child is to attend. WSF plays no part 
in making nor limiting this decision.
    The Fund believes in providing a positive learning environment for 
children as early in their development as possible. For that reason, 
applicants must be entering grades K-8 to be awarded an initial 
scholarship. However, once a student enters the program, the Fund will 
continue to support him or her through completion of high school.
    For the 1999-2000 academic year, 1,354 low-income District children 
will attend over one hundred different private, parochial, and 
independent schools thanks to scholarships from the Washington 
Scholarship Fund.
    An important aspect of our program is that all of our parents are 
required to pay at least $500 of their child's tuition per year. Some 
families pay more, depending on their income and where they choose to 
send their child to school. The Fund requires this financial commitment 
because we believe that parental involvement is essential to the 
success of any child's education. When parents are able to invest in 
their children's future, they feel a true sense of pride, 
accomplishment and ownership. They are the real heroes working to 
ensure their child has a better life and I am pleased that several of 
them are here today to share their experiences.

Prepared Statement of Theodore J. Forstmann, Senior Partner, Forstmann 
   Little & Co., Cochairman and CEO, the Children's Scholarship Fund

    Dante once observed that ``A great flame follows a little spark.'' 
For me the spark was ignited by my work over many years with New York's 
Inner City Scholarship Fund, run by the New York Archdiocese. Impressed 
with its success at educating children for half the cost the government 
system fails to educate the same children, I thought: why not start a 
fund to help low-income families seek a good education wherever it 
could be found.
    So I got together with John Walton and we offered 1,000 partial 
scholarships to students in Washington, DC. After just a couple of 
months, we had received nearly 8,000 applications. Confronted with this 
huge demand, we decided to go national: John and I put up $100 million 
to fund 40,000 scholarships, and the Children's Scholarship Fund was 
born.
    Throwing a lifeline to kids trapped in the worst schools seemed 
like a good idea to me, but would others be willing to brave the 
inevitable controversy and join our cause? I soon found out.
    Those who stepped forward to join our board range from civil rights 
leaders such as Andy Young, Martin Luther King III and Dorothy Height--
from national leaders such as General Colin Powell, White House Chief 
of Staff Erskine Bowles, Barbara Bush, and both the majority and 
minority leaders of the U.S. Senate, Trent Lott and Tom Daschle--from 
sports and entertainment figures, such as baseball legend Sammy Sosa, 
actor Will Smith, Michael Ovitz, Bob Johnson of Black Entertainment 
Television and MTV's president, Tom Freston--from business leaders such 
as Jill Barad, Chairman and CEO of Mattel, to Jim Kimsey, founder of 
America Online--just to name a few.
    The diversity of our board has been a great source of our strength. 
People from all walks of life were generous, not just with their time 
and effort--but their money as well. Soon we had raised $70 million to 
match our initial investment--and with this we set up programs in 40 
cities and three entire states. As calls poured in I thought: why limit 
our scholarships to just these local programs? We worked through the 
logistics, came up with extra funds, and on the Oprah show we made our 
scholarships available to every single low income family in the United 
States of America.
    Yet nothing, not even our experience in Washington, DC, could have 
begun to prepare us for the explosive level of demand for these 
scholarships. By our March 31st deadline we had applicants from all 50 
states and territories--from 22,000 cities and towns across America. In 
many areas huge blocs of the eligible population applied: 26 percent in 
Chicago; 29 percent in New York; 33 percent in Washington, DC; and in 
Baltimore, MD 44 percent applied.
    In total we received one million two hundred and fifty thousand 
applications. That is an almost inconceivable response--made even more 
so when you remember that this is only from people who had heard of our 
program.
    To understand the magnitude of this demand, please remember that 
these are partial scholarships (parents must contribute $1,000 per year 
on average) and low-income applicants (average income less than $22,000 
a year). Consider that $1,000 over 4 years from the parents of one 
million, two hundred and fifty thousand children adds up to $5 billion. 
Five billion dollars from families who have very, very little--simply 
to escape the system that they've been relegated to and to obtain a 
decent education for their children.
    In anybody's book, that has to be an amazing demonstration of 
dissatisfaction with the present system--and a demand for alternatives. 
That's why April 21st--our national lottery day--will be remembered as 
a turning point in the history of American education. The parents of 
1.25 million have put an end to the debate over whether low-income 
families want choice in education: they passionately, desperately, 
unequivocally do. Now it is up to the defenders of the status quo to 
tell these parents, and the millions of others they represent, why they 
cannot have it.
    We have heard most of these arguments before. But as pressure for 
competition and education alternatives grows--as now it must--we are 
bound to hear these same arguments reprised with increasing frequency 
and exaggeration. The arguments against choice fall into four 
categories:
    1. Policy;
    2. Historic;
    3. Civic; and
    4. Legal.
    I'd like to address each of these briefly--since each, like all 
arguments designed to deny freedom, ultimately reveals a hollow core.

                                 Policy

    The first argument against competition in education essentially 
runs something like this: since 90 percent of children are in the 
public education system, we must ``fix'' that system--and fight choice, 
because choices bring competition, and competition will ``destroy'' the 
public schools.
    Let's examine this one. It's certainly true that 90 percent of 
children currently receive education from the government system, or 
what we call public education. But far from being a reason for 
rejecting competition, it is precisely why we must embrace it. Because 
a system that can command, indeed enforce, a 90 percent market share is 
a monopoly. And as everyone knows, monopolies always produce bad 
products at high prices. Because when there is no competition, 
customers have no alternatives. And with no alternatives, they have no 
recourse but to accept whatever a monopoly decides to produce, and pay 
whatever a monopoly decides to charge.
    This is exactly the record of the government monopoly in education. 
In the past forty years alone, we have almost quadrupled per student 
spending--while reducing the student/teacher ratio by nearly 40 
percent. Yet student achievement has stagnated, while important areas 
like literacy and safety have seriously gotten worse. Today, for 
example, a public school education in New York City costs about $8,000 
a year compared to roughly $3,500 in an inner city parochial school. 
Yet the inner city public schools lose half their students before 
graduation, while their parochial school counterparts graduate nearly 
all their students and send most off to college.
    In the face of this shabby performance, we are told that if we just 
keep plugging away at the same old failed solutions--spend more money, 
hire more teachers, and reduce class sizes--we will get different 
results.
    In the meantime, what happens to the child? To people who want to 
maintain the status quo, this is not the primary concern. The primary 
concern is not what happens to the child if he is forced to stay--but 
rather what happens to the system if he is free to leave. By their 
reasoning, no matter how bad the situation gets, we must not help the 
child to leave lest in leaving he makes a bad situation worse. Does 
this make any sense at all? Does the child exist to serve the system, 
or does the system exist to serve the child?
    But even if this argument were not so morally bankrupt, it runs 
completely counter to long settled economic truths. Long before the 
Sherman Anti-Trust Act we knew that monopolies stifle innovation and 
defraud the customer. The solution has never been to increase the power 
of the monopoly. The remedy, which has worked time and time again in 
American experience, is to encourage competition.

                                History

    Competition may be deeply ingrained in America--but according to 
defenders of the status quo, so is what they call public education. 
America, many of us have been led to believe, was founded upon a system 
where government was responsible for educating the public and, as such, 
this system must be considered an underpinning of our democracy, and a 
reflection of our Founding Fathers' deepest aspirations and ideals.
    The only problem with this argument is that it is a total and 
complete falsehood. The government delivery system we have come to know 
as public education wasn't established until roughly 100 years after 
our country's founding. The system it replaced--the system of education 
our country was founded upon--was characterized above all by diversity, 
competition and choice. Parents could choose from a mix of different 
options--while competition spurred innovation and expanded services. 
This approach wasn't perfect, but worked well and was improving. Not 
only did it arguably produce some of the greatest Americans of our 
history, the most basic measure of achievement--literacy--was very 
high, in many states higher than it is today.

                                 Civic

    The third argument claims that the free market approach may have 
worked in a more homogeneous society, but in today's diverse culture we 
need the government system to promote social harmony and teach civic 
values.
    At least the civic argument is a more honest echo of the sentiments 
first voiced by public education's early pioneers. Because while Horace 
Mann and his followers did believe in the efficiency of a government 
model, there was also something else at work in the mid-19th century. 
As huge waves of immigrants fanned some Americans' fear of foreigners, 
education reformers played upon these concerns to raise doubts about 
the ability of immigrant parents, with their exotic religions and 
multi-cultural backgrounds, to make proper decisions with regard to the 
education of their children. The proposed solution was to filter these 
foreign children through some sort of standardized system.
    Conflict began immediately. After the creation of uniform 
institutions for all, the same families that had peacefully co-existed 
in all kinds of different schools--non denominational, Quaker and 
Lutheran, classical and technical--now found themselves at odds. 
Parents were faced with an unwelcome dilemma, either accept that 
others' values would be imposed on their children, or try to impose 
their own values by taking control of the system. Issues changed, but 
the dynamic remained the same, erupting in conflict over Creationism, 
sex education, school prayer, religious holidays, and values education 
such as the ``rainbow curriculum.''
    Attempts to deal with America's religious diversity--whether the 
radical secularism promoted by the left, or the common-denominator 
school prayer promoted by the right--have failed because they remain 
locked inside the parameters of the status quo. By claiming to deliver 
what families need, rather than giving them the power to pursue what 
they want--they needlessly trample individual rights and create social 
conflict.

                                 Legal

    Why not simply enable parents to pursue the education they want? 
According to the fourth, and final argument: it's against the law.
    Here's where the legal argument against choice binds parents in a 
Catch-22. Because the same people who insist that the First Amendment 
prevents children from exercising their faith within the public system, 
argue that it also prevents families from using a fraction of their own 
tax money in order to leave it.
    Since some children might flee to the inexpensive option of 
parochial schools, we're told this would represent an unconstitutional 
establishment of state religion. This argument holds true if, and only 
if, you take one thing out of the picture: the parent. Because in a 
competitive system, it would be the parent who would get the money and 
do the choosing. The fact that this argument fails to take the parent 
into account can't merely be an oversight: it's almost as if the 
government monopoly has so long discounted the customers--the parents--
that they've forgotten that they even exist.
    The irony is that so long as the current monopoly continues to shut 
out competition, non-profit, religious schools will be the only option 
many families will be able to afford. Of course, this is a ridiculous 
result. A truly open, competitive environment in education would 
witness all kinds of new suppliers coming to the fore. If I can 
persuade you for just one moment to look beyond the status quo, perhaps 
you can begin to see the vibrant possibilities, dancing on the horizon 
of a not too distant tomorrow. Who knows where the schools will come 
from. It might be Microsoft, or IBM, or National Geographic, or the 
Museum of Fine Arts.
    To refuse to let such potential suppliers compete with a government 
monopoly is not only senseless--it is wrong. We have seen what state-
sponsored, government-run monopolies have produced in terms of cars, 
like the Yugo, or airplanes like the ones built in the former Soviet 
Union. There has never been an industry, a business or a product that 
competition has not improved. And here, please remember, we are not 
talking about cars or airplanes--we're talking about our children.
    In short, we must introduce competition into education, by bringing 
down barriers to alternative sources of supply, allowing some new 
providers to compete, and allowing parents to decide where their 
children will go to school. Competition, as in all other aspects of 
American life, will be good for education. It will be good for 
teachers, for parents, for children, and for any schools that can 
deliver high quality education. Competition will not hurt public 
education, it should renew it. I believe that every child, regardless 
of their parents' income, should have access to a high quality 
education, and that can be achieved only through opening up the 
government's monopoly on education.

    Mr. Walton, if you would just stay, I am sure we will have 
a few questions for you.
    Is it Rose? Can I call you Rose?
    Ms. Blassingame. Yes, you can.
    Chairman Kasich. OK, Rose, you have got the time.

                 STATEMENT OF ROSE BLASSINGAME

    Ms. Blassingame. It is an honor to be here today speaking 
to the House Budget Committee. It is an even greater honor to 
receive scholarships for my grandchildren from the Washington 
Scholarship Fund. This is primarily because my grandson, 
Franciscoe, was in public school until the sixth grade.
    Looking ahead, I knew what he had learned. I knew what was 
possible for him, and I knew what kind of safety I wanted him 
to have. And I did not see that future in the D.C. public 
school system. But it was also impossible financially for me to 
send him to private school. So I said some prayers and things 
sort of fell into place.
    We won a scholarship through the Washington Scholarship 
Fund and Ted Forstmann. Franciscoe went into St. Thomas More 
and just graduated from the eighth grade there.
    I always knew that he would go a long way even in public 
school. But I realized that he would have to go to college. To 
do this, he would have to be prepared. Public school and home 
teaching was not enough. He needed good preparation at high 
school, and I did not see that in D.C. public high schools. 
There are a few good schools but not enough. So now he is in 
Archbishop Carroll High School.
    Education was my uppermost concern, and then safety. I 
found those in St. Thomas More, which I could not have afforded 
without the Washington Scholarship Fund. With the tutorial 
programs and teachers that care about him, Franciscoe just 
blossomed. I knew after his second year in St. Thomas More, he 
would go into private high school.
    Diamonesha went to public school prekindergarten, and then 
to St. Thomas More kindergarten. She was not prepared. The 
children there were already reading and writing. But she is 
younger and she adapted more easily. By her second semester, 
she was making straight As. She is even taking Spanish. The 
teachers change with different subjects and are more 
specialized.
    I am for public school education. There are still people 
who are too poor to go to private school even with help. But I 
think any sacrifice is worth it for a child.
    D.C. public schools need to be revamped or fixed. I was 
listening to a WOL radio show. The commentator said that it 
would take 6 or 7 years to fix the D.C. public school system. 
Franciscoe does not have that long. Diamonesha would not be 
prepared to go to college. What happens to the children now?
    President Clinton said that you should repair a roof while 
the sun is shining. With D.C. public schools, the sun is not 
shining. The D.C. public school system is just like the 
Titanic, sinking very fast. By the time they fix it, where will 
these kids be?
    My youngest granddaughter, Lapria, is not a child the D.C. 
public school system was even interested in educating. She was 
slated to go to special ed. She supposedly needed physical and 
occupational therapy, but she is in St. Thomas More doing well. 
I wish all the money spent and all the taxes I paid could 
properly educate children, but it can't. There is no sense in 
having lost children.
    People say better children are going to private schools. 
That might be true, but any child has the potential to be 
academically strong. So children will be left behind.
    I will end with this. I met a woman a few years ago named 
Kim. She was dying. The two things uppermost in her mind were 
that her children were taken care of and that they would be 
educated. That way she knew that they could take care of 
themselves and their own children. The first wish was fulfilled 
by her husband. The second wish was answered by the Washington 
Scholarship Fund and Mr. Forstmann. When she died, she had no 
other regrets besides leaving her husband and her girls. She 
knew that her children would be educated.
    To me, that is the most important thing. No matter the 
color, we all want our children to do better than us, to be 
happy and prosperous. The only way to be that way is with a 
better education.
    Chairman Kasich. I want to thank you, ma'am, for that 
testimony.
    [The statement of Ms. Blassingame follows:]

    Prepared Statement of Rose Blassingame, Grandparent, Washington 
                            Scholarship Fund

    It is an honor to be here today speaking to the House Budget 
Committee. It is an even greater honor to receive scholarships for my 
grandchildren from the Washington Scholarship Fund. This is primarily 
because my grandson was in public school until the 6th grade. Looking 
ahead, I knew what he had learned, I knew what was possible for him, 
and I knew what kind of safety I wanted him to have, and I did not see 
that future in the DC public schools system. But it was also impossible 
financially for me to send him to private school. So I said some 
prayers, and things sort of fell into place. We won scholarships 
through WSF and Ted Forstmann. Franciscoe went into St. Thomas More and 
just graduated from the 8th grade there. I always knew he would go a 
long way even in public school, but I realized that he would have to go 
to college. And to do this he would have to be prepared. Public school 
and at home teaching was not enough. He needed good preparation at high 
school, and I did not see that in DC public high schools. There are a 
few good schools but not enough. So, now he is in Archbishop Carroll 
High School.
    Education was my uppermost concern and then safety. I found those 
in St. Thomas More, which I could not have afforded without WSF. With 
the tutorial programs and teachers that cared about him, Franciscoe 
just blossomed. And I knew after his second year in St. Thomas More he 
could go into private high school.
    Diamonesha went to public school pre-kindergarten and then to St. 
Thomas More kindergarten--and she was not prepared. The children there 
were already reading and writing. But she is younger and she adapted 
more easily. By her second semester she was making straight A's. She is 
even taking Spanish. The teachers change with different subjects and 
are more specialized.
    I am for public school education--there are still people who are 
too poor to go to private school even with help. But I think any 
sacrifice is worth it for a child. DC public schools need to be 
revamped or fixed. I was listening to a radio show and the commentator 
said that it would take 6-7 years to fix the DC public school system. 
Franciscoe does not have that long; Diamonesha would not be prepared 
for college. What happens to the children now?
    President Clinton said that you should repair roof while sun is 
shining. With DC public schools the sun is not shining. The DC public 
system is just like the Titanic--sinking very fast. By time they fix it 
where will these kids be?
    My youngest granddaughter is not a child the DC public school 
system was even interested in educating. She was slated to go to 
special ed. She supposedly needed physical and occupational therapy. 
But she is in St. Thomas More doing well. I wish all the money spent 
and all the taxes I paid could properly educate children but it can't. 
There is no sense in having lost children. People say better children 
are going to private schools. That may be true, but any child has the 
potential to be academically strong. So children will be left behind.
    I will end with this. I met a woman a few years ago named Kim. She 
was dying and the two things uppermost in her mind were that her 
children were taken care of and that they would be educated. That way 
she knew that they could take care of themselves and their own 
children. The first wish was fulfilled by her husband. The second wish 
was answered by the Washington Scholarship Fund and Mr. Forstmann. When 
she died, she had no other regrets beside leaving her husband and her 
girls. She knew that her children would be educated.
    To me that is the most important thing. No matter the color, we all 
want our children to do better than us. To be happy and prosperous. And 
the only way to be that way is with a better education.

    Chairman Kasich. Mrs. White is also here to testify.
    Mrs. White, you have got the stage, go ahead and grab that 
microphone.

                 STATEMENT OF MS. VERMONT WHITE

    Ms. White. Good afternoon. My name is Vermont White. I am a 
single parent of four children, three girls, one son. Three of 
them attend St. Francis, thanks to the assistance of the 
Washington Scholarship Fund.
    I applied for the Washington Scholarship Fund because I 
wanted a chance to offer my children a better quality of 
learning. I knew the chances of winning a scholarship were low, 
but a cousin of mine convinced me to apply. I also saw the 
Oprah Winfrey show, who featured the program on her show. Then 
I found out that I had received a gift of the Washington 
Scholarship Fund for my kids.
    If I had not received the Washington scholarships, I still 
would have done my best to send my children to private school.
    Their education at St. Francis Xavier isn't free. I have to 
pay a portion of their tuition. The scholarship has helped ease 
my financial burden I was facing paying for three kids to 
attend a private school. I honestly can breathe now to know 
that my kids' education is funded by the Washington Scholarship 
Fund. But if I have to get a second job to keep them at a 
private school, I will. If I have to scrub floors, they are 
going to get the education they deserve.
    I have given up my social life. It does not matter to me as 
long as my kids get a good education. If Washington Scholarship 
Fund gives you so much, you have to give the rest.
    It gives me a chance to be even more involved in my 
children's lives. Since I can't count on a public school bus to 
pick up my children, I have rearranged my current work schedule 
and taken an afternoon job at St. Francis Xavier where my 
children are now attending. That way, transportation won't be a 
problem.
    Before I won the scholarship, I worked hard to get my 
children into the best public schools I could find. Every day I 
sent them by Metro to a school in northeast Washington that I 
thought would give them a better education than the schools 
they were--where I lived. The public school in my neighborhood 
shut down, forcing the students to move. The teachers could not 
spend as much time with each child as we needed. Just from 
being in southeast Washington, I think some public schools 
suffer.
    What the private school offers my children is smaller 
classrooms, one-on-one time with their teachers, and not a lot 
of classroom disruption or disturbance. They will have to work 
hard; actually, they will have to work extra hard to catch up 
with the kids who have been there for a while. But my children 
want to go to college. One wants to be a teacher, the other 
wants to be a doctor or nurse. And another has decided that she 
wants to go to Yale Law School. So I will work hard to do 
whatever I need to do to make sure she goes to Yale.
    [The prepared statement of Ms. White follows:]

  Prepared Statement of Vermont White, Parent, Washington Scholarship 
                                  Fund

    Good afternoon. My name is Vermont White and I am a single parent 
of four children, three of whom attend St. Francis Xavier School thanks 
to the assistance of the Washington Scholarship Fund.
    I applied for the scholarship because I wanted the chance to offer 
my children a better quality of learning. I knew the chances of winning 
one of the scholarships were low but a friend of mine convinced me to 
apply. I also saw Oprah Winfrey's feature of the program on her show. 
Then I found out that I had received the gift of WSF scholarships for 
my kids.
    If I had not received the scholarships, I still would have done my 
best to send my children to private school. Their education at St. 
Francis Xavier isn't free. I have to pay a portion of their tuition. 
The scholarships help ease the financial burden I was facing with 
paying for three kids to attend a private school. I can breathe now. 
But if I have to get a second job to keep them at private school, I 
will. If I have to scrub floors, they are going to get the education 
they deserve. I have given up my social life. It does not matter to me 
as long as the kids get a good education. If WSF gives you so much, you 
have to give the rest. It gives me the chance to be even more involved 
in the lives of my children.
    Since I can't count on a public school bus to pick up my children, 
I have rearranged my current work schedule and taken an afternoon job 
at St. Francis Xavier where my children are going to school. That way 
transportation won't be a problem.
    Before I won the scholarship, I worked hard to get my children into 
the best public schools I could find. Every day, I sent them by metro 
to a school in Northeast Washington that I thought would give them a 
better education than the schools where I live. The public school in my 
neighborhood shut down, forcing the students to move. The teachers 
could not spend as much time with each child as was needed. Just from 
being in Southeast Washington, I think some public schools suffer.
    What the private school offers my children is smaller classrooms, 
one on one time with their teachers, and not a lot of classroom 
disturbance or disruption. They will have to work extra hard to catch 
up with the kids who have been there for a while. But my children want 
to go to college. One wants to be a teacher, another wants to be a 
doctor or a nurse, and another has decided she wants to go to Yale Law 
School. I will work so that college happens for them.

    Chairman Kasich. Let me ask the two ladies, Rose and 
Vermont, it would just seem to me intuitively that there are a 
lot of people who feel as though they really don't have much 
power and much control in terms of their children's future.
    Have you women given any consideration to linking with 
other women around the country who have received these 
scholarships and trying to create some kind of a movement, some 
kind of an effort, to demand the kind of reform and freedom 
that you have for everyone who could be in your situation and 
didn't get the break, right? Have you given any thought as to 
how you can create a movement to try to create more reform in 
our public schools?
    And, Mr. Walton, have you given any consideration?
    I tell you, we have a lot of very smart people here today, 
but these are the only two testimonies I am taking with me. 
They are as compelling as anything I have heard here in this 
committee room since I have been in this committee room. What 
are we going to do to get you to be part of a movement to touch 
other ordinary Americans who feel as though they don't have 
this chance?
    Ms. Blassingame. Well, myself, I have met other parents 
through Mr. Forstmann----
    Chairman Kasich. You need to use that microphone, Rose.
    Ms. Blassingame [continuing]. Through Mr. Forstmann. 
Franciscoe, the girls and I have met other parents with 
scholarships--one in particular in California; the other, a 
couple in New York; one here, like I said, Kim Rogers, who was 
very, very special to me. I have met several other parents who 
are scuffling even with the scholarships to keep their kids.
    I often think about other children that I wish to be in the 
scholarship fund and can't be because I can't afford to put 
them in. I look at kids in my neighborhood, I don't have to go 
across the country. I live in a building with 400 apartments. 
The majority of these kids have to go to Leckie School or P.R. 
Harris Junior High School. I have them in my home.
    I try to get--I went to Leckie Elementary School, and I 
suggested to the principal there that she distribute fliers for 
the Washington Scholarship Fund. At that point, I was also 
discussing Lapria, who was a child born 24 weeks, only weighed 
18 ounces, went into cardiac arrest when she was 3 weeks old 
and had some brain damage. She was never supposed to walk, 
talk, sit up or do any of those things. I was discussing 
Lapria's education with this principal, and the possibility of 
D.C. public schools being able to educate children like her.
    The doctor says she is an exception. She doesn't have to be 
the exception; she can be the rule. It is only a matter of 
retraining these children's brains. And if a child like Lapria 
with 10 percent of the brain in her head damaged--the 10 
percent that we use was damaged in her head--she is actually 
using the other 90 percent of her brain. Now, if a child like 
her can be retrained, then any child can.
    I was told by the principal of Leckie Elementary School 
that if I wanted that child educated, I had better get her out 
of the D.C. public school system. This remark was made by a 
principal.
    Now--DC, I am not knocking D.C. Schools and this is not 
unusual. This is really not unusual for D.C. public schools. 
You all aren't involved in this. We are; we know what is 
happening, and it is not just happening here. The lady that I 
talked to from California, it is the same thing there. In New 
York, it is the same thing. It costs money for us to do 
anything like you are talking about. It is not something I 
haven't thought of. But right now I am scuffling just to send 
these children to school.
    They used to get one night, one evening a month we used to 
go to McDonald's. That doesn't happen anymore. One time every 6 
months, I could go to the hairdresser; that doesn't happen 
anymore. It is harder than you think for people, even with 
scholarships, to do these things. You can talk to people 
forever, but if you don't show them how it can be done--and it 
is really, really hard.
    Sure, I imagine, I wish I could go around the country, I 
wish I could travel and talk to other parents. I wish we could 
really put this together, but we don't have the money. There is 
no point in sitting here to try to talk about it. I dream about 
it, I think about it, I see it; I see it right there in my own 
neighborhood, but--it is nothing I don't see.
    Uppermost in my mind at this point is educating my 
children. And that is--it is being selfish, it is really a 
selfish thought. But in order to do what you are suggesting 
that we do, I would have to put their education aside, and I 
can't do that.
    Chairman Kasich. Well, you just taught me something, ma'am, 
something I forgot. It is what you can do where you live, not 
where you do--what you do other places. It is just that you are 
such powerful voices that fight against a sense of injustice, 
you know. And if Americans hear this, maybe the politicians 
would be a little bit more brave.
    And that is not meant to say that we don't need a lesson on 
our side of the aisle, that we have got all the answers either. 
Sometimes we put big interests ahead of the resources that are 
necessary for people who don't have any clout. We all need to 
have more courage, and you are showing it.
    And, John, I just wonder if there is a way in which some of 
these stories--they are just so compelling--can be displayed 
across the country. Have you given this any thought at all, 
videotapes or--you know, there is hope.
    But it is a movement. Can you help stoke that movement a 
little bit more, not just with the program itself, but some 
vivid illustrations of how giving parents more power can make a 
huge difference?
    Mr. Walton. Well, I am sure that can be done. I think there 
are people obviously very capable of doing that, and I think it 
should be done because these are stories that are--I mean, I 
simply cannot ignore these stories. You cannot ignore the 
parents. You cannot ignore their experiences. You cannot ignore 
what is at work when these parents are empowered to cast that 
deciding vote for their child. This story does need to be told.
    I am afraid, in another sense, we have been a little bit 
like Rose, that we have been focusing in on trying to get the 
kids----
    Chairman Kasich. Put the fire out?
    Mr. Walton. Right.
    Chairman Kasich. We can think about that at a little later 
date; we can talk about that.
    Let me recognize Mr. Spratt.
    Mr. Spratt. Let me join the chairman and say it has a been 
a very compelling presentation on the part of all of you.
    I had a daughter who went to public school in Washington at 
John Eaton Elementary School, and one of the reasons that 
school worked was there was a lot of parental involvement in 
it, dating way back to the time when Mrs. Mondale herself, who 
lived in the neighborhood, got involved; and it was sort of a 
magnet school.
    I can remember when I was at Yale Law School, I had friends 
who went to public high school in Washington, D.C., and they 
thought Woodrow Wilson High School was one of the best schools 
in the country. And what has happened in D.C.? What is it about 
the private schools that your children are now able to attend 
that makes them so much better than the D.C. public schools? Is 
it safety and security in the classroom, teacher relationships, 
better students with whom they go to school, students who want 
to learn, better extracurricular programs? All of the above? 
What is it and can we replicate it and do it--obviously we have 
got to improve the D.C. public schools, as well as support 
programs like yours.
    Ms. Blassingame. I think it is all of the above.
    I will give her a chance to talk.
    I think with the extension of--they are not better kids; 
they are just kids given the opportunity to learn. Kids--with 
everything else, you just said.
    There are extracurricular activities. Franciscoe went into 
St. Thomas in seventh grade, so he had a lot of catching up to 
do. But the tutorial programs were there for him. The teachers 
in private schools have to tutor. Even where he is at 
Archbishop Carroll, if they don't tutor at 7 in the morning 
then they have to tutor in the evening. This is mandatory. The 
D.C. public schools, it doesn't happen.
    Don't get me wrong, I was born and raised in Washington, 
D.C. I am a product of the D.C. public school system in 
Washington, D.C., the old public school system. It worked at 
that time. I got the type of education in D.C. That Franciscoe 
is getting in private school now. I remember my 12th--I can 
remember my first grade teacher. My first grade teacher was a 
real sweet teacher, and I remember her because she was always 
tying my ribbon.
    My second grade teacher, I thought she was the meanest 
person in the world. But she told us all we were not getting 
out of her classroom--they called it cursive writing, we were 
printing then--unless we could write, because she would not 
have us go into a third grade class without her having taught 
us properly. And that happened, and we all wrote legibly. I 
still have the big writing now to this day.
    In the 12th grade, I remember my English IV teacher telling 
me that no one got an A in her class unless they was as smart 
as she was. She had been going to college all the time and was 
still going to college. So, of course, no one ever got an A.
    But I am saying D.C. public school system worked at one 
time, and a product of like--and like you say, you know, people 
who are a product of that. It is not working now. That is where 
he is not--the education that I got, I am paying for him to 
get. We played volleyball, we had playgrounds to play on. They 
were safe. There was no one running around or shooting or the 
gangs or all that other stuff.
    Mr. Spratt. You live here now. Do you think we can restore 
those conditions, do you think the school system is fixable; 
and if so, what does it take?
    Ms. Blassingame. You can fix anything. And that was what I 
read in my statement, and was what I intended to put in there: 
What do you do with the children now until you fix it? Because 
you can't fix it overnight. It didn't fall down overnight.
    Mr. Spratt. Ms. White.
    Ms. White. I have a daughter who goes--my oldest daughter 
attends a public school; she goes to Jefferson Junior High. She 
when to Burville Elementary School in Northeast, one of very 
few elementary schools where it was mandatory that they wore 
their uniforms. In the private schools now, I have a 9-year-old 
daughter who just did not like her teachers at the public 
schools. She would not do homework; she would not even do her 
work in class. Every day I was called to go to her school, but 
before I got the call at 1 in the afternoon to let me know that 
she had been sitting in the office all day, when they decided 
to call me.
    So I decided that I was going to put them into a private 
school. Before I even got the Washington Scholarship, I looked 
to St. Francis.
    She is in a classroom now of maybe 13 kids. When I pick her 
up in the evening before I even go to After Care, because I am 
in the After Care program, in the after-school program, every 
day she comes to me and she says, Mommy, can you please help me 
with my homework? Whereas when she was in elementary school, 
when I would get home from work, I would say, Do you have 
homework, she would say no. Now it is like, Can you please sign 
the papers, they have to be back at school tomorrow.
    So where they were in elementary school, I cared, but it 
wasn't like, well, have you to get this done. Just like in his 
statement he gave earlier, you just--you dread going to the 
school because you know that there is going to be a problem. 
Now, I look forward to getting up every morning at 5 o'clock, 
making sure they have their bath, making sure I cook breakfast, 
making sure they get there, because I know they are going to 
get the proper education that they need now in order to be a 
doctor, a nurse or in order for my seventh grade daughter to go 
to Yale Law School. So it is--we, as adults, need to take the 
time to go into the schools, take a day off of work, whereas 
work is important, but the--our children are our future. They 
will be the future leaders sitting up in the chairs talking 
about the education they have or sitting here saying, well, we 
need to do this.
    There are a whole lot of other things that we need to 
change, but we need to take the time out to say, OK, today is 
the day that I am to go into a public school and sit down and 
help read to a child, help a child do math, help a child learn 
their times tables. It is just we need to take the time; as an 
adult, we need to take the time. Because you gave your daughter 
the proper times, there are other parents who just do not care. 
Their child could be the next president; they just won't sit 
down and take the time. That is what we need to do, take the 
time to give to our children, give them back what we have 
already learned.
    Chairman Kasich. Any other questions?
    Mr. Nussle. I think I would like to take the time right now 
and hear from Franciscoe, and if he wants to tell us a little 
bit about his school, his favorite subject and how he likes his 
school.
    The stories we have heard from these witnesses are very 
enlightening. You are helping to show the light. We thank you 
for that. It demonstrates to me how little Washington does know 
in a one-size-fits-all system when the struggles you are 
telling us about are different certainly from the ones we deal 
with in Iowa and in the State of Florida that we heard about 
this morning.
    But maybe this young man here who is our future would like 
to tell us a little bit about school and what his favorite 
subject is.
    Mr. Franciscoe Blassingame. My name is Franciscoe 
Blassingame. I go to Archbishop Carroll. My favorite subjects 
are math, music, and PE.
    Chairman Kasich. PE, phys ed.
    Mr. Nussle. Well, now I know you are just a regular school 
kid. I can tell you that much. My son is the same way; his 
favorite subject is PE. I am not surprised.
    Do you sing or play an instrument for music?
    Mr. Franciscoe Blassingame. Neither. I am in what they call 
``intro to music,'' where it teaches us how to read the notes 
and listen to how the different beats are in songs.
    Mr. Nussle. We hope you continue to work hard, and we sure 
need you and thank you for coming today and talking to us.
    I hope your friends get to watch this maybe a little bit on 
TV.
    Chairman Kasich. Next time in, we will have your sisters 
come up here.
    John, any questions?
    Mr. Sununu. Thank you, Mr. Chairman.
    Thank you, ladies and thank you, John, for taking the time 
to talk with us. My only observation is, after hearing you 
describe the programs and the attitudes of your children and 
grandchildren, and provide a different perspective, that the 
Scholarship Fund and the Opportunity Scholarships to a large 
degree are about empowerment, they are about accountability, 
accountability for both the schools and your students. And, of 
course, they are about your own involvement, parental 
involvement. And both the members of the committee here and the 
administration, that hasn't supported the Opportunity 
Scholarships, recognize that parental involvement and 
accountability and performance standards for students are 
essential to good education. I think that is exactly what the--
what it appears the result of your experience with the 
Scholarship Fund has been.
    So I thank you for bringing the personal experience of the 
Scholarship Fund to the committee.
    And my only question, I think, for Mr. Walton would be, are 
you seeing, or what are you seeing at the State or the local 
level as obstacles to the success of the fund? Obviously, money 
is always going to be an issue, the more funds you have, the 
more scholarships you can offer. But aside from finances, are 
there political obstacles or informational obstacles that you 
are seeing and is there anything that we can do to help you be 
more successful?
    Mr. Walton. No. Actually, the biggest obstacle to the 
Scholarship Fund is simply the limited resources of the private 
sector to provide enough scholarships for all the parents that 
would like to have them, to provide them in an amount that 
would allow low-income parents to--in other words, you have a 
system that is spending $6- to $8-or $9,000 per child, and 
these parents are getting $1,000, $1,100, and they are chipping 
in another $1,000 or whatever on their own.
    It is really a good resource problem, but quite frankly, 
the political side that we deal with--very little political 
opposition in the Scholarship Fund. I think I--but of course, 
private funds are limited for this sort of thing. And we do 
what we can with them, but there are limits. The real obstacles 
come, of course, when it moves into public policy.
    Mr. Sununu. Do you think that the Opportunity Scholarship 
Program that Governor Bush talked about in Florida or that has 
been proposed for the Washington, D.C., public schools would 
meet with the same kind of success, the parental involvement, 
the accountability and the performance that you have seen as a 
result of the work of the Scholarship Fund?
    Mr. Walton. You know, I am somewhat familiar with the 
Florida program. I am not familiar with the detail of the 
Washington program. But basically, if you empower parents, if 
you give parents, low-income parents the same opportunity to 
choose that we have, and the program is intelligently designed, 
it is going to do exactly what our scholarship programs do. It 
is really that simple.
    Mr. Sununu. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Kasich. Let me thank all of you for coming. And, 
ladies and Mr. Walton, I want you to know, as determined as you 
are for this--well, I am not sure I can be as determined as you 
two ladies are, but I am as determined as I can possibly be to 
my core to fight for this issue. Either in the government or 
out of the government, I am going to help as much as I possibly 
can.
    And we appreciate the fact, Mr. Walton that you have stood 
up to the plate with some great success and things I can take 
from this hearing today.
    I want to thank the members for being here since about 
10:15 this morning. I think it has been an excellent day. We 
look forward to further hearings on this subject, and I want to 
thank everybody for being here today.
    The committee will stand adjourned.
    [Whereupon, at 2:45 p.m., the committee was adjourned.]

                                <greek-d>
</pre></body></html>
